<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 DEPARTMENTS OF COMMERCE, JUSTICE, AND
                   STATE, THE JUDICIARY, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 1999

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES

                    HAROLD ROGERS, Kentucky, Chairman

JIM KOLBE, Arizona                 ALAN B. MOLLOHAN, West Virginia
CHARLES H. TAYLOR, North Carolina  DAVID E. SKAGGS, Colorado
RALPH REGULA, Ohio                 JULIAN C. DIXON, California
MICHAEL P. FORBES, New York        
TOM LATHAM, Iowa                   

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

          Jim Kulikowski, Therese McAuliffe, Jennifer Miller,
                    Mike Ringler, and Cordia Strom,
                           Subcommittee Staff
                                ________

                                 PART 9

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
48-964                      WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          












                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director










DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 1999

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                          Thursday, March 12, 1998.

                          MEMBERS OF CONGRESSS

                                WITNESS

HON. ALFONSE D'AMATO, A U.S. SENATOR FROM THE STATE OF NEW YORK
    Mr. Rogers. The Subcommittee will come to order. We will 
now commence the hearing at which individual members may 
present their views on various aspects of the Administration's 
budget request for Fiscal Year 1999.
    Your statements will be made a part of the record, and we 
hope you can keep your remarks within a five-minute time frame. 
We are pleased to have, first, the Senator from New York to 
testify. We are going to hear from the Commission on Security 
and Cooperation in Europe and we are pleased to welcome the 
Commission's Chairman, Senator D'Amato from New York.
    We have also received a statement from the Co-Chairman, 
Chris Smith, which will be made a part of the record and 
because of the time schedule we hope that you can keep your 
remarks within five minutes.
    Senator D'Amato. Mr. Chairman, first of all, let me thank 
you for giving me this opportunity. I know there are some 
colleagues who are here waiting to testify and, therefore, I 
would ask that my full statement be entered into the record as 
if read in its entirety.
    Mr. Rogers. Without objection.
    Senator D'Amato. And then, Mr. Chairman, let me say that it 
has been a great honor to work with you and your Subcommittee. 
I believe that, overall, our Commission has one of the best 
records in terms of not only what we do but have done in 
confronting the important issues. We are going to have a 
hearing this coming week on Kosovo, on the events that are 
taking place, we are all deeply concerned, but that is one of 
the areas that we will be working on.
    But the Commission has stayed within the same budget 
parameters for the last four years. We have never had an 
increase and this is the first time in four years that we will 
be asking for an $80,000 increase. So, we will be requesting an 
appropriation of $1,170,000 and that is because we can simply 
not meet all of our obligations keeping our staffing at the 
present level, without those additional resources.
    Again, I have been very reluctant, nor, have I ever 
requested an increase. This increase is very, very modest. It 
is a 6 percent, first-time in, actually it would be, five years 
that we have come for a request.
    [The information follows:]


[Pages 3 - 12--The official Committee record contains additional material here.]



    Mr. Rogers. Now, is that just an increase for inflation or 
are you talking about more staff or program add-on?
    Senator D'Amato. No. Just to continue at the present 
staffing level. Yes, just to meet the inflationary needs.
    Mr. Rogers. All right.
    Now, I understand that two of the Executive Branch seats on 
the Commission are vacant; the State Department seat is the 
only one that has been filled.
    How long have the Commerce and Defense seats been vacant?
    Senator D'Amato. They have been vacant more than a year. I 
think that the Administration has not done what it can or 
should, Mr. Chairman.
    Mr. Rogers. Is that a problem?
    Senator D'Amato. Yes, it is. I do not think the 
Administration is too anxious to have Congress undertaking this 
vital work, to be quite candid with you.
    Mr. Rogers. Are you still able to get the cooperation you 
need from Commerce and Defense despite the vacancies?
    Senator D'Amato. Yes, but it is more difficult. There is no 
one with the real accountability.
    Mr. Rogers. Mr. Mollohan?
    Mr. Mollohan. No questions, Mr. Chairman.
    Mr. Rogers. Thank you very much, Senator.
    Senator D'Amato. Mr. Chairman, let me thank you, good to 
see you.
    Mr. Rogers. Thank you, thank you very much.
    Mr. Cramer?
                              ----------                              

                                          Thursday, March 12, 1998.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. ROBERT E. CRAMER, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF ALABAMA
    Mr. Cramer. Thank you, Mr. Chairman.
    I also have a statement that I will submit for the record 
and I will be brief. I am here, again, on behalf of the 
Children's Advocacy Center programs. It is a program that 
started at the front line when I was District Attorney in 
Alabama, back in Alabama back in 1985. The program with this 
committee's help has grown tremendously.
    We are in your budget for $5.5 million and we were the 
subject of the uncontested motion to instruct last year and we 
thank you for that very positive attention that we received.
    We are working with OJJDP, again, to administrator the 
program. There are 156 full member programs around the country; 
77 associate members of the program; and another 100 potential 
member programs.
    What this funding allows this program to do is to reach out 
on the front line and, frankly, it brings the public sector and 
the private sector together at a time when the public sector is 
overburdened with child abuse cases, and in a neutral based 
facility, these community-based child abuse teams do their 
intervention with children and families.
    So, we think we provide the mechanism for successful 
prosecutions, for prosecutions that make sense, for the safety 
net that children and families should have; networking then 
with other treatment resources within the community and I think 
it is working just as you would want it to work.
    So, we thank you for the funding that you have given us in 
the past and, just in case you find any extra funding, we would 
be glad to take that as well.
    [The information follows:]


[Pages 15 - 18--The official Committee record contains additional material here.]



    Mr. Rogers. You are asking for level funding?
    Mr. Cramer. That is correct.
    Mr. Rogers. That supports 300 local centers?
    Mr. Cramer. Yes.
    Mr. Rogers. Any questions?
    Mr. Mollohan. No, Mr. Chairman, I would like to compliment 
the gentleman on his leadership in this area. He deserves to be 
supported in his efforts with the agency as the program is 
developed.
    Mr. Cramer. Thank you very much.
    Mr. Rogers. Well, congratulations on your leadership.
    Mr. Cramer. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you very much.
    Mr. Rogers. Nancy Pelosi.
    Ms. Pelosi. Mr. Pallone was here before me.
    Mr. Rogers. All right, Mr. Pallone.
                              ----------                              

                                          Thursday, March 12, 1998.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. FRANK PALLONE, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Pallone. I will be brief.
    Mr. Chairman, I have a full statement for the record, but I 
would just summarize, if I could ask that the full statement be 
included in the record.
    Mr. Rogers. It shall be.
    Mr. Pallone. And I just want to briefly talk about some of 
the NOAA programs. I have a whole list of things that are 
mentioned in the full statement.
    I represent the Jersey shore and I also co-chair our 
Coastal Caucus in the House. And we are interested, in 
particular, in a number of the NOAA programs and funding.
    I think you know that the President had requested a major 
increase in funding for the non-point source pollution program 
which is the number one threat really to our water quality 
today around the country. And we sent you a letter on a 
bipartisan basis from the members of the Coastal Caucus 
basically requesting the Administration's level of $22 million 
in funding for NOAA to help protect our coastal waters and, 
particularly, with regard to the non-point source pollution 
program.
    Some of this goes to the States in grants, some of it is 
used for Federal programs directly. Essentially it is a 
combination to try to achieve the goal of trying to improve the 
problem that comes from non-point source pollution.
    The second thing I wanted to mention was the National Sea 
Grant College Program. Yesterday I went to the program's 30th 
anniversary year reception and I was a Sea Grant extension specialist 
in New Jersey and know the program is a very good program.
    Basically we are trying to get continued funding for the 
program at a level of $64.8 million. This is the amount that is 
in the recently passed Sea Grant reauthorization bill. It is 
really an excellent program because of what it does in the 
community, I would say.
    And, third, I wanted to mention and this comes up every 
year, our fisheries lab, our NOAA lab in Sandy Hook, New 
Jersey, in my district. I am requesting that $2.25 million of 
the construction budget, NOAA's construction budget, be 
allocated to the lease for the James J. Howard Marine Science 
Laboratory. It was named after my predecessor, Jim Howard.
    This was worked out with the State when the lab was 
constructed and on an annual basis the Federal Government will 
contribute a certain amount for the lease of the fisheries lab.
    And, last, I wanted to point to the National Undersea 
Research Program, the NURP program, which is the nation's only 
program dedicated to advanced underwater research in the 
coastal oceans and the Great Lakes. We are requesting that the 
Subcommittee support $18 million in funding for NURP. This is a 
program that exists at a number of the universities around the 
country, including my own, Rutgers University.
    And the President requested $4.1 million and I am asking 
that this be funded at the higher level of $18 million because 
I do not think that the $4.1 million that was requested really 
will be sufficient for the various programs that NURP provides. 
And this is something that we have talked about quite a bit in 
our Resources Committee and had hearings on it.
    It really again is a very valuable program that I think 
that the subcommittee would support, hopefully, at that level 
of funding.
    Thank you, Mr. Chairman.
    [The information follows:]


[Pages 21 - 30--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you very much.
    I appreciate your coming.
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Mollohan?
    Mr. Mollohan. No questions, Mr. Chairman.
    Mr. Rogers. Ms. Pelosi?
                              ----------                              

                                          Thursday, March 12, 1998.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. NANCY PELOSI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Ms. Pelosi. Thank you, Mr. Chairman and Mr. Mollohan.
    Mr. Chairman, and Mr. Mollohan, first, I want to thank you 
very much for the opportunity to appear to discuss the Fiscal 
Year 1999 funding request for your very important Subcommittee 
but I also want to thank you for your past support for some of 
the requests that I have made, including Radio Free Asia, the 
Asia Foundation and other programs.
    I thank you again, Mr. Chairman, for your support during 
the Fiscal Year 1998 conference for the provision based on 
legislation that I introduced to ensure that victims of 
domestic violence are not disqualified from eligibility for 
legal services based on the income of their abusing spouses and 
for including language to assist the San Francisco Juvenile 
Justice Action Plan. Thanks for that and thanks, generally, for 
your leadership in balancing the priorities to you and Mr. 
Mollohan in this very important bill.
    As a former member, I recognize full well the breadth of 
this Subcommittee and the challenges that you have.
    On the subject of Radio Free Asia, I understand the 
Administration has requested $19.4 million for Radio Free Asia. 
I respectfully request that the Committee consider at least 
that amount. In fact, I hope you will seriously consider 
providing $25 million for Radio Free Asia. As you may recall 
the authorization from last year was for $32 million.
    Just to give you a mini-ten-second report, because I 
knowyou want to know if it is reaching the target. It is my 
understanding that Radio Free Asia is currently transmitting 18 hours a 
day in China; 12 hours in Mandarin, two of Cantonese, and four of 
Tibetan. We would like to bring that up to 24-hour service.
    In terms of jamming, I thought you would be interested to 
know that in Vietnam and China the Radio Free Asia broadcasts 
are being jammed. In the case of Vietnam, jamming is almost 
total. In the case of China, some signals are getting through 
and RFA reports that it is receiving good feedback from all 
over China on the broadcasts that are getting through.
    Without the leadership of you, Mr. Rogers, and Mr. 
Mollohan, Radio Free Asia would simply not exist. Thankfully, 
it does and it is making a difference and I and many others 
thank you for that.
    The Asia Foundation is requesting $10 million and then the 
Administration added another $5 million for the Asia Foundation 
for a rule of law program in China. I come here with an unusual 
request. I have discussed the China proposal with the Asia 
Foundation. I still have some questions about it.
    But I wholeheartedly support the $10 million, and this $5 
million program would have more information for it. I would 
like you to consider it. If they got $10 million, there could 
not be $5 million for China and $5 million for the regular 
program. They need $5 million for the Asia Foundation.
    The rule of law program in China will have to stand on its 
own and I would hope that if it is a good program that the Asia 
Foundation would be the entity. But I just wanted to make the 
distinction between the $10 million and the $5 million.
    Onto the Justice part, this year I am requesting that the 
Subcommittee work with our office to develop report language to 
address a serious concern about insufficient INS staffing at 
the San Francisco International Airport. You will probably hear 
this from many members. Like many airports, the number of 
immigration officials employed at our airport currently falls 
far short of the staffing ceiling. We are in the process of a 
huge expansion at our airport, I am particularly concerned that 
travel to and from Asia greatly exacerbates the problem.
    I would hope that the report language could address that 
serious insufficiency in terms of INS staffing at the airport.
    State and Local Law Enforcement Assistance Program. Again, 
Mr. Chairman, thanks for your help in support of the San 
Francisco's Juvenile Justice Action Initiative in the Fiscal 
Year 1998 appropriation. This year, I hope the subcommittee 
will agree to provide $1.5 million in the Edward Byrne 
discretionary grants under the Department of Justice for the 
Delancey Street Foundation Criminal Justice Council Juvenile 
Justice Partnership.
    If you had the time, Mr. Chairman, Mr. Mollohan, it would 
be worth a trip to San Francisco or we could bring the people 
here. The Delancey Street people are the most effective people 
that I have ever, ever worked with and they would be very 
worthy recipients of this funding and my full statement will 
have further information on this initiative, which I could go 
into now but, in the interest of time, I will not.
    The National Maritime Sanctuary Program. Fortunately, many 
members will come before you about this, at least I hope so. 
The program is authorized at $18 million for Fiscal Year 1999. 
I urge the Subcommittee to increase funding for this important 
program, charged with the stewardship of precious ocean and 
coastal resources.
    This is the Year of the Ocean, and I will go into that in a 
moment. Many salmon runs in California and the Pacific 
Northwest are in serious trouble. I hope that the Subcommittee 
recognizes the serious problem and addressed the deficiency 
that exists in the protected species budget for the NMFS. I 
would welcome the opportunity to work with the Subcommittee to 
develop some report language on the salmon problem.
    Further, to the fisheries program, and the National 
Maritime Sanctuary Program, the Winter Run Chinook Salmon 
Captive Broodstock program. The initial commitment at NMFS was 
$500,000 and then zero. Given the difficult problems facing 
salmon in our region, it would be helpful to the completion of 
this program if NMFS would obligate funding in support of the 
species restoration project.
    Additional research is required for the Pacific Groundfish 
stock. A $100 million industry in California and we have 
serious declines in the stock. A specific line item of funding 
for Pacific Groundfish in the amount of $2.25 million is 
required to conduct the minimal research to develop a plan for 
addressing the decline in this species.
    This request is in line with the amount allocated last year 
by NMFS. Naturally, an increase in this specific amount would 
provide the necessary data for a faster pace.
    I appreciate the Subcommittee's consideration of these 
important requests. You know, my city is very small, 42 miles 
square, but the issues about salmon and other fisheries, 
Groundfish et cetera are important to our whole region in 
California and, of course, to our country in terms of jobs and 
the environment and food. So, I hope that the Committee will 
give its usual serious consideration to this request.
    Thank you, Mr. Chairman, Mr. Mollohan.
    [The information follows:]


[Pages 34 - 39--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you very much, Ms. Pelosi.
    I want to compliment you on your Radio Free Asia efforts. 
If there is a human dynamo in here that has been responsible 
for Radio Free Asia and its continued promotion, it is the 
Gentlewoman from California and we appreciate that work, among 
other things that you have worked on.
    Any questions?
    Mr. Mollohan. No questions, Mr. Chairman.
    Mr. Rogers. Thank you very much.
    Ms. Pelosi. Thank you, Mr. Chairman.
    Mr. Rogers. Ms. Waters?
                              ----------                              

                                          Thursday, March 12, 1998.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Ms. Waters. Thank you, Mr. Chairman, and thank you, Mr. 
Mollohan.
    I want to take a few moments today to talk about a serious 
aspect of the funding responsibilities that you have. We have a 
statement for the record. But I am really, really concerned 
about civil rights enforcement, and I thank you for what you 
have done in the past to ensure that we get at this serious 
area of concern in our society.
    I think everyone is interested in doing everything that we 
can to ensure the civil rights of all of our citizens and with 
the President's Initiative and the work that everybody is 
doing, it is for naught unless we have enforcement.
    And, so, the 17 percent increase that the President is 
asking for in the overall budget for funding year 1999 is very 
important, particularly, as we look at EEOC. We have about 
80,000 complaints annually in EEOC and 60 percent of those 
complaints are what are known as Title VII-based complaints: 
that is civil rights, race, color, religion, gender. Currently 
we have a 65,000 backlog in EEOC.
    Every time we have had an increase it has been important in 
reducing of the backlog. Past marginal increased funding 
reduced the backlog from 111,000 in 1995. Without additional 
funding the average time to resolve a claim is like 10 months 
and that discourages people whose civil rights have been 
violated from even filing claims when they have to wait that 
long.
    Also, this increase would include $7 million in the 
Department of Justice Civil Rights Division; $2.5 million for 
the investigation and prosecution of hate crimes and police 
misconduct. I do not think I have to say a lot about that; it 
really speaks for itself and we all read the newspapers and we 
can see and feel what is going on and the need to increase 
funding in that area.
    Secondly, let me just mention that I am very, very pleased 
and impressed with what I see going on with our drug courts. I 
had the opportunity to visit a conference that was put on by 
those who work in the drug courts. And I was very pleased to 
see that it is a cross-section of individuals working in the 
drug courts. Everything from social workers, to prosecutors, 
you name it.
    What they have done effectively is created the ability to 
fully staff an individual who is guilty of nonviolent drug 
offenses and they can take an individual and work with them and 
help mainstream them through the work with the court by job 
referrals, job training; kind of looking at this individual and 
seeing what could be done to help someone with the desire to be 
helped to get on with their lives and get away from being 
involved in drugs.
    I am very impressed. They are a hard working group. I have 
asked the Congressional Black Caucus to visit drug courts with 
me so that we can all familiarize ourselves more with the work 
that they are doing. I really do think that the drug court is 
the answer to some of the serious problems that we have with 
young people, particularly those who find themselves involved 
with drugs and in court for the first time.
    Again, we will submit a written statement for the record 
and that is what I want to bring to your attention today.
    Thank you very much.
    [The information follows:]


[Pages 42 - 43--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you very much for your nice statement. 
Any questions?
    Mr. Mollohan. No, thank you, Mr. Chairman, and thank you, 
Ms. Waters.
    Ms. Waters. Thank you.
    Mr. Rogers. Next we will hear from Mr. Barrett.
                              ----------                              

                                          Thursday, March 12, 1998.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. WILLIAM BARRETT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Barrett. Thank you, Mr. Chairman, and Mr. Mollohan.
    I appreciate your allowing members to come and visit with 
your Committee about some specific issues. I will summarize my 
rather extensive written statement, Mr. Chairman.
    I have worked for quite some time without any results to 
increase the Immigration and Naturalization Service presence 
out there in my State of Nebraska. I have been very frustrated, 
however, with the unwillingness of those people in the INS to 
either provide sufficient manpower resources to that region or 
adequately respond to my concerns.
    As a result, area INS personnel are not able to adequately 
perform their duties. The Omaha Area Office of the INS is 
responsible for about a 750-mile stretch of Interstate 80, and 
that happens to be further than a round trip from here to New 
York City. That is a long piece of concrete.
    Over the past four years, arrests and removals in the 
Nebraska/Iowa region have increased from 423 to 2,529. That is 
a jump of almost 600 percent. During the same period, the 
national rate of increase has not nearly approached that level. 
In Nebraska it is also common knowledge that any vehicle 
stopped along Interstate 80, with fewer than 15 suspected 
aliens will not be detained for an INS status determination 
since the Omaha office does not have sufficient enforcement 
resources to investigate these cases.
    Mr. Chairman, I have a letter attesting to this problem 
from the Nebraska State Patrol, which I request will be made a 
part of this hearing.
    Mr. Rogers. Without objection.
    Mr. Barrett. During this past January, the U.S. Border 
Patrol conducted a one-week anti-smuggling operation along 
Interstates 80 and 70 in Nebraska and Kansas. During the 
operation the area was struck with a very severe snow storm 
which greatly reduced traffic along both of these routes. 
Nevertheless, the Border Patrol arrested 152 aliens during that 
seven-day period.
    Given that alien smuggling is estimated to increase between 
January and the summer agricultural production months, the 
number of aliens that could be detained by a dedicated anti-
smuggling unit is staggering.
    According to the agency, and I quote, ``A return to the 
Grand Island area, coupled with a comprehensive employer's 
sanctions effort may result in significant illegal alien 
apprehensions.''
    While I am somewhat pleased with the outcome of this 
operation, a permanent presence in the Nebraska/Iowa region is 
a more rational and certainly a more effective solution 
compared with the periodic Border Patrol operations. These 
facts have led me to the inevitable conclusion that additional 
personnel should be deployed to the region. In particular, INS 
staff in Nebraska mentioned to me their desire for an anti-
smuggling unit to combat the sources of alien smuggling.
    And I have repeatedly contacted the INS over the past two 
years to request a redeployment of enforcement personnel to 
Nebraska.
    Despite acknowledging the problem, and I emphasize this, 
the INS claimed supplemental resources would not be available 
unless additional funds were appropriated. And as I read your 
Fiscal Year 1998 report language, which mentioned a failure by 
INS to hire 111 authorized and appropriated positions during 
Fiscal Year 1997, I was incensed with that reply. And I ask 
that this response also be a part of the hearing record, Mr. 
Chairman.
    Mr. Rogers. Without objection.
    Mr. Barrett. I sent yet another letter in January 
expressing my disgust with their unwillingness to engage in a 
meaningful discussion of these problems; I cited the report 
language and I demanded a reply.
    Just this past week I received a response to that letter 
which further clarifies that the interior enforcement exists 
not just in Nebraska and Iowa but nationally. On a promising 
note, Commissioner Meissner's letter of last week initiated a 
dialogue that will begin next week with a meeting in my office.
    I am hopeful that this meeting will be productive but, 
frankly, this new-found responsiveness is just a little bit 
late in coming.
    Clearly, Mr. Chairman, I think that you can understand my 
frustration. The problems of alien smuggling continue to 
increase and, with it, drugs and crime problems. But the INS 
has shown little or no interest in addressing that problem.
    So, I conclude, Mr. Chairman, by asking that the 
Subcommittee adopt the two-fold strategy of first maintaining 
and increasing, if possible within budget constraints, 
resources for interior enforcement. And second, I request the 
Subcommittee to do all within its power to ensure INS fills the 
appropriated positions in order to get the needed personnel out 
there into the field.
    And I thank you again and members of the Subcommittee for 
permitting me this time and throughout the process I would be 
happy to offer any assistance I might be able to offer.
    [The information follows:]


[Pages 46 - 52--The official Committee record contains additional material here.]



    Mr. Rogers. Well, I thank the gentleman for his testimony 
and I share your frustration. I have been on this subcommittee 
for 15 years and the biggest frustration I have had all the 
while, and it continues, even has increased to this day, is the 
Immigration and Naturalization Service. It is an organization 
that is out of control, with conflicting missions. We have 
poured money at the problem, we have shoveled money by the 
billions into that agency in the hopes that that would solve 
the problem, and it only made it worse.
    They are absolutely unresponsive. It is an unmanageable 
organization. I find myself in the awkward position of being 
the chairman of the subcommittee that funds INS and preparing a 
bill, which I hope you will sign onto, to abolish the agency.
    Mr. Barrett. I would be happy to. I am not sure what the 
alternative would be but----
    Mr. Rogers. Barbara Jordan headed up a Commission, before 
she passed away, that came up with the recommendations which I 
am following in preparing the bill, which is to abolish the 
agency and reassign its duties to the various agencies of the 
government that would otherwise be doing it anyway--Justice 
Department on law enforcement, immigration benefits, and the 
like; the Labor Department for preventingillegal aliens from 
working in the country; Agriculture for what they do on the border; and 
creating a single border agency that incorporates all of the other 
duties that are taking place now by separate agencies on that border. 
One can look under the hood but not check the trunk, one can check the 
roof but not the underside, one can do this, another can do that.
    It is a circus out there and nothing is working. So, I 
would like to see all those agencies in one group on that 
border that has one boss whom we can hold responsible for 
enforcing the border laws as it relates to smuggling, drugs, 
illegals, what have you. But I will be happy to show you that 
bill that is being prepared now, and I hope you will co-sponsor 
it.
    Mr. Barrett. I would be happy to see it, Mr. Chairman.
    Mr. Rogers. I come to this very reluctantly. I really hate 
to do this, but I am convinced now after 15 years that there is 
no alternative. We have got a problem, we have got 5 million 
illegals in the country now, growing by 250,000 a year that we 
know about. We are granting citizenship to felons by the tens 
of thousands. It is an absolute mess.
    Mr. Barrett. Well, when I mention this problem to some back 
here on the coast they think that the problems exist only on 
the coasts or Texas or California but this is a crisis down 
through middle America and Mr. Latham, I think, will 
corroborate that.
    Mr. Rogers. I was going to recognize Mr. Latham as he has 
been hammering on this with us for some time now and you may 
want to join in here.
    Mr. Barrett. I knew he was a good man.
    Mr. Latham. Thank you.
    My only comment is that I feel your pain. But part of the 
frustration--I know you are probably aware, I had an amendment 
back in 1996, for the Immigration Reform Act, to have INS set 
up some criteria to enable local law enforcement on a voluntary 
basis to be authorized to do some of the duties you are talking 
about out on the highway.
    You know, that they can actually incarcerate and hold and 
they can transport. We are still waiting for the Immigration 
and Naturalization Service, two years later, to come up with 
the guidelines and the rules for that to happen.
    Mr. Barrett. Exactly.
    Mr. Latham. And that is, you know, the hearing we have on 
the 31st of this month. It is something I hammered at last year 
at their hearing when they came to ask for appropriations and 
we will do it again. I mean they are making some steps but they 
are very tiny and very slow.
    Mr. Rogers. You may be interested to know that last year in 
the conference report we directed the INS to submit to us by 
April 1st a report on how they planned to implement the 
reorganization that the Jordan Commission called for and the 
Attorney General has indicated that they will have something to 
us fairly soon but do not hold your breath.
    Mr. Barrett. I will not.
    Mr. Rogers. Mr. Mollohan?
    Mr. Mollohan. No, thank you, Mr. Chairman.
    Mr. Barrett. I think you feel my pain and I thank you very 
much, Mr. Chairman.
    Mr. Rogers. Thank you, Mr. Barrett, you have made an 
awfully strong case.
    Mr. Saxton was scheduled earlier and he is here now.
                              ----------                              

                                          Thursday, March 12, 1998.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. JAMES SAXTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Saxton. Thank you, Mr. Chairman, Mr. Mollohan and Mr. 
Latham, my friend.
    Mr. Chairman, let me just take this opportunity to 
officially thank you for the great cooperation that you and 
your staff have afforded to the Subcommittee on Fisheries, 
Conservation, Wildlife, and Oceans in the past for helping us 
to achieve some of the goals that, frankly, Mr. Farr and I have 
put together. I am not sure what Mr. Farr's testimony is but I 
can assure you that we work on a bipartisan basis and will, 
without having seen what he is going to say, say that I likely 
agree with it, as well.
    Mr. Chairman, I just would like to say that I will shorten 
up my testimony and if I can submit the entire testimony for 
the record and save us some time.
    But I would like to say, Mr. Chairman, that the 
Administration's Fiscal Year 1999 budget request for NOAA is 
$2.1 billion, an increase of $124 million. Unfortunately, the 
Administration request cuts $14.6 million from the NOAA wet-
side programs; National Ocean Service, that is NMFS; and the 
Ocean Research Programs and proposes $20 million in new fees 
for fisheries and navigation programs.
    The budget request increases NOAA's dry-side, on the other 
hand, programs such as NWS, NESDIS, and atmospheric research by 
$189 million and proposes no dry-side fees.
    It is pretty obvious where their concerns and 
theirpriorities lie. And I am not sure at all that I agree with their 
priorities. In fact, I disagree strongly with some of them.
    Those of us who represent coastal districts find this 
proposal totally unacceptable, therefore, and I look forward to 
working with you and your staff on crafting a NOAA budget that 
can be acceptable to all members, including those of us who 
represent coastal areas.
    Last week, the President signed a five-year reauthorization 
of the National Sea Grant College Program which I believe is an 
extremely important program. The measure authorizes $56 million 
for the bay Sea Grant program and authorizes $2.8 million for 
zebra mussel research in the Great Lakes, $3 million for oyster 
disease research including the health effects of oyster-borne 
diseases, and $3 million for Pfiesteria research which is 
obviously of extreme importance in this area.
    Similar House legislation had over 100 co-sponsors and I 
hope that we can work together to fully fund these programs at 
their authorized levels.
    I also urge you to fund the National Undersea Research 
Program at $17.5 million and provide an increase in the 
National Estuarine Research Reserve System which is a system 
which I think has unparalleled scientific significance.
    Yesterday, the Committee approved H.R. 3164, the 
Hydrographic Services Improvement Act of 1998. This bill 
establishes authorization levels sufficient to update nautical 
charting and tide current programs over the next 20 years.
    Incidentally, Mr. Chairman, these programs are today 
estimated to be 30 years behind and the program that we are in 
the process of authorizing would bring that from a 30-year 
deficit to something like a 17-year deficit. It certainly does 
not solve the problem but it moves it in the right direction.
    We are failing also to capitalize on our economic and 
environmental benefits that the new chart technology could 
produce. Accurate charts are necessary for our nation's 
commerce and our first line of defense against marine 
accidents. We should not wait for a costly accident to turn our 
attention to this problem, we should address it now.
    Also, over the last two years you have provided $800,000 to 
conduct population surveys for striped bass, and to study their 
interrelationship between striped bass, blue fish and their 
prey species.
    Many questions remain about why the striped bass and blue 
fish populations wax and wane. We are trying to find out why. 
This year I urge you to provide $250,000 for population surveys 
as requested by the Administration and $800,000 for the other 
ongoing striped bass research programs.
    That is my testimony, Mr. Chairman, and I thank you for the 
opportunity to be here.
    [The information follows:]


[Pages 56 - 62--The official Committee record contains additional material here.]



    Mr. Rogers. Well, I thank you, Mr. Chairman, for being here 
today. We have enjoyed a good working relationship with you and 
your Subcommittee on Fisheries, Conservation, Wildlife and 
Oceans. In fact, last year we provided a 15 percent increase, 
as you recollect, on the charting and navigation services and 
we will continue to work with you. You have been an awfully 
good chairman of that Subcommittee and easy to work with.
    Mr. Saxton. Thank you very much and we also want to make 
sure we save Mr. Latham's endangered species. What is it, the 
split----
    Mr. Latham. The pallet sturgeons with the double whiskers.
    And I appreciate the fact that you did get in a comment 
about your striped bass problem.
    Mr. Saxton. Thank you.
    Mr. Rogers. Thank you very much.
    Mr. Saxton. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Farr?
                              ----------                              

                                          Thursday, March 12, 1998.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Farr. Thank you, Mr. Saxton, before you leave, for 
those nice comments. Thank you, Mr. Chairman, Mr. Latham, I 
appreciate--I am going to testify on a couple of things, but I 
just wanted to follow-up on a comment, that I do not know 
whether this Subcommittee realizes how key you are to where 
this country is headed in the issue of marine resources. This 
is an incredible year.
    You know, this is the International Year of the Oceans. 
Portugal is having a big expo in Lisbon to celebrate the 
oceans. The President has declared a White House Conference on 
the oceans. Congress is dealing with ocean issues in 
legislation and in appropriations. This Committee has that 
jurisdiction and this is the first time that you really have 
had a focus on the oceans.
    I mean if you look at the global warming issues, the 
implications of that, the oceans are the most affected, and 
coastal communities are the most affected. Seventy percent of 
America's population lives within 50 miles of a coastline. It 
is just a remarkable figure and the world population is the 
same thing.
    This Subcommittee has the jurisdiction that is going to, 
you know, either drive this in the right direction or the wrong 
direction. The reason it is so nonpartisan is because it is so 
important to the--I mean if you look at that map up there, and 
look at the blue on it, you realize it is the most part of the 
world and it is not politically owned, but it is politically 
managed.
    And the management of the oceans and, in fact, the answers 
for our biotechnology are going to come out of the oceans. 
Pharmaceuticals, I will bet in 10 years from now, are going to 
be more invested in ocean animal research than they are in 
terrestrial. Because the oceans hold the answers, because they 
are millions of years older and there is just incredible 
opportunity.
    So, it is very exciting that this national, international, 
political focus and I am before you to talk about some more 
mundane issues which are funding for a couple of the areas over 
which you have jurisdiction.
    The first is this Tiburon lab relocation to Santa Cruz and 
your Subcommittee was very helpful with this last year. What we 
have in Santa Cruz and why the Federal Government is interested 
and Federal agencies are interested in moving to Santa Cruz is 
that there is a place in Santa Cruz that is already the home of 
the public/private world class marine research center called 
the Long's Marine Lab. Long, because Long's drug store invested 
their money in building that and it is run by the University of 
California at Santa Cruz.
    The State of California found that there was such a great 
concentration of marine scientists there that when they located 
their oil-spill cleanup center for the State of California they 
located it there.
    And, now what the Federal Government is realizing is that 
we ought to capitalize on the infrastructure of talent that is 
there by locating the marine lab and this Subcommittee funded 
it.
    I am requesting an $8.14 million support this year. That is 
$3.9 million more than the President's budget calls for but 
there is strong justification for the increase. The increase 
would support the infrastructure necessary to serve the site 
with the Federal building there, which are sewer, water 
services. These are fixed costs, cannot be down-sized.
    Also, the development of the water system capacity. You 
have to meet the coastal mitigation requirements. This is a 
fixed cost. It cannot be down-sized to a smaller amount.
    And then there is the restoration of the necessary 
equipment lost when the plan for the plant was down-sized. The 
equipment has got to be there regardless of the down-sizing.
    There needs to be a permanent HAZMAT building, there needs 
to be a fume hood and there needs to be surge space. All of 
these items were lost when the down-sized version came in which 
you funded last year.
    But since then, there has been also in anticipation of the 
consolidation of the Santa Rosa facilities which are up by 
Sacramento, and the La Jolla facilities which are down by San 
Diego, that those facilities according to the IG will have to 
be moved to Santa Cruz or should be moved for cost-effective 
purposes.
    So, the Santa Cruz site is unique. And also the reason all 
of them are there and the reason we have the Navy there and the 
Naval Postgraduate School and we have 18 other Marine 
institutions is that right below--and it is hard to see on that 
map--but in the Monterey Bay, which is the largest bay on the 
coast of California, there--you know, you think of San 
Francisco or San Diego, this is a half-mooned shape bay--right 
through the middle of that bay runs a canyon that is bigger 
than the Grand Canyon. It is the biggest, deepest canyon on the 
Pacific Ocean and it runs very close to shore. And that canyon 
runs down to 13,000 feet deep.
    And, so, all the researchers do not have to go very far to 
get access to it and they get access to things we have never 
seen before. The fact that we can predict that there might be 
life in outer space is because that was what researchers have 
found in the sulfuric vents which do not have any oxygen, do 
not have any light, do not have anything that supports life, 
they find life forms in these caustic toxic environments.
    And, so, they figure that if that can exist at the bottom 
of our oceans by the research that is coming out of here, it 
must be able to exist on other planets.
    So, this science is getting a lot of attention. It is also 
an incredible educational tool for our kids. We just read in 
the Post a few weeks ago that American science is lagging on 
other developed countries. A lot of our science is not very 
exciting but they are making, exploring the frontier of the 
oceans which kids can identify with and Disney certainly has 
made movies about and that makes this ability to apply 
essentially to youth something that we have never been able to 
apply because now we have the technology coming out of this 
research.
    So, the issues here are really related to national 
priorities. And you might ask, well, why are you asking for 
this increase because last year was sort of like we thought we 
had done it all? Well, remember that there are a couple of 
unfinished issues and that is why the President has his budget.
    But you also, just the Inspector General's report just 
three months ago, revealed the savings that would be realized 
by expanding the Santa Cruz site and infrastructure to those 
functions that are in La Jolla and it would save some $33 
million in costs. So, the plan that we approved did not provide 
for this level of expansion.
    I would be glad to answer any questions you might have on 
that and then I wanted to also, if this were the appropriate 
time, to speak on the NationalMarine Sanctuary and National 
Marine Estuary. I will follow your direction on that, Mr. Chairman. The 
first was on the National Marine Fisheries Lab.
    [The information follows:]


[Pages 66 - 85--The official Committee record contains additional material here.]



                                          Thursday, March 12, 1998.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Rogers. Mr. Faleomavaega, who was scheduled to join 
you, I understand, is not going to be here. So you may want to 
proceed.
    Mr. Farr. I will proceed on that, on the other two issues.
    Thank you for that and I just wanted to mention the 
International Year of the Oceans and I had been asked by people 
to tell you that you are going to be the first member in 
Congress to receive this token. This is YOTO, this is from the 
Year of the Oceans, called YOTO, this is GILL, and GILL is the 
symbol of the Lisbon Expo in Portugal and you are going to be 
the first member of Congress to get this key chain.
    Mr. Rogers. I trust it is a token man?
    Mr. Farr. It is a token man.
    Mr. Farr. But because I am giving it to you and you are 
chair of this Subcommittee, it has special value and historical 
significance.
    Mr. Rogers. Thank you very much.
    Mr. Farr. Now, that you have GILL looking over you, I 
wanted to talk about two issues. One is the National Marine 
Sanctuaries. The National Marine Sanctuaries, we have 12 in the 
United States, and they are all around coastal America. And I 
represent the biggest one right off our coast the Monterey 
National Marine Sanctuary.
    These are essentially the national parks of the ocean. 
There are only 12. They have been very popular. NPR Radio did a 
big series on it. And I am asking that and Mr. Faleomavaega and 
other Members of the Congress have written letters in support 
to ask for full funding, the authorized funding for this.
    This program was started in 1974, I think. But we have 
never fully funded the authorized amount. These sanctuaries 
represent the largest protected marine areas in the United 
States. They encompass more than 4,000 square nautical miles of 
open ocean. There are positive impacts for the reasons that I 
indicated in the other testimony as well that these are the 
areas that scientists and the public can get access to.
    And the beaches, they tell me, are number one tourist draw 
in the United States. More people visit the coast beaches than 
visit all the attractions put together. And there is no place 
where we sort of set off as beaches and water, kind of parks, 
except in the National Marine Sanctuaries.
    So, this full funding is necessary for those 12 sites which 
are growing in popularity and interest, and need more 
management money for fulfilling the onslaught of popularity.
    Lastly, in 1972, Congress passed not only the Coastal Zone 
Management Act, but to recognize the importance of preserving 
our nation's estuarian systems. These are where the ocean and 
the land meet. These are the nurseries for our fisheries. Since 
1974, the system has grown from one 4,000 acre site in Oregon 
to a network of 22 sites in 17 States and Puerto Rico totalling 
545,000 acres.
    This is the only system of its kind operating in a Federal/
State partnership. And what I know in the estuaries in our 
State is that the Federal Government, NOAA contracts with the 
State Department of Fish and Game to be the on-site manager.
    Unfortunately for these systems, they have not kept pace 
with the growth. NOAA has agreed to temporarily cap the program 
at 27 sites for the next five years to allow all of existing 
and currently proposed sites to achieve at least a minimal 
operating level for programs and facilities.
    I have watched these estuarian programs be an incredible 
tool, again, for education. We have over 100 volunteers from 
the areas that I represent that go out on weekends and do the 
interpretation, the docent program.
    So, this program is requesting to be funded at $7 million 
for Fiscal Year 1999, which is a very small increase over the 
1998 funding.
    In addition, the managers of the programs have requested 
$10 million in construction to deal with the necessaryrepairs 
and maintain and construct the facilities to support the objectives 
outlined.
    And I would ask that any increase in the construction would 
be shared between National Marine Sanctuary Programs and the 
National Estuarine Research Reserve System to allow both 
programs to have funds available for long overdue, much needed 
construction and maintenance facilities.
    So, I thank you very much. I appreciate your dedication in 
the Commerce budget to essentially the Ocean agenda. It is, 
NOAA is, I think, a bigger percentage of the Commerce budget 
than the rest of the department. And it is one that we, in 
Congress, often overlook but I think if you look at the 
national security issues, the national educational issues that 
the ocean is going to be playing a much more important role for 
us than ever before in history.
    And I am also going to be submitting testimony to these 
various issues on behalf of Mr. Curt Weldon and Mr. Delahunt.
    Thank you very much.
    [The information follows:]


[Pages 88 - 99--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you very much.
    Well, the great sea shores of Iowa and Kentucky are 
understandably important. I want to congratulate you on----
    Mr. Farr. They eat those great corn that you grow in those 
areas.
    Mr. Rogers. Thank you for your testimony and your 
enthusiasm for these projects. You are a dynamo. Thank you very 
much.
    Mr. Farr. Thank you very much.
    Mr. Rogers. Any questions?
    Mr. Rogers. Chairman Gilman?
                              ----------                              

                                          Thursday, March 12, 1998.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. BENJAMIN GILMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Gilman. Thank you, Chairman Rogers. I want to thank 
Congresswoman McKinney and Congressman Gilchrest to allow me to 
break into the schedule. Thank you.
    We have a rally out front and I am trying to make that in 
time.
    Mr. Chairman, I will be brief. I want to thank you for 
affording me the opportunity once again to appear before you on 
behalf of the budgetary needs of the United States Commission 
for the Preservation of America's Heritage Abroad.
    And the Commission requests a budget of $300,000 to 
continue to meet their legislative mandate for 1999. And that 
mandate includes obtaining, in cooperation with the Department 
of State, assurances from foreign governments that the 
monuments, the cemeteries, the historic buildings in Eastern 
and Central Europe that represent our cultural heritage be 
preserved and protected.
    And, in that regard, the Commission, working in close 
collaboration with the State Department, has requested and 
received authority to negotiate and conclude agreements for the 
protection, preservation of certain cultural properties with 24 
nations. To this end, the Commission has signed agreements with 
six countries, Poland, the Czech Republic, Slovak Republic, 
Slovenia, Romania and the Ukraine and they are currently 
negotiating with three other countries in the Balkans.
    Regrettably, though the Commission is making substantial 
progress in signing and negotiating agreements, it is 
prohibited due to financial constraints from completing the 
surveys, and research and other procedures that are needed to 
protect our cultural heritage abroad as legislatively mandated.
    Not only is it embarrassing for our nation under the 
direction of the Commission to negotiate these kind of 
agreements in the name of cultural importance to our nation, 
only then to forego any further meetings, surveys and other 
cultural protection due to the lack of funds.
    What we are saying to these countries and to our fellow 
citizens, we are telling them that, on the one hand it is 
extremely important for you and the United States to negotiate 
an agreement due to the importance of our cultural heritage 
yet, on the other hand, it is not important enough for us to 
proceed forward once these agreements are reached. And is that 
truly the message we want to send abroad?
    To correct that perception, I strongly urge, Mr. Chairman 
and your Subcommittee, the Commission's request for Fiscal Year 
1999 of $300,000 be favorably considered. Not only will that 
request allow the Commission to proceed forward but it will 
permit the Congress to continue its efforts in providing cost-
effective solutions in our budget process. By allowing the 
Commission to administer a certain cultural project 
tocompletion from agreement to site protection, we will be saving 
budgetary dollars in the out-years. It will cost Congress more to fund 
the Commission if it has to stop projects only to restart at a later 
date when money is appropriated.
    Accordingly, I do urge the subcommittee to favorably 
support their budgetary request.
    I thank you for the opportunity to appear before you and I 
thank my colleagues for allowing me to proceed.
    [The information follows:]


[Pages 102 - 106--The official Committee record contains additional material here.]



    Mr. Rogers. Well, I thank you, Mr. Chairman, for your 
dedication to this cause. You are tireless in your pursuit of 
this program and we will give your testimony great weight.
    Thank you for the great job you are doing as Chairman of 
your Committee.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Gilchrest?
                              ----------                              

                                          Thursday, March 12, 1998.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Mr. Chairman, I appreciate the opportunity to come and 
testify before the Subcommittee and I was going to make a 
comment about the Coastal Zone Management Act in reference to 
the State of Iowa, but Tom left, so, I do not think I will 
bring that up.
    Mr. Chairman, there are five basic things that I want to go 
over today and they all happen to do with funding levels. We 
would like the NOAA Chesapeake Bay Office's level funding to be 
secure at $1.89 million. The NOAA Chesapeake Bay program is 
fundamentally a research program to understand the nature of 
the mechanical structure of the Chesapeake Bay Watershed 
Ecosystem.
    Now, that is a big mouthful. But just one example. One 
hundred years ago compared to today, there was 99 percent more 
oyster production. We are down to about 1 percent of what it 
was in 1898.
    Now, there are a lot of reasons for that. And in 1898, 
there was an author that was quoted as saying, ``we better do 
something about the oysters because we are catching fewer of 
them.''
    So, what NOAA does is understand the natural ecosystem and 
how it is impacted by human activity. If we are to retain the 
quality of the Bay, the economic impact that continued 
misunderstanding of the Bay will have on our particular region, 
is profound.
    So, it is a small amount of money, comparably so, $1.89 
million but it goes a long way for their research in 
understanding the issues from non-indigenous species being 
brought in on ballast water, to when you dredge one harbor and 
you place it for beneficial use by creating another island, 
what is the impact to the ecosystem, non-point source 
pollution. There is a whole range of things. Even air 
disposition, about 30 percent of the problem in the Chesapeake 
Bay is caused by air disposition from as far away as Ohio.
    Mr. Rogers. What percent of the reduction can be attributed 
to over-fishing?
    Mr. Gilchrest. That is a debatable question where some 
people will say it could be as much as 40 to 50 percent of the 
problem with the oysters. There is a problem with two diseases, 
called MSX and Dermo, that have come in most likely through 
ballast water that has affected oysters in the saltier regions 
of the Bay at about the third year of life, which is about the 
size that you would want to harvest them.
    Some of the problem is siltation of the bottom, due to 
runoff because of farming, development, a whole range of human 
activities and the oysters adhere to a hard structure and not 
to a soft bottom. So, you have that problem. Youhave the 
problem of murky water which means that you are not going to have the 
grasses grow, which means the water is not clear enough to let the sun 
shine through, so, the water quality is down. There is a whole range of 
things.
    Over-harvesting is one of them but the State of Maryland 
and Virginia, as well, has a vigorous program to only allow 
harvesting in certain regions of the Bay. And there are areas 
that are protected so the oysters can grow.
    But the impact of the whole range of things have reduced 
their procreation.
    But NOAA does all those things and they are very beneficial 
to understanding the nature of the problem. And $1.8 million 
for the NOAA Chesapeake Bay Office.
    Sea Grant, which is another part of the NOAA program, the 
Sea Grant people, there are 29 Sea Grant institutions around 
the country, and we are asking for the authorized level of $56 
million to continue. Sea Grant are the Ag extension agents of 
the marine community.
    These are the people that go from the universities to 
communities to talk to people like county commissioners, town 
council, planning commissions, about how to understand the 
nature of some of the problems that over-development causes.
    It is not an enforcement arm, it is an educational 
institution just like Ag extension agents educate the farmer to 
improve farming practices.
    Also in here, are $3 million for oyster disease research. 
That is the MSX and Dermo part of this. And also $3 million for 
Pfiesteria research. The Pfiesteria, as you may have heard, is 
a tiny micro-organism that grows and prospers when there is 
nutrient-rich water. And this little critter has 24 different 
life cycles and one of them is toxic.
    That is what causes the large numbers of fish to become 
neurologically unstable. They stop in the water, this little 
critter goes up and eats them. If a human being happens to be 
in the water at that particular moment, it stays toxic from 
about 12 hours to 24 hours, then people can be neurologically 
affected by this disease, as well.
    The disease has shown outbreaks all over the world but, in 
particular, in the Chesapeake Bay, North Carolina waters and 
areas of Florida.
    The next is the Susquehanna River Flood Forecast and 
Warning System. We are asking for $619,000 for this program 
which includes the National Weather Service, the Army Corps of 
Engineers and the U.S. Geological Survey Team. It is my 
understanding that about 10 percent of the flood damage in the 
United States occurs along the Susquehanna River drainage 
basin.
    And what we are asking for here is for this program to 
continue because it is an early warning system using satellite 
data of the region, a picture of the region, along with 
information about rain fall, drainage so people have an early 
warning system about the potential problem of floods.
    There is a small community in my district called Fort 
Deposit that in the last few years, when there was not a 
warning system available, these people had about 10 minutes 
before they knew that the water was going to rise from six to 
sometimes 10 feet, when they open up too many, all of the gates 
in the dams going up to the Susquehanna River.
    The next one is the NOAA Corps. Sam Farr was just 
explaining a good deal about the problems of our understanding 
of what the planet is mostly made of and that is 70 percent of 
the world is oceans.
    NOAA, in general, has an understanding or tries to do 
research for us to understand the nature of the climate and how 
it is impacted by the global forces which are directly impacted 
by the oceans.
    Something else that is important that NOAA does is that if 
you look at a map of the United States foreign ships and U.S. 
ships travel in and out of our ports, hundreds or thousands of 
times a day. And they navigate with maps showing them what is 
on the bottom of the ocean and how they can avoid problems with 
shoals and all the other different features that make up the 
ocean bottom.
    The Administration wants to privatize the activity of 
hydrography, that is to make maps of the ocean floor. Now, it 
is my strong impression that there are some things the 
government should not do and there are some things that the 
government has a responsibility to do.
    Now, to ensure that the navigation is fluid and accurate 
and these maps are timely I think it is the government's 
responsibility to maintain a corps of ships, through NOAA, to 
continue this mapping.
    One of the reasons I feel that way is because if it is 
privatized or contracted out, if the contractor does something 
wrong, what will his liability be to a large oil tanker or a 
container ship from some foreign port? If the U.S. Government 
is responsible for this, the liability equation is vastly 
different.
    Now, the Administration wants to privatize the NOAA Corps 
but what we are asking is to--and they have basically zero 
funding for the corps vessels which I think have become 
efficient in recent years, the expertise we do not want to 
lose--so, I am asking us to proceed with caution on that 
particular aspect of NOAA appropriations.
    With that, Mr. Chairman, I did have an oyster fritter to 
present to you but the dog ate it. So, I do not have any gifts.
    [The information follows:]


[Pages 110 - 112--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you, Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Mr. Rogers. Ms. McKinney.
                              ----------                              

                                          Thursday, March 12, 1999.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. CYNTHIA A. McKINNEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF GEORGIA
    Mr. Rogers. By the way, your written statement will be made 
a part of the record, and we hope that you can summarize in 
five minutes or less, even.
    Ms. McKinney. Okay. I think I can take that, Mr. Chairman, 
thank you very much for letting me make this presentation. I 
have three issues that my testimony covers.
    One is the Georgia Department of Juvenile Justice which is 
operating currently at over 200 percent capacity. And we just 
received a letter from the Justice Department criticizing 
overall its function and its lack of, its overcrowding and the 
way the children are being treated there.
    What we are coming to ask you for, of course, is money, 
sort of the bottom line, so that we can improve the situation 
that our children who are at-risk and troubled face. Currently 
I am told that there is only one--in the area of mental health, 
which this department is also charged with serving the needs of 
the mentally troubled young people--that there is only one 
psychologist, is it, on the entire staff.
    And they have to serve, that one psychologist serves all of 
the children as well as the adult population as well. So, we 
are in desperate straits and looking for some relief for the 
children who are at-risk in Georgia.
    The second matter that I would like to bring to your 
attention is the Greater Atlanta Data Project, which currently 
is trying to get funding for a mapping system that would allow 
all of the jurisdictions of metropolitan Atlanta to work 
together to suppress crime. Unfortunately, crime does not stop 
at the county's border or the county's edge.
    And what we are saying is that because of the jurisdiction 
situation we are not able to utilize effectively our police 
services. And, therefore, this is the kind of system that would 
allow us to have information about criminal activity in the 
entire metropolitan Atlanta area and then our police 
departments would be able to use that information so that they 
could target that criminal activity better and suppress crime, 
hopefully.
    The final issue that I would like to bring before you is a 
problem that continues to plague the State Department. And, 
unfortunately, the State Department now is fighting a lawsuit 
that has been filed by African-American foreign service 
officers rather than actively trying to settle it.
    And we have submitted an amendment to the State Department 
authorization bill which was accepted onto that bill. What we 
would like for you to do is to accept our amendment onto the 
appropriations bill. And this amendment merely asks the State 
Department to track its applicants, black applicants and to 
report the applicants who take the foreign service exam, the 
oral and the written exam, the percent who pass and then those 
who are admitted into the Foreign Service.
    Obviously, there is a problem. This problem has been 
documented by the fact that there is a lawsuit outstanding. The 
State Department, in my opinion, should be trying to settle 
this lawsuit and bring more African-American and minorities, in 
general, into the Foreign Service.
    [The information follows:]


[Pages 115 - 117--The official Committee record contains additional material here.]



    Mr. Rogers. Do they not have that information now?
    Ms. McKinney. No. No. And we----
    Mr. Rogers. They cannot tell you how many applied and how 
many succeeded?
    Ms. McKinney. They can give us the information, they give 
us information for women, they can give us the information, 
because of the lawsuit, they are trying to satisfy now. But as 
far as minorities and African-Americans, that information is 
not readily available.
    Mr. Rogers. Why?
    Ms. McKinney. I do not know. That is why we are asking for 
it. I do not know.
    Mr. Rogers. On their application form do they have a place 
to denote African-American or other?
    Ms. McKinney. That I cannot tell you, Mr. Chairman.
    Mr. Rogers. That may be the problem. It is funny that they 
could not furnish this to you.
    Ms. McKinney. That they cannot provide the information.
    Mr. Rogers. Let us see if we can track that down. That 
should be a fairly easy thing to do.
    Let us see if we can work on it.
    Ms. McKinney. Okay. Thank you very much.
    Mr. Rogers. The Undersecretary for Management for the State 
Department is coming up to testify before us next week, and 
that will be a person we can ask.
    Ms. McKinney. Good, good.
    Mr. Rogers. If you want to be here, you are welcome.
    Ms. McKinney. Okay, great. You can let us know.
    Thank you.
    Mr. Rogers. Thank you very much.
    Ms. McKinney. Okay.
    Mr. Rogers. Mr. Stupak?
                              ----------                              

                                          Thursday, March 12, 1998.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Stupak. Thank you, Mr. Chairman.
    Thank you for the opportunity to appear today. I want to 
talk to you a little bit about two issues, the Great Lakes and 
law enforcement issues. First, the sea lamprey and the Great 
Lakes Fishery Commission, Mr. Chairman, which administers the 
sea lamprey control program. As you know, the sea lamprey is an 
eel-like creature which has basically sucked the life out of 
our $4 billion Great Lakes fishing industry. The sea lamprey is 
responsible for about 54 percent of the death of all lake 
trout.
    Unfortunately, in past years, we have fallen behind in 
funding. Even though we obtained a pretty good reduction in the 
sea lamprey population in the rest of the Great Lakes, in Lake 
Huron and others, we have been going backwards. And that is 
where our best sports fishing is right now in Lake Huron.
    So, therefore, I would ask the Subcommittee to provide 
$15.1 million for the Great Lakes Fishery Commission for the 
sea lamprey.
    Next, Mr. Chairman, along with aquatic nuisances, is the 
zebra mussel, as you know, was a Great Lakes issue when it 
showed up in the Great Lakes, but now is starting to spread 
across this whole nation. Twenty-some States have zebra mussels 
from Louisiana to California and in the President's budget 
request the National Sea Grant College program, he reduced it 
by $5.9 million. So, we would like to see that money re-put 
back in there, the $5.9 million for zebra mussel research.
    In the last five years they have spent over $120 million a 
year trying to combat zebra mussels and it has cost another $30 
million per year. And the power industry, electrical utilities 
they estimate they will spend over $3 billion in the next ten 
years just to control the zebra mussels. And, of course, the 
zebra mussels also disrupt the lower food chain and deplete 
valuable Great Lakes fishing stock.
    And, as I indicated earlier, they are found all over the 
country because one zebra mussel can produce as many as one 
million eggs. So, it has been a major problem and we would like 
to see that problem refunded.
    Now, Mr. Chairman, you and I have agreed a little bit on 
the COPS program and I am a big supporter of the COPS program, 
as you know, and I would recommend that the President's funding 
of $1.4 billion for Fiscal Year 1999 be upheld for that one. I 
do believe it is a cost-effective way of stopping crime and 
actually about 87 percent of all the American public have been 
served by additional police officers through the COPS program.
    But another sort of interesting program or issue that has 
come up off the COPS program, Mr. Chairman, and we certainly 
would look for your insight and guidance on this, is after the 
program expires after three years, is there going to be an 
extension of any type of program not necessarily for more 
police officers.
    But with 100,000 more police officers on the street we have 
put pressure on other parts of the criminal justice system and 
I would look for your leadership in trying to find a way to 
maybe alleviate some of that and maybe a different type of 
program and we certainly look forward to working with you on 
that.
    Fourth, Mr. Chairman, the Byrne Grant formula. If I 
remember correctly you have been a strong supporter of that 
program because it allows the States to use Byrne Grant funds. 
And $500 million is the request for different uses by the 
States in 21 to 23 different programs.
    And in Michigan, we use a lot of ours for undercover drug 
teams. It has been very helpful in small, rural areas like my 
own, where one time we had five State Troopers to cover 40 
counties and now we have a number of teams up there. And they 
are doing a tremendous job and drug arrests have increased by 
400 percent and some very difficult drugs have made their way 
not only from Canada but also from our urban areas in Southern 
Michigan, up to the Upper Peninsula of Michigan.
    Last but not least, Mr. Chairman, I would like to speak on 
the law enforcement issue. We have the Juvenile Justice bills 
moving through both the House and the Senate. And H.R. 3 was 
the Juvenile Crime Control Act and in the Senate, I believe, it 
is Senate bill number 10. The Senate is currently doing some 
work on it. We expect to see it sometime this spring.
    In there is one of the requests for the Juvenile Crime 
Control and Prevention Program at the Department of Justice. 
There was a request there for $283 million and we would hope 
that would be funded.
    And if I can jump one more time, Mr. Chairman, back to the 
Great Lakes. NOAA is proposing a National Marine Sanctuary for 
Thunder Bay which is a number of ship wrecks off of Port Huron. 
Governor Engler just yesterday faxed a letter around which 
basically indicates his support for moving this project.
    They have one more year to go before they issue a final 
report. The governor is working with them to take a look at 
other under-water preserves on the Great Lakes. This would be 
the only one in the Great Lakes.
    They have asked for $18 million at the authorized level 
just to keep the National Marine Sanctuary Program moving not 
only in Michigan, but throughout this nation, Hawaii, Florida, 
California and the rest of them.
    With that, Mr. Chairman, that is a quick summary of my 
testimony, I appreciate the opportunity to be here today.
    [The information follows:]


[Pages 121 - 124--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you very much.
    One of the problems we are having to look at is whether or 
not the addition of Lake Champlain as a Great Lake is going to 
dilute available funding. What do you think?
    Mr. Stupak. Mr. Chairman, well, that is no doubt. That was 
for the Sea College Program to get direct access as opposed to 
indirect access as has been going on in the past with the 
funds.
    I would hope that the Senator would understand that if he 
wants to be a Great Lake then he would have to abide by all the 
laws that deal with the Great Lakes such as any diversion of 
water, such as any use of the Lake, not only his State but also 
surrounding States and Canada. That is where the head-waters of 
the Lake are found.
    Mr. Rogers. You mean that maneuver had something to do with 
money?
    Mr. Stupak. Well, that is what rumor is anyway, and, you 
know, there are a lot of rumors around Washington these days. 
But that is one of the rumors.
    Mr. Rogers. That would be the first time a Senator ever did 
something like that.
    Mr. Stupak. That is why we have the House, to block that 
kind of malarkey, Mr. Chairman.
    Mr. Rogers. Thank you.
    Mr. Stupak. Thank you.
    Mr. Rogers. Ms. Holmes-Norton?
                              ----------                              

                                          Thursday, March 12, 1998.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS FROM THE DISTRICT OF 
    COLUMBIA
    Mrs. Norton. Thank you, Mr. Chairman. I must begin first by 
thanking you for the strong support you have given me and 
others as we have striven to adequately fund the Equal 
Employment Opportunity Commission.
    I am here this afternoon to testify in favor of the 
President's request for $279 million for the Commission at this 
time.
    I come today because I am a former chair of the EEOC and 
remain familiar with its chronic problems, and interested in 
what I could do to alleviate them. When I became chair, it was 
experiencing one of its great crises, great instability. There 
had been people fired at the highest level--the chair and 
general counsel.
    And the Agency at the time was best known for a backlog of 
125,000 cases.
    We instituted ADR, Alternative Dispute Resolution, and 
brought the backlog down. It remained backlog free for my time 
at the EEOC. And we thought that ADR was there to stay.
    What was lost on the Commission was that efficiency in 
processing cases is necessary not only to keep the accumulation 
of backlog from occurring and reoccurring, but the prompt, 
early attention to cases while the evidence is fresh is the 
only way to assure remedy in worthy cases.
    I have really come not simply to ask for money for the 
EEOC. I feel a special obligation for the Agency, having served 
in the Agency, and I have come to make a suggestion for a more 
permanent solution to the Agency's chronic backlog problems.
    The EEOC is a high volume agency. So whatever you do there 
are always going to be more cases. So you have an approach to 
funding the agency that says every time you get more cases you 
get more money. Then we are into a never-ending cycle of a need 
for more money.
    Twenty years ago when I came to the Agency, I had had the 
good fortune to be able to experiment at a miniature EEOC in 
New York City, where I was chair of the Commission there.
    As I began the top to bottom reform of the agency, I asked 
for a sizable appropriation, and then I said I will not be 
back. I will not be back based on the number of cases, new 
cases that come in. I said I want this money so I can put in 
place a system, structural changes in the Commission so funding 
will not be driven by inevitable increases in the number of 
discrimination charges.
    I did not come back, Mr. Chairman, and I broke the cycle--
at least during the time I was there. The system that we used 
we simply called Rapid Charge Processing. Today, essentially 
what it is is ADR, or Alternative Dispute Resolution, that we 
now use throughout the Federal Government. Anybody in his right 
mind tries to settle cases these days rather than take them to 
litigation. EEOC, as a young agency, thought it had to litigate 
everything.
    Using ADR, we brought the time to process a case down from 
two years to two and a half months, and at the same time, 
interestingly, we brought the remedy rate up from 14 percent to 
43 percent, because we settled most cases early.
    Business strongly approved the settlement approach even 
though of course they were sometimes settling cases they might 
have won after two years. They figured that staying in the 
system for two years, however, and winning was losing.
    And so they decided to do what they do with torts, with 
contracts, and with the rest of it, and EEOC got rid of its 
backlog and kept backlog free. That was 1978, Mr. Chairman, and 
EEOC was perhaps the first agency in the Federal Government to 
use ADR systematically.
    Since then, EEOC has lost much of the momentum of ADR and 
has floated back into periods of heavy backlog and low remedy 
rates. I recommend that the Subcommittee press the EEOC further 
to do more ADR, to do it more efficiently, to achieve more fair 
settlements, and to devote what resources are necessary to 
litigation and to pattern and practice cases.
    And I believe that once you settle cases, you are going to 
be left only with what litigation is necessary.
    The EEOC now has new, very complicated jurisdictions. If it 
does not settle these cases involving the Americans with 
Disabilities Act, if it doesn't settle sexual harassmentcases, 
it is going to have the kind of backlog that never goes away.
    We had some such cases when we didn't have any ADR. We 
certainly had some sexual harassment cases, but these folks now 
are facing enormous challenges, and they need to be pressed to 
do what it takes to streamline their operations so that they 
are not going at this on a case by case basis, but are settling 
cases.
    J.C. Watts and I sponsored and amendment in 1996, and I 
appreciate that you, Mr. Chairman, helped us get $7 million in 
additional money for the agency at that time. And last year 
Congresswoman DeGette and I wrote to you asked for $3 million 
more in money, and we got that money.
    The problem with that approach is that it is driven 
entirely by backlog, and in essence it encourages the agency to 
understand that if it gets more backlog, it gets more money. 
What I am asking is that they be given an amount that is 
sufficient to enable them to put permanently in place ADR, that 
they be told that together with the authorizing Committee you 
are going to monitor them to see whether or not they have put 
in place systems that enable them to process cases without 
coming back every year for increases based on the number of 
cases.
    I think they deserve the appropriation they've asked for. I 
think they must have it, or they're going to be buried. But I 
think giving them this amount and requiring them to engage full 
throttle in ADR will break the cycle of backlogs and break the 
handout for more money to handle the inevitable increases in 
cases that come with this kind of agency.
    [The information follows:]


[Pages 128 - 129--The official Committee record contains additional material here.]



    Mr. Rogers. Well, I am glad to hear your testimony in that 
respect. That is constructive and it is helpful and it is in 
the right direction.
    I have been frustrated for a long time on this Subcommittee 
because we seem to keep throwing money at this agency, and the 
backlog, in fact, increases. And I have been impressed that 
they do not use modern techniques or machinery to work this 
backlog down.
    What I wish that you and Mr. Watts and anybody else that 
you see fit would do would be to give us concrete requirements 
of that Agency, and a timeline that we could monitor, and pull 
the plug if it is not being done. Because I am unwilling to 
throw more money at the problem as long as the procedures are 
ineffective. I mean, I think it would be wasted money. So I 
would be very interested in finding, particularly from you, as 
the former chair, concrete, specific requirements and timelines 
that we can test to see if they are doing what we hope they 
would do.
    Mrs. Norton. Mr. Chairman, I would be very happy to do 
that. I want to say that I am very pleased that the Speaker 
came forward to indicate that this appropriation was necessary, 
and that Chairman Casellas, who has since left the Agency, has 
taken the Agency back into ADR.
    I will work with Mr. Watt to in fact indicate the kind of 
timelines I think are necessary, and quite concretely what they 
are. I think they need this appropriation in order to put in 
place----
    Mr. Rogers. Well, I am not at this point convinced that we 
need to put this additional money in. If we can see a concrete 
plan that you think will work, and they agree to do and they 
think will work, we can talk about it.
    But no one at this stage, the Speaker or anybody else, has 
talked to me about this, and at this point in time I am not on 
board on the increased dollars.
    Mrs. Norton. I have in mind how to hold them accountable. 
The one thing I would want to leave you with, Mr. Chairman, is 
at some point during the 1980s they literally went back to 
processing every case. These folks get, you know, sixty or 
seventy thousand cases a year.
    Obviously the average case is not going to be for 
litigation, and obviously the average case, frankly, isn't even 
a worthy discrimination case. The average case is not.
    This is an Agency, Mr. Chairman, where Congress has 
designed it just right. You come in and you can file a 
complaint simply by alleging discrimination. Well you have to 
be able to ferret out cases, to try to settle some, and if they 
do not look like they can be settled, to throw them out.
    What they did at periods during the 1980s was to get rid of 
ADR altogether. The one thing it seems to me this Subcommittee 
should do is to say you will never get any money if you do not 
do ADR, and press them to keep doing it.
    Let them slide back into saying, well, we think we need to 
do more litigation. The way to do litigation is to settle the 
cases which you cannot possibly take to litigation, because you 
should not waste your resources on cases that are not really 
humdingers, and settle most of these cases.
    And if you have to take them anyway. You cannot turn them 
away at the door. You have to take them. Some of them are not 
worthy, but speak to anybody who is at the EEOC when I was 
there.
    And, Mr. Chairman, I will tell you, you are talking to 
everybody from small businesses to IBM, and they embraced it, 
even though they often were settling cases that they could have 
won, if they were willing to have us go through their records 
for two years, and show that there was no discrimination.
    Now, the way in which they deal with that if somebody files 
a contract complaint against them is to say we do not owe this 
money. But they may decide that as the cost of doing business, 
if it is going to cost them two cents now, to get rid of it.
    This is not a perfect solution. But it is a whole lot 
better than a backlog.
    Mr. Rogers. Well, give us some concrete requirements and 
timelines, and dollar figures. At this point $279 million is 
way out of the question. I mean, they were at $242 million. We 
increased them $3 million last year.
    But $279 million is too big an increase. I have to see what 
we are going to try to do, first. But if you can get that back 
to us, we would appreciate it.
    Mrs. Norton. Thank you so much.
    Mr. Rogers. Thank you.
    Mr. Rogers. Ms. Morella.
                              ----------                              

                                          Thursday, March 12, 1998.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. CONSTANCE A. MORELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF MARYLAND
    Ms. Morella. Thank you, Mr. Chairman. I appreciate your 
giving me the opportunity to testify before this Subcommittee.
    Mr. Rogers. You honor us.
    Ms. Morella. You have such a difficult job. When I think 
about how these appropriations bills are crafted, and you have 
so many difficult subject matters all encompassed within one.
    I wanted to briefly try to touch on a number of the issues 
that you will be facing that I think are of great import--first 
of all NIST. I just love NIST. And I think the whole country 
should love NIST, and you have done a great job with 
appropriating funding for it.
    I am especially grateful for the $95 million appropriation 
for NIST construction which should enable NIST to move forward 
in the near future with its principal new facility requirement, 
the Advanced Metrology Laboratory.
    And I do not need to take you back on what you did in 1997, 
which was great. Everything worked out very well, and we all 
know, and I know this Subcommittee knows full well what NIST 
does provide, the vital role that they play.
    I think you also probably know that we did have a Nobel 
Prize laureate from NIST, Dr. William Phillips. And he won the 
1997 Nobel Prize for Physics.
    And then just recently there was an article in the paper 
about another doctor, Tim Foecke, a scientist in NIST's 
metallurgy laboratory. He discovered a startling revelation 
about the sinking of the Titanic. It was in the paper last 
month.
    He discovered that, after analyzing rivets, salvaged from 
the Titanic, that faulty fasteners, not bad design, caused the 
Titanic's skin to split after hitting the iceberg. And although 
Hollywood might not like it, as long as NIST is around and 
fully funded, we do not have to worry about another Titanic 
disaster.
    I just want to point out, too, that among NIST's many 
important functions, two accounts deserve particular 
attention--continuation of their vital national mission in 
terms of all of their laboratories, which we call Scientific 
and Technology Research and Services, and continued funding of 
the construction account, to assure that the AML, Advanced 
Metrology Laboratory can be completed in a timely fashion.
    Fully funding the STRS, the lab program at the House level 
of $292 million will enable NIST laboratories to continue their 
important work and allow for some small expansion of the 
Baldrige National Quality Awards into the fields of education 
and health care.
    Also, modernizing NIST's aging infrastructure is a 
priority. Last year your conference report included $95 million 
for the NIST construction account, and this was a significant 
down payment on that AML that I mentioned.
    Building on last year's appropriation, I look forward to 
working with you, Mr. Chairman, to assure that the AML's 
construction can move ahead expeditiously.
    The NOAA Corps--I think I came in when my colleague, Mr. 
Gilchrest, was talking about that. I simply want to point out 
that it is important that we insure the continued safe 
operation of NOAA's ships and aircraft. And I believe that 
further downsizing or elimination of the NOAA Corps will only 
have a negative impact.
    We must not risk our hurricane research and reconnaissance 
efforts. So I urge Congress to take control, direct the 
Administration to relieve the hiring freeze, allow the NOAA 
Corps to recruit a maximum number of 283 officers to allow the 
NOAA Corps to function properly while fulfilling its statutory 
mission.
    With regard to the Census, Mr. Chairman, I just hope that 
there are no riders to restrict the ability of the Census 
Bureau to carry out its 2000 Census. I also want to point out 
what I think is the benefit of the long form.
    I have talked to a lot of people in State government. 
Beyond the Federal Government, the largest non-Federal uses of 
the long form information are local governments. The National 
Association of Counties adopted a resolution calling for a 
Census Long Form, because they need that demographic 
information.
    The private sector is a secondary but also important 
beneficiary of long form data. When you realize all the 
information that is on there, and how it is utilized in so many 
different ways to actually save us money, and to enhance the 
luster and strength of our economy, I think the long form is 
critically important.
    I also, jumping ahead--Legal Services Corporation. They do 
a darned good job, because they help these people who are the 
most vulnerable, women and children, who cannot--find 
themselves in abusive situations, and cannot get out of it 
without some kind of assistance.
    Without something like Legal Services, they feel that they 
are victimized twice--by the crime that was committed against 
them, and by a court system they do not understand with nobody 
to help guide them through.
    In addition, Legal Services has been invaluable in allowing 
impoverished people to access that system in support of their 
just claims--not just women and children, but others, too.
    Much of that caseload--and almost half of the caseload in 
Maryland--deals with such issues as domestic violence, child 
custody and divorce.
    I want to thank you also for the Violence Against Women 
funding. Boy, I'm proud of that. And I tell everybody aboutit. 
This morning I addressed the National Conference of State Attorneys 
General, and they came up with a resolution with regard to praising 
Congress for the Violence Against Women Act, and what has been done 
with that.
    So I think you have proof of how these funds have helped 
communities and States throughout the Nation to assist those 
people who have been the victims of domestic violence.
    You know, 3.3 million children watch their father beat 
their mother, and think of what that does in terms of our 
youth.
    So In conclusion, and I think I abbreviated it pretty well, 
I want to thank you for the opportunity to testify, and again I 
reiterate, I do look forward to working with you on all of the 
issues that I mentioned, and any other issues.
    [The information follows:]


[Pages 134 - 136--The official Committee record contains additional material here.]



    Mr. Rogers. Well, thank you very much.
    As you pointed out, it was this Subcommittee that increased 
the funding for Violence Against Women.
    Ms. Morella. Yes. You sure did.
    Mr. Rogers. Several hundred percent. It was a huge increase 
because we realized that that is a major problem that was not 
being adequately addressed.
    We also, parenthetically, made those Violence Against Women 
grants available for local Legal Service charters to get at. So 
although Legal Services is not funded as highly as a lot of 
people would like, for the first time those local chapters can 
apply for Violence Against Women grants.
    And over half of Legal Service cases are violence against 
women.
    Ms. Morella. Right.
    Mr. Rogers. So there is a new pot of money for them to go 
after that is aimed directly at violence against women 
problems. And so I hope that word gets out.
    Ms. Morella. I am going to check on that, Mr. Chairman.
    Mr. Rogers. Check it out. And I would point out to you, 
that with the Census, there is no such thing as a long form 
when you sample. It is only when you actually talk to somebody 
that you get actual data that goes on that long form. You 
cannot get that by sampling.
    Ms. Morella. Because you are not sampling everybody.
    Mr. Rogers. You are not sending the long form to everybody. 
You only send that long form to one out of four.
    Ms. Morella. Right.
    Mr. Rogers. Thank you very much.
    Ms. Morella. Think of that information that is on there, 
though. Housing depends on it.
    Mr. Rogers. Oh, sure.
    Ms. Morella. So many things.
    Mr. Rogers. I agree with you. The information is 
invaluable. I just think the form has been so boringly put 
together that a lot of people throw it in the trash can.
    I have been pushing the Census Bureau to make that long 
form more interesting for people to fill out, more colorful and 
interesting.
    Ms. Morella. Maybe they could do that. Maybe they could use 
some fancy graphics.
    Mr. Rogers. And they have. They have--thanks to our 
prodding--come with up, I think they call it the Rogers form, 
which we helped them set up, which has color, and it is 
organized much better, and asks basically the same information, 
but we think in a more attractive way.
    Ms. Morella. Does it really? Ancestry and all that?
    Mr. Rogers. Well, it's essentially what they were asking 
before.
    Ms. Morella. I would love to take a look at it.
    Mr. Rogers. Okay. Thank you very much.
    Ms. Morella. That's great. I am proud of you. Thank you 
very much, Mr. Chairman.
    Mr. Rogers. Mr. Metcalf.
                                          Thursday, March 12, 1998.

                          MEMBERS OF CONGRESS

                                WITNESS

HON. JACK METCALF, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
    Mr. Metcalf. Thank you, Mr. Chairman.
    Mr. Rogers. We will put your written statement in the 
record, if you would like to summarize.
    Mr. Metcalf. I have a pretty short statement, if that is 
all right.
    Mr. Rogers. All right.
    Mr. Metcalf. Mr. Chairman, I would like to speak about the 
Commissioned Corps of the National Oceanic and Atmospheric 
Administration, the NOAA Corps.
    Since 1994 there has been a hiring freeze on the NOAA 
Corps. Since that time, the Corps has cut nearly 150 officers, 
or 36 percent, to its present size of 259. I am advised that by 
the end of the current fiscal year there will be less than 235 
officers in the Corps.
    This reduction is not only beyond that originally proposed 
by the National Performance Review, it is also below the 283 
officers provided by the appropriation for the fiscal year 
1998.
    Most importantly, I am concerned that this reduction means 
that NOAA may not have enough personnel for effective and safe 
operation.
    In the way of brief background, the NOAA Corps has the only 
uniformed hydrographers within the U.S. and the only pilots 
qualified to penetrate hurricanes at low altitudes.
    In addition, the NOAA Corps is the only entity that 
canconduct hurricane reconnaissance over Cuba.
    Should the Corps be diminished, NOAA's capability to 
provide accurate hydrographic charts, vital to our Nation, will 
be in serious question. It is unimaginable that this critical 
NOAA function would be compromised. International commerce, 
fishing, law enforcement, military operations and recreational 
boating would all be affected. Accurate charts are fundamental 
to navigation.
    Now, on a personal note, I was the skipper of a patrol boat 
in Alaska in 1948, and, you know, we had the charts and went 
ahead and followed them. I was going into a bay at an extreme 
low water, a remote bay in Southeast Alaska, somewhere south of 
Ketchikan, and I saw a seal out there, you know, in the water, 
looked liked on a log.
    And so I was heading full speed over to him. I got over to 
him, and he was sitting on a rock. The chart said nothing about 
any rock anywhere near there. But this rock stuck up, in this 
extreme low water. It was about this far out of the water, and 
the seal was on it.
    And, I'll tell you, it gave me sort of a start, because I 
had been trusting those charts totally, and after that I was 
little more careful. I kept watching all the time.
    Also disturbing is the serious risk to our hurricane 
research and reconnaissance efforts. In this regard, the 
Administration has not provided any assurance that these 
critical services will continue.
    Based on NOAA's current complement of ships and aircraft, 
there are currently 70 NOAA Corps officers assigned to ships 
and 36 officers assigned to aviation. The seagoing officers 
spend a third of their career assigned to a shift, while 
aviation officers spend two thirds of their career in flight 
status. This is higher than the Navy and the Coast Guard.
    Personnel are stretched thin in the Corps. A minimum of 264 
officers is critical to NOAA's overall mission.
    At this minimum level there is a substantial cost advantage 
over the alternatives of privatization. This was the finding of 
both Arthur Andersen and Hay Huggins.
    A reduction in the Corps below the minimum of 264 officers 
would, in my opinion, be inadvisable. It means that rotations 
would push duty time beyond the one-third and two-thirds of 
dedicated time. Officer burn out could or would become a 
problem. Operating costs would increase for training and 
recruitment. Civilian overtime would increase costs further. 
Expertise might be lost as well.
    In summary, further reduction in the size of the NOAA 
Corps, or the replacement of the Corps with civilian employees, 
as now established by numerous cost studies, will only be more 
expensive. An operational minimum of 264 NOAA Corps officers 
will enable the Agency to carry out its statutory mission.
    Accordingly, it seems to me that it is time to call off the 
hiring freeze, and let the NOAA Corps begin recruiting the 
number of officers needed to insure the continued safe 
operation of NOAA ships and aircraft.
    We must also allow the NOAA Corps to function properly, and 
allow NOAA to fulfill its statutory mission. And I'll leave a 
copy of my testimony.
    Thank you very much, Mr. Chairman.
    [The information follows:]


[Pages 140 - 142--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you very much, Mr. Metcalf. We appreciate 
your testimony.
    If there are no further witnesses, the hearing will be 
adjourned.


[Pages 144 - 156--The official Committee record contains additional material here.]



                                          Wednesday, April 1, 1998.

                            PUBLIC WITNESSES

            NATIONAL COMMISSION ON CORRECTIONAL HEALTH CARE

                                WITNESS

EDWARD A. HARRISON, PRESIDENT
    Mr. Rogers. The Subcommittee will come to order.
    The Subcommittee this morning will hear testimony from 
public witnesses on Fiscal Year 1999 budget request for 
programs under our jurisdiction. We are on a tight schedule, as 
you can tell, and, so, we will need the cooperation of all who 
will testify to adhere to our five-minute time limit or less, 
even.
    You will note the panel of lights on the table. These 
lights are part of a timer which we can use to alert you to 
when your time is nearing completion. The yellow light will 
appear when you have one minute remaining and the red light 
indicates your time has expired.
    We will insert your written statement into the record and 
you can use your allotted time to summarize the issues that you 
would like to highlight. We welcome each of you here today and 
we thank you for taking the time to express your views.
    The first witness is Edward Harrison of the National 
Commission on Correctional Health Care.
    Please, proceed.
    Mr. Harrison. Thank you, Mr. Chairman and members of the 
Subcommittee. On behalf of the 37 supporting organizations that 
comprise the National Commission on Correctional Health Care I 
want to thank you for allowing me to come before you this 
morning and present testimony relevant to the Fiscal Year 1999 
Commerce, Justice, State, Judiciary and Related Agencies 
Appropriations bill.
    In the time provided or less, I would like to talk about 
the National Commission's recent activities related to a 
National Institute of Justice-sponsored study on the potential 
health risks of soon-to-be-released inmates.
    Additionally, I want to take this opportunity to request 
that $250,000 be provided to NIJ in Fiscal Year 1999 to support 
activities toward completing the study and disseminating its 
findings.
    The need for the study is more important than ever. This 
year, approximately 12 million releases will occur from 
correctional facilities throughout the nation. The growing 
population of inmates and the large number of persons released 
places considerable pressure on the health care system within 
correctional facilities to diagnose and treat serious health 
conditions within this high-risk population. Undiagnosed and 
untreated diseases, such as tuberculosis, HIV and AIDS, 
hepatitis B and C, and other chronic illnesses may pose a 
serious threat to the health and well-being of not just inmates 
but of individuals working within correctional settings who 
come in and out of these facilities on a daily basis.
    Moreover, absent effective intervention, the released 
individuals pose a threat to the public health of the general 
community.
    In response to the problems confronting State and local, 
correctional and public health officials with respect to the 
potential public health risks of soon-to-be-released inmates, 
this Committee provided $500,000 in Fiscal Year 1997 and Fiscal 
Year 1998 respectively, to the National Institute of Justice to 
support a national study on this issue. Subsequently, the 
National Commission entered into a cooperative agreement with 
NIJ to initiate the study.
    In the summer of 1997 expert panels were developed to frame 
the issue areas for the study. The panels were made up of 
recognized leading experts from the fields of corrections and 
medicine.
    These issues focused on the high rates of communicable 
disease, chronic health problems and mental illness in our 
nation's correctional facilities. The University of Louisville 
School of Medicine was subcontracted to serve as the data 
resource collection center for the project.
    Overall, this study will determine A, the extent to which 
these serious health problems exist in our prisons; B, the 
extent to which inmates who have these conditions are being 
released; C, the extent to which prisons have not identified 
these problems in soon-to-be-released inmates; and D, the 
public health and economic cost to the State and local 
governments resulting from these policies.
    Upon identifying the objectives, issue areas, scope of work 
and time needed to adequately conduct such a study, research 
under the cooperative agreement between the National Commission 
and NIJ began in November of 1997.
    This year the Commission has surveyed Federal and State 
prison systems to determine their ability to report on the 
health conditions of their inmate population. In addition, the 
prisons were asked to report on the prevalence of certain 
diseases and other health problems within their population.
    Surprisingly, preliminary indications are that many States 
do not have answers for some of these basic questions. As the 
survey results are tabulated, national protocols for the 
treatment of diseases are being compiled and a comparison will 
be done comparing the extent to which these protocols are being 
followed.
    From these data we will conduct further research checking 
the validity of the self-reported data. With pre-established 
benchmarks we will begin to project the impact on the public 
health stemming from the health status of soon-to-be-released 
inmates.
    It is anticipated that the study will be completed in mid-
1999. Following the study's completion, a national conference 
is being planned to bring State, county and local correctional 
and public health care officials together with members of 
Congress and Federal officials to review thefindings of the 
study and work to develop effective strategies and policies for the 
nation's correctional and public health administrators related to 
correctional health care.
    With this in mind, the National Commission is requesting 
that $250,000 be provided above the President's Fiscal Year 
1999 request for the National Institute of Justice account to 
complete the study and to support a national conference to 
report the findings of the study.
    Mr. Chairman, this concludes my statement. Again, on behalf 
of the National Commission, I want to thank you for your 
continued support of efforts to address the problems associated 
with correctional health care.
    [The information follows:]


[Pages 160 - 162--The official Committee record contains additional material here.]



    Mr. Harrison. If you have any questions, I would be glad to 
answer any questions.
    Mr. Dixon. I have no questions.
    Mr. Rogers. Thank you very much.
    Lawrence Sherman, with the Consortium of Social Science 
Associations.
                              ----------                              

                                          Wednesday, April 1, 1998.

               CONSORTIUM OF SOCIAL SCIENCE ASSOCIATIONS

                                WITNESS

LAWRENCE SHERMAN, PROFESSOR AND CHAIR, DEPARTMENT OF CRIMINOLOGY AND 
    CRIMINAL JUSTICE, UNIVERSITY OF MARYLAND AT COLLEGE PARK
    Mr. Sherman. Thank you, Mr. Chairman and Members. I am the 
chairman of the Department of Criminology at the University of 
Maryland speaking on behalf of an association representing over 
100 social science organizations.
    I am here to speak on behalf of social science as the most 
useful tool for fighting crime and violence in the United 
States. The good news is that homicides committed by juveniles 
in cities over one million have been going down; the bad news 
is that they are still at historically high levels and that 
homicides committed by juveniles in rural areas have risen by 
50 percent in the last five years.
    Even where crime rates are going down we do not know why. 
School violence is a good example of a problem that has been 
subjected to lots of solutions but precious little research 
showing what works.
    In a report mandated by the Congress that the University of 
Maryland submitted just a year ago to the appropriations 
committee, we reviewed comprehensively the $4 billion in 
Federal funding for crime prevention in terms of their 
documented effectiveness. And what we found is that the vast 
majority of these funds remain unevaluated with unknown 
effectiveness, and where studies have been done, we find that 
many of these programs failed to work and some of them actually 
increase school violence, as well as violence in other 
settings.
    For example, a peer counseling program in Chicago put high-
risk kids in more contact with each other and a documented 
increase in their violence resulted. A famous mentoring program 
in Massachusetts in the 1930s actually caused greater mental 
illness, early death and alcoholism than the control group.
    By the same token, we have a very positive examples of 
programs that do work such as the Big Brothers/Big Sisters 
program in which careful research has shown a capacity to 
reduce drug abuse on the part of the program compared to 
comparable kids who do not receive the benefits of the program.
    The problem is that until we fund social science 
evaluations of the vast array of crime prevention programs in 
this country, we will not know what works and what does not 
work. We will continue to be at risk of spending money on 
programs that actually increase violence and of failing to 
invest in those programs that are more cost-effective in the 
reduction models.
    The National Institute of Justice has received an 
extraordinarily low level of funding in relation to the years 
of life lost through violence-related causes. A 1993 study by 
the National Academy of Sciences, their panel on the control 
and understanding of violent behavior, estimated that 
approximately $700-to-$800 of Federal tax money is spent 
eachyear per life lost due to AIDS, due to cancer, due to heart 
disease. The comparable figure for years of life lost due to violence 
is about $25.
    And this is a direct reflection of the tiny levels of 
funding from the National Institute of Justice, currently 
proposed to be in the range of some $70 million a year, even 
though it is only funded in the current Fiscal Year of less 
than $50 million. And this compares to billions of dollars for 
health-related research and prevention evaluations.
    I think that the track record of social science has been 
very encouraging. Many of the techniques used by the New York 
City police department and other major cities have been, in 
fact, developed by research funded by NIJ, especially the 
identification of hot spots of violent crime, the 3 percent of 
addressees that cause over 50 percent of all the crimes in 
American cities, as well as various techniques for problem 
solving and reduction of gun violence in those places.
    But, Mr. Chairman, we are merely scratching the surface and 
until we receive adequate funding for social science 
evaluations of crime prevention, I do not think our prospects 
for long-term winning the war on crime are very encouraging. 
With the requested increase for the NIJ budget this year, those 
chances will be substantially increased.
    Thank you.
    [The information follows:]


[Pages 165 - 171--The official Committee record contains additional material here.]



    Mr. Rogers. Well, thank you. I have a copy of the study 
before me, and as you have indicated, we requested this study 
last year on what works in preventing crime. The report was 
very well done and very helpful to us.
    Mr. Sherman. Thank you.
    Mr. Rogers. We thank you for an excellent piece of work.
    Mr. Sherman. I appreciate the opportunity to be here today.
    Mr. Rogers. Thank you.
    Mr. Dixon?
    Mr. Dixon. No questions, Mr. Chairman.
    Mr. Rogers. Sally Erny, the National Court Appointed 
Special Advocate Association.
                              ----------                              

                                          Wednesday, April 1, 1998.

         NATIONAL COURT APPOINTED SPECIAL ADVOCATE ASSOCIATION

                                WITNESS

SALLY ERNY, ON BEHALF OF NATIONAL CASA
    Mr. Rogers. Welcome.
    Ms. Erny. Welcome, how are you?
    Mr. Rogers. Fine. How are you?
    Ms. Erny. Mr. Chairman, members of the Subcommittee I am 
Sally Wilson Erny, today representing the National CASA 
Association and the 700 State and local CASA programs across 
the country. I am also a volunteer board member on the Kentucky 
CASA Association and we are proud today and this week of our 
Kentucky Wildcats winning the NCAA championship.
    Mr. Rogers. Okay.
    Ms. Erny. Take that off my time.
    Mr. Rogers. Please proceed as long as you would like.
    Ms. Erny. I appreciate the opportunity to be here today to 
request $9 million for CASA. This is the amount authorized by 
Congress under the Victims of Child Abuse Act and funded 
through the Violent Crime Reduction Trust Fund.
    This $9 million goes to help startup and expand CASA 
programs across the country and to provide technical assistance 
and training to CASA programs through the national CASA 
Association.
    Recent figures released by the Department of Health and 
Human Services, I think, are alarming in what we know about 
child abuse and what we read daily but they confirm that child 
abuse is up by about 27 percent since 1990 and I think the most 
startling fact is about half of the victims are under six years 
of age and a quarter of them are under three years of age. It 
is an alarming problem across the country.
    CASAs are citizen volunteers who act on behalf of the child 
and represent the child's best interests from a lay person's 
perspective to the court. They are fact finders, facilitators, 
monitors and advocates for those children and they speak out to 
the court and to the community for those child's interests.
    These volunteers are an outstanding core of folks who have 
decided to be part of the solution to the problem of child 
abuse and neglect across our country.
    I just want to give you an example of how CASA volunteers 
have been helpful and this is one of thousands of examples, 
across the country. There were four children who had been 
missing a lot of school and Child Protective Services 
intervened on behalf of these children removed them from the 
care of their parents. They also found an infant child who was 
not school-age who was being medically neglected and that child 
was removed as well.
    The parents were not open to receiving services from 
Protective Services, unfortunately, and declined support and 
really became belligerent. The court appointed a CASA volunteer 
and that CASA volunteer found the same circumstances. The 
family did not want to work with the volunteer but after a long period 
of relationship building, developing rapport got the family and the 
parents, in the best interests of their children, to accept the 
services and to shorten a long story, the children were finally 
reunited with their parents and are now thriving. And it was really the 
work of the CASA building the rapport and getting the parents to 
understand the importance of their work for their children that got 
that family back together.
    CASA has worked with children who are at home, in foster 
care and the main goal is that they achieve permanency for the 
child whether that be with their own parents or through 
adoption.
    The capacity of the volunteer I think is really important. 
With the recent legislation on adoption and safe families, 
Congress has set down rules about how long children can remain 
in care and finding safe permanent homes quickly. And that will 
not help the number of children coming into the system, that 
number will not decline. What it means is that people are going 
to have to work faster and harder once kids get in the system 
to get them in safe permanent homes. And CASA certainly plays a 
very vital role in that way.
    There are currently 42,000 CASA volunteers speaking up for 
165,000 children across our country. And, although, we are very 
proud of these numbers, it is only about 30 percent of the 
children who need our help. So, we are asking for this $9 
million so that we can expand our services to reach more 
children and help prevent violent crime, juvenile delinquency, 
save lives and save dollars.
    So, I thank you for your time and I respectfully request 
that CASA be funded at $9 million in Fiscal Year 1999.
    [The information follows:]


[Pages 174 - 179--The official Committee record contains additional material here.]



    Mr. Rogers. We thank you for your testimony.
    Mr. Dixon?
    Mr. Dixon. How many States are you operating in?
    Ms. Erny. Fifty.
    Mr. Dixon. All 50?
    Ms. Erny. Yes.
    Mr. Dixon. Thank you.
    Ms. Erny. Thank you very much.
    Mr. Rogers. Thank you very much.
    K.C. McAlpin, Federation for American Immigration Reform. 
Welcome.
                              ----------                              

                                          Wednesday, April 1, 1998.

               FEDERATION FOR AMERICAN IMMIGRATION REFORM

                                WITNESS

K.C. McALPIN, DEPUTY DIRECTOR
    Mr. McAlpin. Thank you.
    Mr. Chairman, and members of the committee, thank you for 
the opportunity to testify on behalf of FAIR. My name is K.C. 
McAlpin, and I am the Deputy Director of FAIR appearing for 
Executive Director Dan Stein.
    Mr. Chairman, on behalf of our members, I would like to 
thank you for your leadership in helping to provide badly 
needed congressional oversight of the INS and particularly of 
its politically inspired programs of rush to naturalization of 
over one million aliens in advance of the 1996 election.
    We believe it is time to make some fundamental 
clarifications about the INS' role and purpose. The first and 
most important service the INS can deliver to the nation is to 
enforce our laws competently and in the spirit of their intent.
    Second, it is a mistaken and dangerous illusion to infer 
that a customer relationship should exist between the INS and 
aliens who are the object and beneficiaries of it's activities. 
Immigrants are not the customers of the INS. We, the American, 
people are. Nothing should be allowed to dilute or compromise 
that principle.
    Before deciding whether the INS should be abolished, 
strengthened or reorganized, we suggest Congress should examine 
why it is failing in the first place. By failure, we mean the 
failure to carry out the democratic will of American people on 
immigration policy.
    The basic reason the INS is failing is simple and 
straightforward. There is a lack of political will to enforce 
the immigration laws of the United States on the part of all 
three branches of Government, the Executive, Legislative and 
Judicial.
    The fact is we have all the technology and the resources we 
need to insist on the proper enforcement of our laws if we had 
the will to do it.
    The other fundamental reason the INS is failing is an 
outgrowth of the first, because the Government lacks the 
political will to enact the necessary reforms, the INS is being 
overwhelmed by the numbers it has to deal with in terms of both 
legal and illegal immigration.
    Consider first illegal immigration. In the early 1980s we 
warned that in the absence of an employment verification system 
to remove the magnet of jobs that amnesty for illegal aliens 
would do nothing but generate increased pressure on legal 
immigration quotas and serve to encourage future illegal 
immigration.
    Congress chose to ignore that advice and now 12 years later 
we have approximately 5.5 million illegal aliens in the 
country, almost double the number that were given amnesty 12 
years ago.
    In 1994, the same solution was the near unanimous 
recommendation of the U.S. Commission on Immigration Reform but 
again, when considering legislation to strengthen immigration 
law enforcement two years later, Congress and the 
Administration chose to side-step this common sense reform.
    The problems the INS is now experiencing with legal 
immigration overload are also directly tied to the sheer volume 
of immigration demand generated by specific Government actions. 
I have spoken about the down-stream effect of the 1986 amnesty. 
Congress also chose to increase legal immigration by 40 percent 
when it made major immigration law changes in 1990.
    The large numbers of immigrants that the country is now 
seeing and the secondary demand these measures are triggering 
for even greater numbers of new immigrants stem directly from 
these and other actions the Government has taken.
    Hereto, Congress and the administration have refused to 
accept the recommendations of their own panel of experts on the 
U.S. Commission On Immigration Reform. Those recommendations 
were to reduce the overall level of legal immigration, refocus 
immigration priority on nuclear family members, and eliminate 
the self-generating pressure for ever larger volumes of legal 
immigration by removing visa preferences for extended family 
relatives such as brothers or sisters.
    Mr. Chairman, any effort to reorganize the INS or its 
functions in the absence of reforms that would significantly 
reduce the volume of legal and illegal immigration are doomed 
to failure. It is foolhardy to expect the INS or any other 
Government agency to succeed in this mission under the adverse 
conditions that have been created.
    Should Congress, nevertheless, choose to proceed with a 
plan of reorganization we believe the following principles are 
important. We see no reason to separate enforcement from 
benefits functions. The INS does not deal in benefits, properly 
understood, but rather in the immigration adjudications and 
enforcement functions which are two sides of the same coin.
    These are closely related activities that are most 
effectively administered within a single framework for internal 
communications and data base needs.
    We are completely opposed to any reorganization that would 
further isolate the INS' law enforcement activities within the 
Federal, State and local law enforcement apparatus.
    In our view, INS's law enforcement functions have suffered 
from a long process of bureaucratic isolation that, if 
anything, should be reversed.
    Thank you, Mr. Chairman, for the opportunity to present our 
views. I will be happy to answer any questions.
    [The information follows:]


[Pages 183 - 192--The official Committee record contains additional material here.]



    Mr. Rogers. What do you think of the recommendations of the 
Commission headed by Barbara Jordan?
    Mr. McAlpin. We think in whole we were very pleased with 
those recommendations. And I am talking specifically about the 
recommendations to address illegal immigration problems and 
legal immigration reforms. The recommendations as I said, we 
have all these different things; if you are referring to the 
reorganization recommendations. We have laid out here the two 
things that--
    Mr. Rogers. Well, I know but what I want to ask you about 
is the Commission headed by Barbara Jordan. That Commission 
said that INS is an impossible agency with an impossible 
mission and it ought to be abolished and its functions 
reassigned: The visa matters to the State Department; the law 
enforcement matters to the Justice Department; the labor 
matters to the Labor Department.
    Congressman Reyes of Texas, a former Border Patrol agent 
has a bill that would create a border control agency, a single 
agency, not INS, Customs, DEA, FBI, Agriculture, whomever else 
is on the border now, but a single agency whose sole job is to 
protect the border and guard the border with all these other 
functions that they would perform, drugs, illegal customs and 
so forth.
    What do you think about those two proposals?
    Mr. McAlpin. Well, we----
    Mr. Rogers. Quickly.
    Mr. McAlpin [continuing]. All right, quickly. I think we 
see some benefit in the unification of all the law enforcement 
functions, I mean the uniform border patrol and interior 
enforcement. What we are saying is we think that the whole 
thing should be, whether it is in a separate agency, the same 
agency, you know, in a cabinet level agency or what have you, 
we think there are benefits in having them together.
    I also point out in the Jordan Commission recommendations, 
Mr. Chairman, they identified one of the main problems for the 
INS is mission overload which is what we are talking about 
here.
    Mr. Rogers. Yes. Okay, thank you very much.
    Mr. Dixon?
    Mr. Dixon. No questions, Mr. Chairman.
    Mr. Rogers. Thank you very much.
    Mr. McAlpin. Thank you, Mr. Chairman.
    Mr. Rogers. Ed Logsdon, American Association of Motor 
Vehicle Administrators. Mr. Logsdon is a Kentuckian and a 
personal friend of the chair and a valued friend.
    We are delighted to have you with us again, Mr. Logsdon.
                              ----------                              

                                          Wednesday, April 1, 1998.

          AMERICAN ASSOCIATION OF MOTOR VEHICLE ADMINISTRATORS

                                WITNESS

ED LOGSDON, COMMISSIONER, DEPARTMENT OF VEHICLE REGISTRATION, 
    COMMONWEALTH OF KENTUCKY
    Mr. Logsdon. Thank you, Mr. Chairman.
    To follow-up on the earlier comments about the Wildcats, 
when I left home yesterday they were trying to figure out the 
name of the coach that went to the Celtics.
    Mr. Rogers. What was that guy's name.
    Mr. Logsdon. Patina, I think, I am not sure.
    Mr. Rogers. Oh, yes, that is right.
    Richard, was it not?
    Mr. Logsdon. Yes, I think.
    Mr. Chairman and members of the subcommittee, I am honored 
to be here today on behalf of the American Association of Motor 
Vehicle Administrators, AAMVA, to report to the subcommittee on 
our progress for establishing the National Motor Vehicle Title 
Information System, NMVTIS, and to request that the 
subcommittee provide continued financial support for this 
endeavor in the amount of $3.6 million for Fiscal Year 1999.
    As you know, AAMVA is an organization of State and 
provincial officials in the United States and Canada, who are 
responsible for the administration and enforcement of all laws 
pertaining to the safe operation of motor vehicles.
    The National Motor Vehicle Title Information System is one 
of the most important means that all States are relying on to 
drastically reduce auto theft. The Anti-Car Theft Act of 1992 
authorized the creation of this vehicle tracking system and 
directed States to begin utilizing this system as soon as 
possible as a means to deter trafficking of stolen vehicles.
    The intent of this legislation was to, one, close loopholes 
that make it much too easy for traffickers to title stolen 
vehicles; two, identify stolen vehicles; three, provide 
consumer protection by giving prospective used-vehicle 
purchasers access to brand data.
    The FBI crime statistics on motor vehicle theft nationwide 
show that they are slightly under 1.5 million thefts of motor 
vehicles per year reported at an estimated value of $7.6 
billion. Since the passage of the Anti-Car Theft Act of 1992, 
the Association has reviewed the national implementation of 
this system as one of its highest priorities.
    In 1993, AAMVA conducted a survey to measure jurisdictional 
interest and cost data to participate in this national system. 
The result of that survey showed overwhelming support and 
indicated that the Federal contribution would average 
approximately $300,000 per State.
    Mr. Chairman and members of the subcommittee, I am very 
pleased to let you know that the projections compiled in 1993 
remain on target at a total of $21 million in Federal funding. 
And once the system is fully operational, the National Motor 
Vehicle Title and Information System will be self-supported by 
user fees.
    NMVTIS will allow titling jurisdictions to verify the 
vehicle and title information, to obtain information on all 
brands, and to obtain information on whether the vehicle has 
been reported stolen.
    The inability to accurately verify this type of vehicle 
data keeps the loopholes open for auto theft criminals. That 
brings me to the importance of this testimony today: To get the 
necessary appropriations to establish this system. Federal 
funding is needed to assist jurisdictions as well as AAMVA to 
accomplish the following objectives: To help the States defray 
some of the costs to change computer software and to assist 
AAMVA to defray some of the out-of-pocket costs in building the 
system infrastructure and to assist the jurisdiction with 
implementation.
    In Fiscal Year 1999, AAMVA is asking that the appropriation 
of $3.6 million be awarded for the continued national roll-out 
of the NMVTIS. These funds would allow an additional ten States 
to join the system at a cost of $3.1 million and build on the 
momentum that is currently in place. The remaining $500,000 
would be used to defray AAMVA's costs.
    Currently, there are five participating States in the pilot 
program. They are Virginia, Florida, Massachusetts,Indiana and 
Arizona. The funding received in 1999, for which we owe a great deal of 
thanks to you, will enable five additional States to join the system. I 
fully expect the Commonwealth of Kentucky will be one of those five 
States. Kentucky's participation in this system will help to combat the 
thousands of motor vehicle thefts that occur annually. According to the 
FBI there were over 8,500 vehicle thefts in Kentucky. We want to do our 
share to continue to decrease the number of our citizens who are 
victimized by auto theft.
    This system will help States across the country develop 
this powerful new tool to put a dent in the $7.6 billion crime 
industry. A gap in Federal funding in 1999 will threaten the 
national implementation of this system.
    Mr. Chairman, your continued support is not only important 
to our constituents in Kentucky but also to each and every 
motor vehicle administrator and enforcement personnel and the 
millions of constituents they serve.
    Thank you very much.
    [The information follows:]


[Pages 196 - 200--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you, Ed, good to see you again.
    Mr. Logsdon. If you need anything, holler at us.
    Mr. Rogers. Thank you very much.
    Mr. Regula [presiding]. If we could take out of order Mr. 
Tim Armour from the JASON Foundation.
                              ----------                              

                                          Wednesday, April 1, 1998.

                     JASON FOUNDATION FOR EDUCATION

                                WITNESS

TIM ARMOUR, EXECUTIVE DIRECTOR
    Mr. Armour. Thank you, Mr. Chairman.
    Mr. Chairman and Members of the Subcommittee, my name is 
Tim Armour, and I am the Executive Director of the JASON 
Foundation for Education, a 501(c)(3) organization in Waltham, 
Massachusetts. I am here today representing the JASON 
Foundation and our partner, the Institute for Exploration, in 
Mystic, Connecticut, and the National Undersea Research 
Program, part of NOAA, hoping to bring the excitement of 
scientific discovery to millions of students throughout the 
country.
    Dr. Robert Ballard, the founder of JASON Foundation and of 
the Institute for Exploration, has submitted testimony and I am 
happy to be here to amplify on that for you.
    I would like to make a few summary points. First, I want to 
thank the Members of the Subcommittee for your support of $15.4 
million for NOAA's National Undersea Research program in the 
1998 Commerce, Justice, State and Judiciary appropriations 
bill.
    In particular, thanks for including $1.5 million for the 
NURP-JASON-IFE partnership for research, education and 
outreach. Let me describe that partnership briefly for you. 
NURP produces first quality research and tons of data. What 
JASON does is to take that research and data and put it in the 
context that is usable in the classroom, K-through-12 
classroom, throughout the country. IFE's role in this 
partnership is to develop public outreach programs through 
state-of-the-art exhibitry in Mystic, Connecticut. This unique 
collaboration is proving successful already and points the way 
for an exciting and innovative public/private partnership for 
research and education.
    We urge the Subcommittee to approve, first of all, full 
funding for NURP for Fiscal Year 1999, and make provisions for 
an expanded NURP/JASON partnership in Fiscal Year 1999.
    On behalf of the successful partnership and the millions of 
students it will serve, we are asking for $2 million to be 
directed to that partnership. An example of what can be done 
has just been completed out in NOAA's largest marine sanctuary 
in Monterey Bay, California, where we did 55 hours of live 
tele-presence broadcasts to over half a million students around 
the country. It featured use of the NOAA ship, McArthur; the 
NOAA ship, Biena from the Channel Islands; and a good number of 
world-class scientists including Dr. Ballard, Sylvia Earl and 
other researchers working for NOAA and others.
    Mr. Regula. Is the only limitation on the number of 
students the matter of schools having equipment to receive 
this?
    Mr. Armour. Equipment and our ability to train the teachers 
and get them curriculum, that is right. That is really the only 
limitation. Technology has caught up interms of television and 
broadcasting and so on.
    Mr. Regula. But this means that a student could be in the 
classroom and be observing the bottom of Monterey Bay with 
interpretation of what is being seen and the student could even 
ask questions from the classroom?
    Mr. Armour. That is right, that is correct.
    Mr. Regula. And you also, as part of your program, give 
teachers instruction so they know how to capitalize on this 
facility?
    Mr. Armour. That is correct.
    Mr. Regula. Mr. Chairman, I saw this in operation in a 
classroom, one of our very modern school buildings in my 
district and it worked extremely well. And it's potential is 
just unlimited almost. They did a program at Yellowstone 
National Park and then switched to Iceland to see the effect of 
thermals in power production or in the ways it is used.
    I call it the electronic school bus.
    Mr. Armour. I think that is a good description, 
congressman.
    Mr. Regula. They can take a field trip from their classroom 
to Monterey Bay. It is remarkable.
    I am sorry to interrupt your talk. I have go to and vote 
and I wanted to give the chairman our own experience in the 
16th District.
    Mr. Armour. Well, thank you very much.
    I appreciate it.
    Mr. Rogers. We appreciate the testimony of both of you.
    Mr. Armour. Any other questions?
    Mr. Armour. I guess not. Thank you, much.
    Mr. Rogers. Thank you.
    [The information follows:]


[Pages 203 - 207--The official Committee record contains additional material here.]



    Mr. Rogers. Our next witness is Doreen Dodson, American Bar 
Association.
                              ----------                              

                                          Wednesday, April 1, 1998.

                        AMERICAN BAR ASSOCIATION

                                WITNESS

DOREEN DODSON, CHAIR, ABA STANDING COMMITTEE ON LEGAL AID AND INDIGENT 
    DEFENDANTS
    Ms. Dodson. Thank you, Mr. Chairman.
    Good morning, and although we have lost other members of 
the Subcommittee, my name is Doreen Dodson and I am a 
practicing attorney in St. Louis, Missouri and I am currently 
chair of the American Bar Association Standing Committee on 
Legal Aid and Indigent Defendants.
    I appear here today at the request of Jerry Shestack, the 
President of the ABA, to voice the association's views with 
respect to the Fiscal Year 1999 funding for Legal Services 
Corporation. And secondly, for the Defender Services portion in 
the Judiciary's appropriation bill.
    First and most importantly, the ABA is requesting that 
Legal Service Corporation's funding be restored to its Fiscal 
Year 1996 funding level of $415 million. But, in any event, we 
would request that the appropriation should not be less than 
the $340 million figure which the corporation, itself, and the 
Administration has agreed upon.
    We want to commend the leadership of LSC, the corporation, 
for the responsible and diligent manner in which it has been 
carrying out its duties, particularly in light of the sweeping 
changes, Congressman Rogers, in the program that were mandated 
by the 104th and the 105th Congress.
    We believe that the new leadership of the corporation 
deserves your confidence and support and that is why we are 
here today requesting the increased funding in order that it 
can carry out its very important mission. Legal services to the 
poor is an essential component of our democratic system.
    The first directive of our Constitution is to establish 
justice. Justice and fairness, we believe and I know you do, 
are bedrock principles of our democracy and they are 
nonpartisan principles.
    The justice system cannot possibly retain the respect and 
the citizen support that is to essential for its functioning if 
it appears that access to justice is dependent upon one's 
wealth or place of residence.
    A comprehensive national system that provides civil legal 
services to the poorest of our citizens must be maintained and 
it must be strengthened. Nationwide, Federal dollars channeled 
through LSC account for about 60 percent of the funding of 
local programs to address the needs of the poor. The remaining 
40 percent come from a variety of sources, from lawyer 
contributions, from foundation grants, court filing fees, State 
appropriations, and most significantly, from IOLTA, the 
interest on lawyer trust accounts.
    In addition to that, the private bar has made an enormous 
in-kind contribution through pro bono legal services. There are 
currently about 150,000 lawyers signed up in various pro bono 
programs that are formally affiliated with Legal Service 
offices. Many thousands of others and we have not figured out a 
way to count them all yet, contribute their time through other means.
    Collectively, those legal resources still meet only about 
20 percent of the needs every year. Local Legal Service offices 
in your State and in mine are functioning pretty much like 
hospital emergency rooms, like a triage service. The situation 
would become even worse if the challenge to the 
constitutionality of IOLTA is upheld by the United States 
Supreme Court.
    That case which was argued January 13th of this year, 
Washington Legal Foundation versus Texas Legal Access to 
Justice Foundation, the decision in that is anticipated by the 
end of June. If there is an adverse ruling it would mean an 
immediate disappearance of $50 million to Legal Service 
programs throughout the country.
    Even if it is approved--and I might say that there is 
another $50 million from IOLTA that goes to support chiefly pro 
bono services--even if it is favorable all the legal needs of 
our citizens are not met.
    Secondly, I would like to urge the full funding of the 
Judiciary's appropriation request for Defender Services of 
approximately $360.9 million. That is a very modest increase 
over last year's appropriation of $329.5 million in order to 
provide the Government's fundamental responsibility for counsel 
to indigent defendants.
    In addition, there is a request in there to provide for a 
$5 an hour increase to panel attorneys. There has been only one 
$5 increase in the last 10 years and in only 16 of the 
districts do the panel lawyers in indigent defendant cases even 
approach the cap of $75. So, we would ask for that modest 
increase.
    Mr. Chairman, we are here hoping today that this 
Subcommittee will look favorably on the corporation's request 
and at least fund it for $340 million.
    Thank you very much for your time and attention.
    [The information follows:]


[Pages 210 - 217--The official Committee record contains additional material here.]



    Mr. Rogers. I find it absolutely audacious that the 
American Bar Association would come here and tell us to put 
more taxpayers' dollars to pay for lawyers to represent poor 
people. I am a lawyer, used to be. And I practiced law and the 
court ordered me, as a part of my being an American citizen and 
having a good education, to represent poor people in criminal 
cases and civil cases.
    We all looked upon it as an obligation that we owed and we 
did it gleefully. Lawyers do not do that much today. And here 
is the lawyers' representative asking the taxpayers to pay 
lawyers to represent poor people. Lawyers ought to do that as a 
part of their obligation when they take the oath of office.
    And if we had lawyers today that felt their sense of 
obligation to the community and to the legal profession and to 
the rights of poor people they would represent poor people for 
free like we used to.
    Thank you very much.
    Kenneth Boehm, National Legal and Policy Center.
                              ----------                              

                                          Wednesday, April 1, 1998.

                    NATIONAL LEGAL AND POLICY CENTER

                                WITNESS

KENNETH BOEHM, CHAIRMAN
    Mr. Boehm. Thank you, Mr. Chairman.
    I am Ken Boehm with the National Legal and Policy Center. 
Prior to joining NLPC I served as counsel to the board of 
directors of the Legal Services Corporation and have a fair 
amount of experience in the last 10 years analyzing both the 
strengths and weaknesses of the program. My group sponsors the 
Legal Services Accountability Project where we document, 
research abuses within the program.
    Today, in the brief time allotted, I would like to make 
three brief points. The first, the abuses are continuing. While 
the reforms are in place, many of the same abuses are 
continuing. We have documented over 300 of them in the last two 
years with many more that will be coming out because of the 
case disclosure amendment voted on the House floor last year.
    Second, there is widespread use of mirror corporations by 
Legal Services programs as a means to continue to practice the 
types of cases that Congress outlawed. While this would not be 
a problem if there was a wide gap between Legal Services 
programs receiving funding and the groups doing the prohibited 
practices, in reality that is not the case. They work very, 
very closely together, share resources and have a number of 
methods that raise a question as to whether Federal resources 
are still being used for prohibited purposes.
    Third, Legal Services lawyers are spending increasing 
amounts of money to litigate against the H-2A, temporary agricultural 
guest worker program. The effort includes trips to Mexico, to recruit 
clients, and at a time when the LSC waiting rooms are full of deserving 
poor clients, Legal Services lawyers are using direct mail, radio ads, 
foreign trips to recruit clients to sue farmers using the H-2A program.
    One small change in the appropriation law that is now 
before this subcommittee could end all of those abuses.
    With respect to the abuses, themselves, Legal Services 
continue to do drug-related evictions. The restrictions that 
were put in do not stop all drug-related evictions, they still 
are doing quite a few of those. The only ones they do not do is 
when the actual client is a drug dealer.
    Secondly, they continue to attack policies that speed 
evictions of violent criminals from public housing and there 
are a number of those cases pending around the country right 
now.
    Third, they continue to sue for disability benefits for 
drug abusers and alcoholics, fighting on the opposite side of 
the drug war and very much hurting the people, really, they are 
supposed to be helping.
    And, fourth, they continue to be involved in high-profile 
legal cases against the Government such as the case against 
Orange County, California; when they sought to remove the 
bilingual education program which was failing the Hispanic 
students, they sought to overturn that program, even though a 
poll by the Los Angeles newspaper, the Los Angeles Times showed 
83 percent of the Hispanic parents wanted their kids to learn 
English, did not want bilingual, and Legal Services sued to 
stop the ending of the bilingual program.
    Mr. Rogers. Would you furnish to me the documentation for 
all those categories, the cases you just covered, the drug-
related and so on.
    Mr. Boehm. Yes, sir. We have both court cites and newspaper 
cites for each one of those. Some of them are listed in the 
paperwork that I supplied for the subcommittee but for each one 
of those we will have those to you within 24 hours.
    Mr. Rogers. Okay.
    [Clerk's note.--This information is on file with the 
Subcommittee.]
    Mr. Boehm. And the reform that took place on the House 
floor last year to document for the first time which cases the 
Legal Services Corporation handled with public funds is a good 
reform. Justice Brandeis said, ``Sunshine is the best 
disinfectant.'' Whenever we have documented these hundreds of 
cases, Legal Services say they are isolated and anecdotal and 
if you looked at the real case file you would find that most of 
them are fairly benign.
    The fact of the matter is that they opposed this and, put 
simply, they do not want Congress and the public to know which 
cases are handled with taxpayer dollars.
    On the question of mirror corporations, the printed record 
has the problems. The problem in a nutshell is they are allowed 
to cooperate too closely with the Federally subsidized 
programs. So, there is a real question as to whether the 
Federal funds continue to be used for restricted activities.
    And finally, on the point that was raised at the February 
25th hearing where Representative Taylor asked LSC why Legal 
Services lawyers from North Carolina were sending mailings to 
Mexico announcing a Mexican trip to discuss the H-2A program, 
the reason is that Legal Services is allowed to represent 
workers in the H-2A program. It is an exception or a loophole 
within the appropriations law, although the law says that 
people are supposed to be present in the United States at the 
time.
    Mr. Chairman, we have a videotape that I would be happy to 
turn over. We did videotape that meeting in Mexico showing 
Legal Services representatives, lawyers providing legal advice 
and soliciting clients. If we got them out of the H-2A program, 
farmers who are hard pressed with labor shortages would be able 
to practice unmolested and we would stop that kind of abuse.
    Mr. Rogers. Well, you know, the H-2A program is not 
something that we wrote in, that this subcommittee wrote in. 
That is a specific statutory requirement in the Immigration 
Act.
    Mr. Boehm. I understand.
    Mr. Rogers. Which takes an act of Congress to change. If 
you want it changed you need to get the Judiciary Committee 
working on that because it is something that is within their 
jurisdiction not ours.
    Thank you.
    Mr. Boehm. Thank you very much.
    [The information follows:]


[Pages 221 - 235--The official Committee record contains additional material here.]



    Mr. Rogers. Gerald Lefcourt, National Association of 
Criminal Defense Lawyers. Welcome.
                              ----------                              

                                          Wednesday, April 1, 1998.

            NATIONAL ASSOCIATION OF CRIMINAL DEFENSE LAWYERS

                                WITNESS

GERALD B. LEFCOURT, PRESIDENT
    Mr. Lefcourt. Thank you, Mr. Chairman.
    About an hour and a half ago, we just came from presenting 
the National Association of Criminal Defense Lawyers Highest 
Champion of Justice Award to Congressman McDade, the senior 
Member of this committee, because of his incredible work to try 
to rein in the immense and unchecked powers of Federal 
prosecutors.
    He sent out a Dear Colleague letter, which as of yesterday, 
has 46 signatures, and five Subcommittee Chairs on his bill to 
rein in Federal prosecutors, so that they are bound by the same 
ethical constraints as you are and I am when we go into the 
courts of our Nation.
    He attached to his Dear College an op-ed piece in the Wall 
Street Journal written by former Deputy Attorney General Arnold 
Burns, and under the Reagan administration, who called for 
Congress to look into the problems and the tremendous growth of 
prosecutorial power.
    In addition, just recently, Paul Craig Roberts last week, 
the syndicated columnist, pointed out that when you were 
practicing--I think this is your ninth term--20 years ago, 
there were probably a few hundred Federal prosecutors. There 
are now 7,000, and the laws that have been enacted by Congress, 
RICO, money laundering, sentencing guidelines, have made it so 
complicated, that only experts can go into our Federal courts 
and represent people charged with Federal criminal violations.
    So, I appear here, Mr. Chairman, because of the tremendous 
problem that lawyers for the poor under the CJA Act have with 
the rates that are in place, to even cover their overhead, to 
represent poor people. We now have death penalties for a 
variety of Federal offenses that did not exist some 20 years 
ago.
    To be a criminal practitioner today, you must be profoundly 
trained, and very expert in a complicated area of law. Over 
10,000 decisions on sentencing guidelines alone. So we are 
asking for a rate increase that was authorized but not 
implemented because of cancellation language that has existed 
in reports of the appropriations committee.
    This is a strange time, and we appreciate, Mr. Chairman, 
your allowing the Hyde Amendment to an appropriations bill, 
recently, to correct, at least provide attorney's fees for 
those wrongfully prosecuted. We are at a place where we have a 
three-legged stool of the criminal justice system. Judiciary, 
prosecution, and defense. And one leg has gone way out of 
kilter, with Congress granting the wish-list to prosecutors for 
some 20 years now.
    The defense function is cracking, and the judiciary is 
intimidated, and therefore, the only hope we have is a strong 
defense bar, and it is the CJA lawyers that represent about 85 
percent of those Federal criminal cases.
    So while I was here, and heard what you said to the 
American Bar Association representative, and she was talking 
mostly in her remarks about civil matters, this is the 
unfortunate problem of criminal prosecutions, where we have an 
obligation to provide every citizen with the best defense 
possible, and the whole system is out of kilter today because 
of the tremendous increase in Federal prosecutorial power.
    So we ask that $450 million be allocated, so that the 1986 
authorizations can be implemented in 1998, and that the 77 
districts that have not increased their rates because of the 
comments in appropriations bills, be allowed to. I am very 
happy to answer any questions with respect to this issue.
    [The information follows:]


[Pages 238 - 250--The official Committee record contains additional material here.]



    Mr. Rogers. Do you think that lawyers are under some 
obligation to their profession, and the Constitution, to 
represent indigent defendants?
    Mr. Lefcourt. I could not agree with you more except, in 
all honesty, a big-firm civil lawyer does not belong in the 
United States District Court in a criminal matter without 
significant training in----
    Mr. Rogers. That is not the point. I mean, no one is going 
to ask that--what is Monica Lewinsky's lawyer's name?
    Mr. Lefcourt. Ginsburg.
    Mr. Rogers. Ginsburg. He is not a criminal defense lawyer.
    Mr. Lefcourt. No.
    Mr. Rogers. He is a big-time civil----
    Mr. Lefcourt. Malpractice.
    Mr. Rogers [continuing]. Malpractice lawyer, and it shows.
    Mr. Lefcourt. I rest my case.
    Mr. Rogers. I mean, he should not be required to represent 
a criminal defendant; but he should be required to represent a 
civil indigent defendant. You, as a criminal defense lawyer, 
should be required to perform some hours of service, I think, 
representing indigent defendants, even though you may not be a 
specialist in the area that is required, because not every case 
requires a specialist.
    Mr. Lefcourt. Every criminal defense lawyer is called upon 
by the State laws to do that, and the problem is that we are 
talking about funding full-time Federal lawyers to represent 
the poor.
    Mr. Rogers. And we should have that. We should have that. 
No one argues that. I am just saying that we would not need to 
do so much of it, if the private bar would take some of the 
load off the taxpayers. We should be paying for the 
specialists, the people that you cannot get off-the-street 
lawyers to defend in the run-of-the-mill criminal case. Where a 
specialist is needed, I think we should have a cadre of 
specialists that we pay for, like yourself, in the highly, 
technical criminal cases.
    And I am a lawyer, and I am saying this to myself. We, 
including you and I, owe an obligation. I think that we should 
pay back with our talent and our time representing poor people 
in civil and criminal cases, and we should not ask the 
taxpayers to do our work for us.
    Mr. Lefcourt. I could not agree with you more, and I think 
a lot of lawyers do it; not enough, for sure. But the problem 
that we are talking about, of dealing with an 8-year, McDade, 
kind of RICO prosecution, that is something that we need to 
have Federal funding for, and we need it to a level that 
matches, in some minor way, to try to level the playing field 
with what Congress has done with prosecutorial power.
    Mr. Rogers. I think you are right. Thank you very much.
    Mr. Lefcourt. Thank you.
    Mr. Rogers. Now Dr. Elizabeth Zinser with the National 
Association of State Universities and Land-Grant Colleges, and 
I am very pleased that Dr. Zinser is with us. She is chancellor 
of the University of Kentucky, Lexington campus, and I will bet 
you she is wearing a proud smile today.
                                          Wednesday, April 1, 1998.

   NATIONAL ASSOCIATION OF STATE UNIVERSITIES AND LAND-GRANT COLLEGES

                               WITNESSES

ELIZABETH ZINSER, CHANCELLOR, UNIVERSITY OF KENTUCKY-LEXINGTON
DR. LEONARD PIETRAFESA, NORTH CAROLINA STATE UNIVERSITY
    Ms. Zinser. Chairman Rogers, I know that you are wearing a 
proud smile also, and I thought if you would not mind, as one 
Kentucky colonel to another, I brought you your very own 
National Champion T-shirt.
    Mr. Rogers. Oh, bless you. Thank you very much.
    Ms. Zinser. That is there for you, now, today.
    Mr. Rogers. Take as much time as you need.
    Please introduce your compatriot, also.
    Ms. Zinser. In due respect of others that are going to do 
that, I will be as quick as I can, but this is an important 
topic, and Chairman Rogers, we are very grateful to be here 
today to provide this testimony, and I would like to indicate 
that we are here, of course, to talk about the fiscal year 1999 
appropriations for the National Oceanic and Atmospheric 
Administration's Extramural Research Program.
    We want to begin by commending you and your colleagues for 
your efforts in outstanding leadership, and ensuring that NOAA 
has the tools to carry out its mandate.
    My name is Elizabeth Zinser. As you know, I am chancellor 
at the University of Kentucky, Lexington campus, and am 
providing this statement on behalf of the National Association 
of State Universities and Land-Grant Colleges.
    I serve as the incoming chair of the Association's Board of 
Oceans and Atmosphere, and with me is Dr. Leonard Pietrafesa. 
He is from North Carolina State University, and he heads the 
Department of Marine, Earth and Atmospheric Sciences, and he is 
the immediate past chair of the board.
    We are very honored to be here, to present this testimony.
    Mr. Rogers. Welcome to both of you
    Ms. Zinser. Thank you.
    Mr. Pietrafesa. Thank you, sir
    Ms. Zinser. NASULGC, as you know, is the Nation's oldest 
higher education association, with over 190 member 
institutions, including historically black universities and 
tribal colleges. Member institutions are located all over the 
50 States and enroll some 3 million students today.
    The association's mission is to support top-quality public 
higher education through the assistance of member institutions 
in the modern context for their research, service, and teaching 
missions.
    The importance of extramural research is really our focus 
today. Our national commitment to Government efficiency and 
balanced budgets presents many opportunities for creative 
partnerships between the Federal Government and public 
universities and that is what we believe this is all about.
    These partnerships are a hallmark of our Nation's 
leadership and democracy, free enterprise, and knowledge 
creation for a sustainable and progressive world.
    Partnerships framed in the modern context can contribute 
significantly to the national goal of productive Government by 
providing policy makers reliable knowledge at reasonable cost.
    Competitive peer-reviewed extramural research is the 
foundation for new approach technologies, and for promoting 
economic prosperity in national security.
    We very much appreciate NOAA, because it is responsible for 
programs that undergird our understanding of life in the ocean 
and coastal resources, and our climate. It helps us to protect 
our life and property from severe weather. It allows us to 
describe and predict changes in the Earth's environment.
    But it depends, heavily, upon continuing investment in 
scientific research. Mostly, we are proud that it demonstrates 
so well that sound public policy is based on sound science.
    NOAA carries out its mission and its work through tapping 
the best talent in the science community across the Nation, 
which is considerable, and by using a diverse array of working 
relationships to apply these to the public good. Relationships 
between NOAA and the universities include many varieties such 
as joint institute agreements and co-location of facilities, 
personnel exchanges, student internships, major cooperative 
ventures, and others.
    NOAA's value to the American citizen and impact on 
sustainable human development worldwide grows in proportion to 
our Nation's investment in academic science.
    Mr. Chairman, NASULGC believes that the FY 1999 budget 
request for NOAA does not fund the Office of Oceanic and 
Atmospheric Research, or its most important extramural research 
programs at the level necessary to serve the interests of the 
American public.
    This research program provides the scientific basis for 
national policy decisions in key environmental areas such as 
climate change, disaster control, air quality, non-indigenous 
species, and ozone depletion.
    It is a very important part of the program. It contributes 
to all line offices and supports all of their strategic 
planning goals.
    I would like to emphasize five key priorities. First, 
NASULGC recommends $65 million for climate and global change 
research. This year, it has become very clear that the public 
has shown a lot of interest in El Nino, and today we can 
predict El Nino events and effects with enough lead time, so 
that hundreds of millions of dollars could be saved in 
agriculture, fisheries management, and structural fortification 
of buildings, bridges and highways. This program makes those 
kinds of contributions.
    Second, we recommend that NOAA's contribution to the multi-
agency United States Weather Research Program be $10 million. 
Such an investment would focus on producing new meteorological 
knowledge, and an aggressive information dissemination program 
to save lives and protect property.
    Third, we urge the Committee to provide the proposed 
increase of $1 million to the Health of the Atmosphere Program. 
Its focus is to understand ozone episodes in rural areas where 
crop and forest damage is of great concern. NASULGC recommends 
also $64.8 million for the Sea Grant Program in FY 1999, which 
is consistent with its authorized level.
    This program has always been very important as part of our 
marine counterpart of the land-grant college system. It is a 
very significant Federal peer-reviewed and highly leveraged 
program, and is virtually the only source of funding in the 
United States for activities in marine biotechnology.
    The National Undersea Research Program is our fourth 
proposal that we want to emphasize today. It recommends $18 
million for the National Undersea Research Program which would 
bring it back to its funding level of three years ago. The 
Undersea Research Program is unique in that it places 
investigators undersea to conduct research not possible through 
a lab or on ships. I cannot help but point out that it is a 
little unfortunate, in retrospect, we did not get into 
participating in the ``Titanic'' filming. It might have been a 
real lucrative idea, in retrospect.
    In any event, this program promotes management of marine 
resources through research on chemical, biological, physical, 
and geological resources and processes for our global oceans. 
So we want to emphasize that program.
    Finally, we would like to emphasize our endorsement through 
NASULGC for the request of $17.8 million for the Coastal Ocean 
Program under the National Ocean Service.
    The research themes in this program include estuarine 
habitats, toxic chemical contaminants, fishery ecosystems, 
nutrient-enhanced productivity and coastal hazards.
    These research projects are fundamental to keeping our 
coasts healthy. These are our basic priorities and we are very 
pleased, again, to have had an opportunity to provide verbal 
testimony for you, in addition to the written material that we 
have provided.
    We urge you to continue to ensure that the integrity of 
NOAA's research programs is ongoing.
    Thank you, again, for the opportunity and we would be more 
than happy to respond to any questions that you may have.
    [The information follows:]


[Pages 255 - 261--The official Committee record contains additional material here.]



    Mr. Rogers. Well, we appreciate your being here. Thank you 
very much, both of you, for your testimony. It is very helpful.
    Ms. Zinser. Thank you.
    Mr. Rogers. And thank you very much for the T-shirt.
    Ms. Zinser. You are welcome.
    Mr. Rogers. I am proud, like you are. Thank you very much
    Ms. Zinser. Thanks.
    Mr. Rogers. We have a vote on the floor and the Chair will 
declare a 5-minute recess. We will finish the testimony, 
shortly.
    [Recess.]
    Mr. Rogers. We are pleased to welcome Wayne Pacelle, the 
Humane Society of the United States. You are recognized.
                              ----------                              

                                          Wednesday, April 1, 1998.

                THE HUMANE SOCIETY OF THE UNITED STATES

                                WITNESS

WAYNE PACELLE, VICE PRESIDENT, GOVERNMENT AFFAIRS
    Mr. Pacelle. Thank you. I jumped right into the batter's 
box, Mr. Chairman.
    Mr. Rogers. Good for you.
    Mr. Pacelle. Again, my name is Wayne Pacelle and I am 
senior vice president of The Humane Society of the United 
States, and I am here representing our 5.9 million members and 
constituents in the United States.
    Mr. Chairman, I will not belabor our support for many of 
the programs of the National Marine Fisheries Service, and 
NOAA. We strongly support funding for and implementation of the 
Marine Mammal Protection Act and the Magnuson Act. So, in 
general, the tenor of our thoughts about this agency, and these 
agencies, is very positive. But I am here today to criticize 
one program, and one set of spending activities that NMFS has 
been responsible for, and it has to do with whaling.
    Mr. Chairman, I raised this issue last year at this hearing 
and I want to amplify my views this year.
    Last year, at the International Whaling Commission which 
occurred in Monaco, the 49th meeting of the IWC, the U.S. 
delegation pushed in favor of a proposal to allow a tribe in 
Washington State to kill gray whales, off of the coast of 
Washington State. This is the Makah tribe.
    We opposed it as did many other organizations, and also 
many Members of Congress. Chairman Gilman opposed this as did 
Representative Chris Smith, and Representative Lantos. 
Representative Jack Metcalf led opposition to this proposal as 
well and got 50 colleagues of very diverse political positions 
to also oppose this Makah proposal.
    The U.S. delegation did not take on this issue directly, 
which would have required a three-fourths majority of the 
delegates at the International Whaling Commission. They folded 
it into a broader aboriginal whaling quota, that is granted 
principally to the Chukotka natives of Russia.
    Mr. Chairman, the Human Society of the U.S. does not oppose 
aboriginal whaling, and we have supported aboriginal whaling by 
natives in Alaska. We simply do not believe that the Makah, who 
have not hunted whales in more than 70 years, and who we 
believe are allied with Japan and Norway, in wanting to push 
for greater whaling opportunities, worldwide, simply meet the 
definition of aboriginal whaling.
    Yet, in spite of this, Mr. Chairman, NMFS has granted 
$260,000 in the last two fiscal years to the Makah Whaling 
Commission, before the IWC granted any sort of quota for 
whaling by the Makah. So they have been granted $260,000 to set 
up a Whaling Commission before a quota was granted.
    We are absolutely perplexed as to how this could have 
happened, and how this can happen. I just do want to emphasize, 
and it is contained as an attachment to my testimony, Chairman 
Gilman's letter to the International Whaling Commission, 
opposing the Makah quota for gray whales, and his co-signors 
were the Chair and the Ranking Democrat for the Subcommittee on 
International Operations and Human Rights, Mr. Smith of New 
Jersey and Mr. Lantos of California.
    Also attached is Mr. Metcalf's letter. Mr. Metcalf of 
course is from Washington State, and the northwest portion of 
Washington State, and all of the signatories on his letter. We 
really hope that your Subcommittee will stipulate in fiscal 
year 1999 National Marine Fisheries Service budget, that no 
discretionary or other funds be used to promote or otherwise 
support Makah whaling or the Makah Whaling Commission. This is 
still a legal muddle. There is a lot of controversy over 
whether the IWC, by folding the Makah proposal into a larger 
aboriginal subsistence proposal, has granted authorization for 
this.
    So that is my testimony, and we hope you will take that 
under advisement.
    [The information follows:]


[Pages 264 - 272--The official Committee record contains additional material here.]



    Mr. Rogers. We shall. Thank you very much. I appreciate 
your being here.
    Thomas Brooke and Gary Griswold. Mr. Brooke representing 
the International Trademark Association, and Mr. Griswold, the 
American Intellectual Property Law Association. Welcome.
                              ----------                              

                                          Wednesday, April 1, 1998.

                  INTERNATIONAL TRADEMARK ASSOCIATION

                                WITNESS

THOMAS W. BROOKE, INCOMING CHAIRPERSON OF INTA LEGISLATION ANALYSIS 
    SUBCOMMITTEE
    Mr. Brooke. Thank you, Mr. Chairman. I am Tom Brooke. I am 
an attorney with Gadsby and Hannah which is a firm here in 
town. I am the incoming Chairman of the INTA's U.S. Legislation 
Subcommittee.
    The INTA strongly opposes the Administration's proposed 
``cap'' on the U.S. Patent and Trademark Office spending. We 
also oppose the subsequent diversion of $116 million to other 
agencies in the Federal Government. This money was raised 
through the payment of patent and trademark filing fees paid by 
patent and trademark owners and applicants.
    This diversion of funds amounts to a shell game with 
America's intellectual property owners, set up as unassuming 
marks. The diversion of these filing fees will severely hinder 
the ability of the PTO to promote economic growth, to protect 
our products in export markets, and to stimulate American 
innovation.
    For trademark owners and patent owners, who provide the 
bulk of funding for the PTO--in fact all of the funding for the 
PTO--this issue is of paramount importance.
    The Administration has indicated that investment in 
intellectual property is a key to America's economic future, 
and of course the Vice President has made improving customer 
service at the PTO one of his priorities in the Reinventing 
Government Initiative.
    Therefore, it is ironic that the Administration would 
propose capping PTO funds and then diverting much-needed funds 
away to other programs. The Administration's proposals are 
examples of bad fiscal policy, especially when the 
Administration has publicly stated the need for fiscal 
responsibility across all agencies.
    Diverting funds provided by patent and trademark owners and 
applicants that are paid in today to provide for work to be 
done tomorrow, or in the future, will create a deficit, an 
increasing deficit at the Patent and Trademark Office.
    The question here is whether or not the Clinton 
Administration is truly investing in intellectual property to 
diverse these funds, and the answer is obviously no. Instead of 
a reinvestment, the Administration's proposed diversion 
constitutes a hidden tax on intellectual property owners. This 
procedure places a price tag on innovation.
    In conclusion, I would like to point out that the PTO 
should not be looked upon as a ``cash cow'' that is to be 
milked by unrelated Government agencies and programs.
    The PTO was established for the sole purpose of processing 
patent applications, and registering and maintaining 
trademarks, and these functions may seem mundane, but in 
practice, they are much more sophisticated, functions requiring 
highly trained personnel, complex automation tools, and they do 
not come cheaply.
    If the employees of the PTO are to carry out the vital 
function of protecting America's intellectual property, they 
must have fiscal resources to do so. Working together, 
Congress, trademark owners, and intellectual property owners 
can ensure that America will continue to lead the world in 
protecting creativity and innovation as we enter the 21st 
Century. Thank you.
    [The information follows:]


[Pages 275 - 285--The official Committee record contains additional material here.]



    Mr. Rogers. Mr. Griswold.
                              ----------                              

                                          Wednesday, April 1, 1998.

           THE AMERICAN INTELLECTUAL PROPERTY LAW ASSOCIATION

                                WITNESS

GARY L. GRISWOLD, PRESIDENT
    Mr. Griswold. I am Gary Griswold, I am president of the 
AIPLA and I am also the chief IP counsel for 3M. We won the 
other term at the NIT.
    Mr. Rogers. Congratulations.
    Mr. Griswold. Thank you. We have 10,000 members who 
practice all forms of intellectual property law, and the AIPLA 
wants the U.S. Patent and Trademark Office to be the best 
Patent and Trademark Office in the world. A major hurdle to 
achieving this goal is obtaining adequate funding. Funding has 
different dimensions depending on whether you look through the 
eyes of the subcommittee, or through the eyes of the users who 
pay the fees and support the PTO.
    Since 1991, the PTO has been funded by a combination of the 
Patent Surcharge Fund, and the offsetting collections of user 
fees.
    However, the Appropriations Committees were not given 
credit for the Patent Surcharge Fund. Thus, greater demands on 
the appropriations committee led them to restrict funds to the 
PTO. From the perspective of the Appropriations Committee, they 
had not diverted PTO funds. They never had them in the first 
place.
    From the standpoint of users, however, it is a different 
perspective. The users were forced to swallow a 69 percent 
increase in patent fees, yet increasingly smaller amounts of 
the revenue raised were allocated to PTO. As the cost ofpatents 
go up, the constitutionally provided incentive to innovation is 
reduced. The authority to impose a surcharge will sunset this year. To 
compensate for this, the Administration is proposing to adjust the fees 
to keep them at the current level.
    This presents an opportunity for Congress and the patent 
community to limit the fee adjustment to the level the PTO is 
allowed to use in 1999. Users can then realize a $50 million 
savings by a reduction in fees. All other major patent offices 
are reducing fees.
    Also, rejecting a rescission in 1999 of $66 million carried 
over from 1998 will allow user fees to fund the products and 
services for which they were paid.
    We believe that it is vitally important for this 
Subcommittee to continue its oversight, to challenge the PTO 
and demand credible information and data on its operations to 
ensure that user fees are being properly spent.
    We believe it is totally inappropriate, however, to 
redirect these user fees to unrelated programs, depriving 
patent and trademark interests of the timely, high quality 
services for which they have been paid, and thank you for 
considering our comments.
    [The information follows:]


[Pages 287 - 297--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you both very much for your testimony.
    Mr. Griswold. Thank you.
    Mr. Rogers. That concludes this morning's session. We will 
recess until 2 o'clock.
                              ----------                              

                                          Wednesday, April 1, 1998.

        UNITED STATES MERCHANT MARINE ACADEMY ALUMNI ASSOCIATION

                                WITNESS

VIRGIL R. ALLEN, PRESIDENT
    Mr. Rogers. Good afternoon.
    This afternoon we will be hearing testimony from public 
witnesses for the fiscal year 1999 budget request. We are on a 
tight schedule and have a number of you to testify. We will 
need your cooperation to adhere to the five-minute rule for 
each witness.
    You will note the lights on the panel. These lights are 
part of the timer that we will use to notify you when your time 
is running out. The yellow light will appear when there's one 
minute left, and the red light indicates that your time has 
expired.
    We will put your written statements in the record, and we 
will ask you to spend your five minutes, or less, summarizing 
your written statement.
    We welcome each of you here today and we thank you for the 
time that you're taking to express your views to this 
Subcommittee.
    First is Virgil Allen, representing the U.S. Merchant 
Marine Academy Alumni Association. Welcome.
    Mr. Allen. Good afternoon, Mr. Chairman.
    Mr. Rogers. Good afternoon.
    Mr. Allen. On behalf of the 26,000 United States Merchant 
Marine Academy alumni, parents, friends and midshipmen, I want 
to thank you for recognizing the importance of the Academy with 
its funding for fiscal year 1998. My predecessor, Mr. Fred 
Sherman, has testified before your Subcommittee in past years, 
and has clearly articulated the continued strong national lead 
for the U.S. Merchant Marine Academy and the many ways Kings 
Point graduates serve our Nation.
    My written testimony details the national security, the 
economic and environmental protection rationale for continued 
support of the Academy. I would like to focus during my five 
minutes on the need for capital maintenance and our 
recommendation of $34.5 million for the Academy.
    The mandated cost-of-living Federal pay increases, combined 
with level operating funding, and even minor inflation, has 
forced the Academy to defer badly-needed capital and 
maintenance projects in order to maintain the academic 
programs.
    Mr. Chairman, the U.S. Merchant Marine Academy is 57 years 
old. Built during the frenzy of the 1940s with surplus 
materials, much of the infrastructure has been kept in service 
as the result of herculean efforts of a very small staff.
    By deferring capital maintenance, the Academy has 
experienced several consequences. For example, water pipes have 
burst in the library, causing damage to some books. A broken 
sewage line has led to unsanitary conditions in the barracks 
area, all of which had to be taken out to correct.
    It is the Alumni Association's understanding that the 
Academy has at least a $10 million backlog of capital 
maintenance projects. Two of the largest projects are 
replacement of the World War II vintage barracks, the utility 
infrastructure, the replacement of a crumbling waterfront sea 
wall on the pier. The utility infrastructure I mentioned 
consists of water, steam and sewage pipe, electrical wiring, 
and ventilation systems.
    Since the Academy operates on an 11 month a year academic 
schedule, these large projects will have to be staged over a 
few years. We estimate that the Academy will need an additional 
$3 million per year for the next several years to accomplish 
this work.
    Mr. Chairman, the U.S. Merchant Marine Academy operates on 
a shoestring budget. Our estimate is that the Academy needs 
$34.5 million for fiscal year 1999. Funding at this level will 
allow the Academy to start these badly-needed capital 
maintenance programs.
    Inasmuch as the necessary capital maintenance must be 
addressed in the near future, continued level funding will 
eventually impact academic programs, a scenario our Nation 
cannot afford.
    Mr. Chairman, I want to thank you and the members of the 
subcommittee for your support of the U.S. Merchant Marine 
Academy. I hope you and your colleagues will visit the Academy 
and see first hand what a national educational asset this is.
    I am prepared to answer any questions you might have on the 
Academy.
    [The information follows:]


[Pages 300 - 307--The official Committee record contains additional material here.]



    Mr. Rogers. I thank you for your testimony.
    You're right. The Academy does a wonderful job and we 
appreciate the work they're doing. We understand the need for 
more assets.
    Mr. Allen. I would be happy to yield back the balance of my 
time to expedite your schedule.
    Mr. Rogers. That really makes it worthwhile for us. That's 
the most generous thing you could do to help us.
                              ----------                              

                                          Wednesday, April 1, 1998.

      STATE MARITIME COLLEGES AND ACADEMIES OF CALIFORNIA, MAINE, 
       MASSACHUSETTS, NEW YORK, TEXAS, AND THE GREAT LAKES REGION

                                WITNESS

REAR ADMIRAL DAVID C. BROWN, PRESIDENT, STATE UNIVERSITY OF NEW YORK 
    MARITIME COLLEGE, REPRESENTING THE PRESIDENTS AND SUPERINTENDENTS 
    OF THE STATE MARITIME COLLEGES AND ACADEMIES OF CALIFORNIA, MAINE, 
    MASSACHUSETTS, NEW YORK, TEXAS, AND THE GREAT LAKES REGION
    Mr. Rogers. Admiral David Brown, representing the Maritime 
Colleges and Academies. Welcome.
    Admiral Brown. Thank you, Mr. Chairman.
    I would just like to use a moment of that extra time to 
congratulate the Wildcats on a wonderful victory, Mr. Chairman.
    Mr. Rogers. Thank you very much. That's the second most 
important thing that you could do.
    Admiral Brown. Mr. Chairman, as you know, I am David Brown, 
President of the State University of New York Maritime College, 
and with me is President Jerry Aspland of the California 
Maritime Academy. We also represent the State Maritime 
Academies of Maine, Massachusetts, Texas, and the Great Lakes 
Region, plus an additional 20 regional partner States with 
maritime interest. We appreciate the opportunity to comment on 
the proposed Maritime Administration budget.
    The United States is a maritime nation, dependent upon 
waterborne commerce for the export, import, and internal 
distribution of raw materials and manufactured goods. Our 
national security and economy require a merchant fleet and 
shoreside support structure for both international and domestic 
shipping. The State Maritime Academies are the primary 
recruiters and trainers of the men and women needed for this 
industry and to provide the sealift capabilityessential for any 
military operation beyond America's shores.
    We represent a successful State-Federal partnership which 
meets the Nation's need for trained professional mariners, we 
think in the most cost-effective manner. The Administration's 
fiscal year 1999 budget includes $7 million for State 
academies. This request, when supplemented by an additional $2 
million from the Defense Department for our two Ready Reserve 
Force ships, represents level funding which has not changed 
since 1987. In real dollars, adjusted for inflation, our budget 
has declined by nearly 30 percent. The Federal Government 
continues to receive a full and very high return on this 
nominal investment, Mr. Chairman.
    Two-thirds of the Nation's licensed Merchant Marine 
officers are educated and trained by the State schools, with 
the students and State governments paying the vast majority of 
those costs.
    Five of the schools operate training ships, on loan from 
the Federal Government, to permit cadets to meet federally-
mandated sea time requirements for licensing as Merchant Marine 
officers. As mentioned, two of these are Ready Reserve Force 
ships, maintained by the State schools at a 60 percent savings 
to the American taxpayer.
    State Academy graduates earn a one-hundred percent job 
placement rate--the majority in the maritime industry--and 
enviable record of transition from student to responsible 
citizen and taxpayer. They ascend to the most senior levels of 
their professions--ship masters and chief engineers, shipping 
company and other maritime industry executives, and as flag 
officers in the Navy and Coast Guard.
    The State Maritime Academies are fully-accredited colleges 
with outstanding faculty and modern classrooms, labs, and 
simulators. We are recognized worldwide as centers of 
excellence in maritime education and training. Our programs are 
essential to assuring our Nation an adequate supply of 
professional mariners to meet the increasingly stringent U.S. 
and international standards of training and professionalism.
    America's maritime industry is robust and growing, 
contributing $780 billion to the GDP, and generating over 15 
million jobs. While the American flag deep sea fleet has 
declined in recent years, the many other elements of the 
industry, both afloat and ashore, are thriving. From coastal 
shipping to Great Lakes and inland waters, from freight 
forwarding, chartering and marine insurance, to ship design, 
ship brokerage, and ship repair, our graduates are the industry 
leaders. Waterborne commerce still represents the most cost-
effective method of transportation and will remain a necessary 
and strong segment of our economy. There will always be a need 
for the kind of well-trained, highly motivated young men and 
women who attend the State Maritime Academies.
    Our graduates pay their own way through school to obtain 
their degrees and Coast Guard licenses as Merchant Marine 
officers. The limited Federal funding received by the State 
Academies is returned many times over in terms of high quality, 
professional mariners, and hundreds of Navy and Merchant Marine 
Reserve officers.
    On that note, Mr. Chairman, we are very concerned about 
language in the Administration's budget calling for a four-year 
phaseout of the Merchant Marine Reserve Program and Student 
Incentive Payments, or SIP, beginning in fiscal year 1999. The 
elimination of the SIP program will have an extremely adverse 
impact on the Navy's Merchant Marine Reserve program and our 
students who are enrolled in it.
    In exchange for a stipend of $3,000 per year while they are 
in school, these students incur a six-year obligation in the 
Navy and Merchant Marine Reserve. They represent the core of 
the Navy's professional mariners and a cadre of trained 
officers available for a national emergency. Many of our 
students rely upon SIP funds to complete their education and 
become licensed Merchant Marine officers. This is a very small 
investment in return for a significant contribution to the 
Nation and our national security.
    We urge the Committee to restore the SIP funds in the 
fiscal year 1999 budget or, as an alternative, provide language 
permitting the Navy to assume funding responsibility, which we 
understand they are prepared to do.
    It is important to note that all Federal funds appropriated 
to the State schools are used to meet Federal Government 
requirements or mandates for functions which directly benefit 
the Federal Government, or in the case of SIP payments, carry a 
Federal obligation for the recipient. No Federal funds are 
expended for school operating costs, for students or for 
vessels, not involved in a Merchant Marine officer training 
program. The Federal Government receives a direct return on 
every dollar spent on the State schools and their students.
    In summary, Mr. Chairman, the State Maritime Academy system 
is a cost-effective investment in education, jobs, and 
America's national security as well as our economic needs. Our 
schools have been called upon to meet these needs since 1874, 
and this $7 million budget in MARAD money, when supplemented by 
the $2 million in Ready Reserve Force and with SIP restored, is 
the bare minimum of funding we need to continue to perform our 
job.
    We appreciate your continued support, Mr. Chairman.
    [The information follows:]


[Pages 311 - 317--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you very much. We appreciate your being 
here, both of you.
                              ----------                              

                                          Wednesday, April 1, 1998.

                  RURAL ENTERPRISES OF OKLAHOMA, INC.

                                WITNESS

GREG MASSEY, BOARD CHAIRMAN
    Mr. Rogers. Greg Massey, representing Rural Enterprises of 
Oklahoma, Inc. Welcome.
    Mr. Massey. Mr. Chairman, I am a volunteer board member and 
current board chairman of Rural Enterprises of Oklahoma. My 
name is Greg Massey and I am President of First United Bank, a 
$480 million bank, in southeastern Oklahoma.
    I appear before you today on behalf of Rural Enterprises of 
Oklahoma to request appropriations for an export assistance 
center and to further the development of the organization 
designation of a national partnership as a one-stop capital 
shop. These are two of the missing links in REI's recent grant 
of authority to operate a general purpose foreign trade zone in 
rural Oklahoma. The appropriation request is $500,000.
    First I want to address the need of an export assistance 
center. Construction is underway for a foreign trade zone 
facility, but this facility does not include an export 
assistance center to help our rural businesses identify export 
markets, develop market entry strategies, and facilitate trade 
finance programs.
    While there are Oklahoma export assistance centers, these 
are located in the metropolitan areas of Oklahoma City and 
Tulsa. REI's proposed center would serve as a rural arm of 
assistance and outreach for the Oklahoma City and Tulsa 
offices. By providing foreign trade assistance at the 
grassroots level, our proposed export assistance center will 
help ensure that even the smallest businesses have the same 
advantages and opportunities as our counterparts in 
metropolitan areas to enter into international trade.
    Secondly, our rural businesses also need convenient access 
to a business information center. The one-stop capital shop and 
business information center, located in southeastern Oklahoma, 
with a ten county service area, has difficulty reaching the 
majority of our clients in a 50 county service area. Because 
REI's service area is not a local concentration but, rather, a 
regional effort, and even statewide in the case of the SBA 
market loan program, SBA would, in fact, be creating the first 
statewide, one-stop capital shop and business information 
center with the appropriations being requested.
    REI services include financial assistance, technology 
assistance, and successful business programs. The 
organization's experience clearly indicates that providing 
capital is only the first move in a new and expanding business. 
Consistent business assistance and the most recent need to 
foreign trade and export assistance are just as important, if 
not more important, than providing the dollars that small 
businesses need.
    The solution to the economic struggles of rural Oklahoma is 
not bringing in large manufacturing firms or corporations; 
rather, the solution is for rural Oklahomans to grow in small 
businesses that will provide the economic stability for rural 
communities.
    The export assistance center and business information 
center can be a big part of the solution, because these centers 
would be assisting small businesses in the daily grind of 
operating their entities and creating needed jobs. I can relate 
to these rural businesses because that's where my bank and 
branch banks are located. Small businesses make up a good 
portion of our customer base. I can testify to the needs of 
small business because we work with them on a daily basis, and 
these needs extend beyond business financing. They need 
assistance in expanding into international trade, and they need 
access to the services of a business information center through 
Rural Enterprises, an organization they're familiar with and 
have confidence in.
    In addition, REI is submitting written testimony for 
appropriations from the U.S. Department of Commerce, the 
National Institute of Standards and Technology, for a rural 
technology commercialization center to further facilitate the 
export and business information center herein proposed, which I 
request be included in the record at this point.
    We thank you for your consideration.
    [The information follows:]


[Pages 320 - 330--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you very much. I appreciate your 
testimony.
    I am being called to the floor for a very brief period 
here, so we will have to recess the hearing briefly, and I will 
be back very shortly to hear the remainder of the testimony.
    [Recess.]
                              ----------                              

                                          Wednesday, April 1, 1998.

      ALLIANCE FOR INTERNATIONAL EDUCATIONAL AND CULTURAL EXCHANGE

                                WITNESS

ABE PADILLA, REPRESENTING THE ALLIANCE FOR INTERNATIONAL EDUCATIONAL 
    AND CULTURAL EXCHANGE
    Mr. Rogers. The Subcommittee will be in order.
    We will now hear from Abe Padilla, the Alliance for 
International Educational and Cultural Exchange. Welcome.
    Mr. Padilla. Thank you, sir.
    Just before I start reading part of this, I would like to 
say ``Go Cats'', go Georgetown College Tigers, NEIA National 
Champions, and go Scott County High School, Sweet 16 champions.
    Mr. Rogers. Thank you. An expert.
    Mr. Padilla. Yes, sir, central Kentucky.
    Mr. Chairman, I genuinely appreciate the opportunity to 
testify before you today in support of international exchange 
programs, funded by your Subcommittee. These programs are 
administered by the United States Information Agency. Many are 
implemented by local volunteers like myself.
    I am Abraham Padilla, a Toyota assembly line quality 
control inspector at the Georgetown, KY plant. For the past 
eight years, I have volunteered for Youth for Understanding, a 
nonprofit organization, which specializes in high school 
exchange. In addition to recruiting and conducting interviews 
of potential host families for Congress-Bundestag and other 
youth exchange programs, I have been host to seven 
international students in eight years. I am also active with 
the Georgetown Sister Cities International program, which is 
affiliated with Tahara, Japan. I have developed an exchange 
program supported by Toyota which sends nine Kentucky students 
overseas each year to develop language and international 
business skills.
    Youth for Understanding is one of 60 members of the 
Alliance for International Educational and Cultural Exchange, 
one whose behalf I am speaking before you today. We urge an 
appropriation of $210 million for USIA's exchange program 
budget.
    Mr. Chairman, I would like to speak for a moment about why 
I volunteer my time promoting exchange, both in the family and 
in my community.
    The importance of volunteering is something my parents 
always taught me, and the benefits of exchange to my children, 
to my neighbors and to our local community, are easy to see. I 
hosted my first student, a Brazilian boy, in 1989 because I 
wanted to expose my children to different cultures. That 
experience was so enriching that we have since hosted a total 
of seven other students from Germany, Japan, and Mexico.
    As someone who first came to Kentucky to attend Kentucky 
State College in Frankfort, I have always been struck by the 
number of Kentuckians who have never ventured outside of the 
State. Bringing different cultures to Georgetown helps to 
expand the horizons of my community and opens us to new 
approaches and new opportunities. Several of our sister city 
exchange students are now teaching in Japan, as an example.
    People-to-people contact has been absolutely crucial to the 
success of Toyota's operation in Georgetown. The bottom line 
for me is that these people-to-people contacts are what matter 
most in our communities, more than some of the high-level 
political visits we see on the evening news. In a nutshell, 
that's why I support these programs.
    Mr. Chairman, international exchange programs make enormous 
sense for America and for Kentucky. As Kentucky continues its 
integration into the global economy, and as more of us look 
beyond our borders, exchanges of all types provide Kentuckians 
with the tools needed for the 21st century. With 7,700 foreign 
students in Kentucky, it also raises the cultural and global 
awareness of Kentuckians. It will also inject an estimated $55 
million into the State economy each year, and an estimated $7.5 
billion into the U.S. economy.
    As you hammer out the details of the exchange program 
budget this spring, know that the exchange community 
enthusiastically supports the Administration's proposed 
increase for Fulbright. The restoration of $5 million to the 
Fulbright program will help reverse the substantial 20 percent 
drop in the number of Fulbright participants in the last four 
years.
    At the same time, we are concerned that the $7.5 million in 
reductions proposed by the Administration for cultural and 
professional programs, and other valuable programs such as 
overseas advising, is extremely short-sighted. The Sister 
Cities program, one familiar to you, Mr. Chairman, is an 
example of the highly effective network that is very active in 
Kentucky which will be severely hampered by the 
Administration's budget.
    The proposed reduction in cultural and professional 
exchange activities will erode the grassroots infrastructure 
and the private contributions which these exchange programs are 
so good at attracting. For every Federal dollar invested in an 
exchange program, private sources contribute twelve. This is 
according to the General Accounting Office. Cutting these 
grassroot programs, which democratize foreign affairs by 
involving thousands of Americans like myself, will erode our 
ability to meet the continuing challenges we face as the 
world's only super power.
    We in the exchange community recognize the difficult task 
before you in attempting to meet the needs of so many competing 
interests. Because of the enormous benefits of international 
exchange and the damaging consequences to local grassroots 
networking of funding shortage, we urge you to fund a modest 
increase for educational and cultural exchange programs. The 
Federal role in fostering people-to-people connections is 
crucial.
    We strongly recommend a fiscal year 1999 exchange program 
budget funded at $210 million.
    Thank you, Mr. Chairman.
    [The information follows:]


[Pages 334 - 340--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you very much. It was nice to see you 
here.
                              ----------                              

                                          Wednesday, April 1, 1998.

             COUNCIL OF AMERICAN OVERSEAS RESEARCH CENTERS

                               WITNESSES

RICHARD W. LARIVIERE, CHAIRMAN OF THE BOARD OF DIRECTORS
    Mr. Rogers. Dr. Richard Lariviere, Council of American 
Overseas Research Centers. Welcome.
    Mr. Lariviere. Thank you, Mr. Chairman.
    I am here today as Chairman of the Board of the Council of 
American Overseas Research Centers. I am accompanied by Mary 
Ellen Lane, the Executive Director, and Mr. Richard Spees, our 
General Counsel.
    Mr. Rogers. Welcome.
    Mr. Lariviere. I want to discuss two things with you today. 
One is the programs funded by the Education and Cultural 
Exchanges Account of the USIA.
    The Council of American Overseas Research Centers 
represents 14-and-growing number of American overseas research 
centers that serve hundreds of American universities and send 
thousands of scholars and others every year. We receive about 
$1.8 to $2.2 million from USIA every year.
    Two years ago, my predecessor, John Richards, from a 
university you may have heard of, Duke University--which didn't 
have anywhere near as good a basketball team as they've had in 
the past, I might add--appeared before this committee and 
testified in support of your longstanding policy not to earmark 
funds in USIA's budget. We believe that the current system of 
merit-based competition has worked very well, both at USIA and 
within the Department of Education's Title VI program.
    Now, I say that even though, at times, our own centers have 
not fared terribly well in that competition. But we do believe 
very strongly in this merit-based approach.
    As you are well aware, the Senate Committee on Commerce, 
Justice and State had a totally different policy last year. The 
Senate earmarked a number of specific programs at the exclusion 
of all others. The American Overseas Research Centers were not 
on that Senate list. We determined that the Senate 
Subcommittee, however, was unaware of the programs and 
activities of the center, and it was not the case that the 
Senate did not review the centers, only to find them lacking in 
merit, but they just didn't know about us. We had not kept the 
Senate informed about our programs, which was, in retrospect, 
obviously a mistake.
    Now, our request to you today is two-fold. By the way, I 
should add we are keeping the Senate informed about our 
programs now. Ideally, we don't favor earmarking, but if 
earmarking is the way of the world in this matter, then we 
request an earmark of--an allocation of $2 million for the 
programs of the Council of American Overseas Research Centers. 
This will allow us to maintain our operations at current 
levels, and it will also help USIA to fulfill its mandate to 
build those lasting relationships that we maintain for them 
overseas.
    The second issue I would like to speak to you about 
todayhas to do with the cut in USIA's budget for overseas advising 
services. This is a budget of slightly less than $3 million. The 
services that are rendered by this agency save every university in the 
country thousands of dollars. They handle the requests from overseas 
students to come to the universities in the United States, and if they 
didn't handle the routine questions that they do, we would have to do 
it ourselves. I know the estimates at the University of Texas, for 
example, are that it would cost about $10,000 a year just to handle 
these routine requests. If you multiply that times the number of 
universities there are, this is a very wise investment, this million 
bucks. We would like to see that budget restored and increased slightly 
to about $2.95 million.
    I would be happy to answer any questions you may have.
    [The information follows:]


[Pages 343 - 347--The official Committee record contains additional material here.]



    Mr. Rogers. I don't think I have any. Thank you very much. 
I appreciate your testimony.
                              ----------                              

                                          Wednesday, April 1, 1998.

                  AMERICAN FOREIGN SERVICE ASSOCIATION

                                WITNESS

DANIEL F. GEISLER, PRESIDENT
    Mr. Rogers. Daniel Geisler, American Foreign Service 
Association. Welcome. Your written statement will be printed in 
the record and you're welcome to summarize it for five minutes 
or less.
    Mr. Geisler. I will try to do it in less, Mr. Chairman. I 
am Dan Geisler, president of the American Foreign Service 
Association. We represent about 23,000 active duty and retired 
Foreign Service people from the State Department, USAID, USIA, 
Foreign Commercial Service and Foreign Agricultural Service.
    Mr. Chairman, I would like to make one point and raise 
three concerns. The point I would like to make is that we see 
that there is no substitute for American leadership in world 
affairs. We saw that recently in places as diverse as Iraq, 
Kosovo, Indonesia. And in my written statement I describe how 
we view America's diplomatic missions abroad as our forward 
deployment for the cause of peace. I am happy to see here that 
you have a map of where we have our bases.
    I also pointed out the need for adequate tools for us to do 
our job, especially information and communications technology. 
That is an area where the State Department has fallen far 
behind, Mr. Chairman. I think that if information is the 
lifeblood of diplomacy, the State Department is in desperate 
need of a transfusion.
    The issues I would like to raise, Mr. Chairman, are first, 
that there is a lack of workforce planning at the State 
Department, based on our future needs. Second, we are concerned 
about the inadequate funding for public diplomacy, like the two 
people who testified before me. And third, we have some 
concerns about the increasing burden of service abroad, 
especially the financial burden.
    On the first point, Mr. Chairman, a world class diplomatic 
corps requires planning, recruitment and training. The State 
Department does not have any forward-looking, needs-based 
workforce planning tool. What they do is pretty static, looking 
at the present or at the recent past to determine where we 
should put our people.
    Large companies look forward when they plan and we think 
that the State Department should, also. This kind of planning 
should form the basis for systematic intake, training and 
allocation of our Foreign Service people.
    Mr. Chairman, I meet all the Foreign Service people that we 
recruit and I can say that we continue to attract some of the 
most talented and motivated people that America has to offer. 
But since we do not have any kind of forward-looking workforce 
planning, we do not have a very clear idea of where we want 
their careers to go.
    When we get them, we turn them into world-class diplomats 
by training them. That is what we are supposed to do with the 
training that goes on throughout their career. But sincewe do 
not have any kind of workforce planning, we do not have any clear idea 
today how we should be training them to meet our needs tomorrow.
    Second point, Mr. Chairman, we are concerned about the 
continuing decline in funding for public diplomacy. Public 
diplomacy affects current public opinion abroad and it shapes 
long-term attitudes toward America. We think that is very 
important. As you know, since 1994 funding for USIA has 
decreased in real terms by 29 percent and in the 
Administration's FY99 request USIA is the only foreign affairs 
agency that gets fewer resources: $6 million less than in FY98. 
We think that in FY99 USIA funding should be maintained at 
least at its FY98 levels.
    You have heard, Mr. Chairman, I am sure, of the 
Administration's plans to integrate public diplomacy into 
foreign policy. Ever since that announcement, we in the 
American Foreign Service Association have received only limited 
information about how agency consolidation would be carried 
out, despite the impact that it would have on our employees. We 
want to make sure that the final institutional arrangements are 
such that public diplomacy is thoroughly integrated into 
foreign policy, that it is not just a rearrangement of 
organizational boxes.
    And finally, Mr. Chairman, I would like to mention to you 
the increasing financial burden of service abroad. Foreign 
service families face declining health benefits abroad. They 
have experienced steadily decreasing levels of hardship and 
danger duty incentives. And because we lose D.C. area locality 
pay, most people, in essence, take a cut when they are assigned 
abroad in their pay.
    We are concerned about this trend and we urge you to 
consider it when you deliberate on the appropriation for the 
State Department.
    Thank you, Mr. Chairman.
    [The information follows:]


[Pages 350 - 359--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you very much. We appreciate your 
testimony.
    Dr. Mohammed Akhter, American Public Health Association. 
Welcome.
                              ----------                              

                                          Wednesday, April 1, 1998.

                   AMERICAN PUBLIC HEALTH ASSOCIATION

                                WITNESS

MOHAMMED N. AKHTER, M.D., M.P.H, EXECUTIVE DIRECTOR
    Dr. Akhter. Mr. Chairman, I am very grateful for the 
opportunity to be here today to testify before you in support 
of the President's 1999 budget.
    My name is Mohammed Akhter. I am the executive director of 
the American Public Health Association, which has 55,000 
members throughout the United States. We are also headquarters 
for the World Foundation of Public Health Associations and I am 
here on behalf of 25 public health and health-related 
organizations here today.
    I have already submitted our written testimony. In the 
interest of time, I would like to summarize briefly and make 
three points.
    Mr. Chairman, the first point is that all the association's 
organizations, 25 of them in this country, very strongly 
support our participation in the World Health Organization and 
they support our continued funding of the World Health 
Organization because they are doing such a wonderful job 
because we recognize that the world has become a very small 
place.
    27 million people come every year from a Third World 
country to the United States by air alone and there are 30 
different diseases that we have identified in 25 years, and 
some of them are very serious ones, like Eboli virus, a new 
strain of flu viruses, and any one of those diseases could come 
to our country.
    So we in the public health community believe that what we 
need to do is to really get involved way over there when the 
diseases just start, rather than to wait for them to come to 
our borders. Then we need to fight, community by community, 
throughout the United States to control these diseases. It is 
prudent for us to build a fire hydrant before our house catches 
on fire. And these new diseases will continue to emerge and we 
need to have somebody out there looking out for our interests.
    The second point, Mr. Chairman, I want to make to you today 
is that both the World Health Organization and the Pan American 
Health Organization do a wonderful job of bringing people 
together--191 countries, six more than in the United Nations. 
Their health authorities are linked together with the expertise 
of the universities, research centers, private organizations so 
that whenever there is a problem in the world, not only do we 
share information but we can directly take our expertise over 
there to make a difference, contain the disease right where it 
starts.
    And my last point, Mr. Chairman, is that we as Americans 
have the responsibility and we need to show the leadership 
because we have our vital interests at stake and the most vital 
is the security of our men and women who go overseas, either to 
fight a war or to keep a peace. We need to know what kind of 
challenges, what kind of danger they face so that we can 
prepare them appropriately, either by providing them the right 
amount of vaccines, providing them with the right kind of 
treatment or be prepared, at least, to address the problems 
they might face. Only by being part of the world community can 
we keep that thing afloat.
    Mr. Chairman, I have been a public health physician, a 
doctor, a professional person and I want to tell you that 
controlling the communicable disease is no longer possible by 
simply concentrating within our own borders because the viruses 
and the bacteria know no borders. They cross freely, 
transparently. Sometimes you do not even know.
    And the only way we can do it is by participating in the 
World Health Organization, by funding them fully, because they 
have the know-how, the expertise to carry it out.
    Mr. Chairman, the last point I want to make is that I had 
the opportunity to meet with the sole candidate for the 
director-general's position, Dr. Brundtland. She is going to be 
elected, we hope. We are supporting her, the United States 
government, during the World Health Assembly in Geneva. She is 
U.S.-educated. She has been prime minister of Norway. She has 
the knowledge, expertise and the know-how to carry out the 
reforms that we all have wanted for a number of years. She is 
very dedicated to make sure that it will happen.
    And last but not least, I conclude, before the red light 
comes on, by giving you an example. The example is, Mr. 
Chairman, that in 1918 the Spanish flu killed 20 million 
people, 20 million people. In 1957 the Asian flu killed 11 
million people. In 1968 the Hong Kong flu killed 700,000 
people. Last year when the flu started only six people died and 
that was because of the leadership shown by the World Health 
Organization, to gather around 101 expertise centers, to make 
sure it will not spread.
    Mr. Chairman, facts speak for themselves. I hope you will 
support the funding request. Thank you very much.
    [The information follows:]


[Pages 362 - 371--The official Committee record contains additional material here.]



    Mr. Rogers. A very eloquent plea. I appreciate it very 
much. Thank you for your testimony.
    Dr. Charles Krueger with the Great Lakes Fishery 
Commission. Welcome.
                              ----------                              

                                          Wednesday, April 1, 1998.

                     GREAT LAKES FISHERY COMMISSION

                                WITNESS

CHARLES C. KRUEGER, CHAIRMAN
    Mr. Krueger. Thank you, Mr. Chairman. My name is Charles 
Krueger and I am chairman of the Great Lakes Fishery 
Commission. I was first appointed to the Commission in 1988 by 
President Reagan and I was reappointed by President Bush. I am 
also a professor of fishery science at Cornell University.
    On behalf of the U.S. Section, I am pleased to convey the 
significant environmental and economic benefits of sea lamprey 
control on the Great Lakes. I am also here to communicate the 
commission's fiscal year '99 funding requirements and to share 
exciting news about a substantial monetary contribution from 
Michigan.
    I have a statement which I will summarize and that I 
request be inserted in the record.
    Sea lamprey is a parasitic primitive fish native to the 
Atlantic Ocean. Sea lampreys invaded the Great Lakes in the 
early part of the century through shipping canals constructed 
by the federal government. By the 1940s, sea lampreys had 
established large populations throughout the Great Lakes. Sea 
lampreys are truly the vampires of the Great Lakes.
    In its lifetime each sea lamprey, by attaching to fish and 
feeding on their blood, can kill up to 40 pounds of fish. This 
is how a sea lamprey attaches to a lake trout and this just 
shows some of the damage to the side of the fish that can be 
caused by a sea lamprey.
    By 1958, lamprey predation had devastated the fish 
populations of the Great Lakes. In 1955, Canada and the U.S. 
signed a treaty which created the Great Lakes Fishery 
Commission and set into motion a highly successful system of 
international fishery management on the Great Lakes.
    Sea lamprey control is the Commission's most visible 
program and it is thus the focus of this testimony. The success 
of the commission's control program has been remarkable. 
Lampreys have been reduced by 90 percent in most areas of the 
Great Lakes. More than 5 million people fish the Great Lakes. 
The fishery generates up to $4 billion annually and the fishery 
directly supports 75,000 jobs.
    The benefits in the Great Lakes fish communities that we 
enjoy today remain completely dependent upon the sea lamprey 
control program. I will repeat that: remain completely 
dependent upon the sea lamprey control program.
    Without sea lamprey control, management agencies could not 
stock fish. There is, however, a major trouble spot in the 
Great Lakes in the program and that is the St. Marys River, 
which is the river between Lake Superior and Lake Huron. This 
river produces more parasitic sea lampreys than all the rest of 
the Great Lakes. More fish in Lake Huron and Lake Michigan are 
killed by sea lampreys than are caught by sport, tribal and 
commercial fishermen.
    Fortunately, after a decade at work, the Commission has now 
the technology to deal with this problem. By combining several 
sea lamprey control methods, an 85 percent reduction in 
parasitic sea lampreys will occur. With this control we shall 
set the stage to again have a fishery to pass on to the future 
generations.
    Mr. Chairman, the President's fiscal year '99 budget with 
its proposed funding of $8.3 million does not allow for control 
of the St. Marys River. $15.1 million from the U.S. would be 
necessary to carry out a full program that includes control of 
the St. Marys River.
    Now the exciting news. The State of Michigan recognized the 
dire need to do something about the St. Marys River. To that 
end, Governor John Engler proposed and the state legislature 
approved a one-time unconditional, unprecedented contribution 
of $1 million per year for three years to fund sea lamprey 
control in the St. Marys River. Governor Engler cautioned that 
this one-time financial contribution is a challenge to the 
federal government to increase its contribution.
    I must stress that funding for the Commission has been, 
since 1955, a federal responsibility. Michigan was under no 
obligation to provide these funds. And I submit for the 
Committee's consideration a letter from Governor Engler to the 
President which explains Michigan's contributions.
    In conclusion, Mr. Chairman, according to the American 
Fishery Society, sea lamprey control is perhaps the most 
popularly supported and productive federal natural resources 
program in the Great Lakes. The Commission's program is pivotal 
to the success of the Great Lakes fishery to the economy of the 
region and to millions of people who enjoy the benefits of a 
healthy Great Lakes environment.
    The Commission's effort and the need for control of the St. 
Marys River are recognized as a top priority by scientists, 
environmentalists, members of Congress, acting through the 
Great Lakes Task Force.
    Michigan has recognized the urgency of the program. The 
people of the Great Lakes region rely on this Subcommittee to 
provide funds required for an effective program.
    Thank you for considering my testimony. I would happy to 
answer any questions you might have.
    [The information follows:]


[Pages 374 - 390--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you very much, Dr. Krueger.
    Richard Williams, who is the fire chief of the City of 
Gainesville, Florida, accompanied by his very effective 
Congresswoman. Would you like to introduce him?
                              ----------                              

                                          Wednesday, April 1, 1998.

                          CITY OF GAINESVILLE

                               WITNESSES

HON. KAREN L. THURMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
RICHARD WILLIAMS, CITY OF GAINESVILLE FIRE CHIEF
SHERIFF STEPHEN OELRICH, GAINESVILLE, FLORIDA
    Ms. Thurman. Actually I would, Mr. Chairman. Then I will 
move out of the way so that they can take their seats.
    Mr. Chairman, let me first of all say to you that we know 
how valuable everybody's time is and trying to get out on 
break, I cannot begin to tell you how much we appreciate the 
fact that you are taking the time to listen to people around 
this country who have some concerns. So we appreciate your 
effort in doing this.
    I have with me today our sheriff, Stephen Oelrich, and also 
our fire chief, Richard Williams, who actually are coming here 
today to discuss what I think is a unique opportunity and 
something that I hope that more areas would actually do. That 
is the collaboration and the efforts that they have done with 
the City of Gainesville and Alachua to enhance public safety in 
the region.
    This is bringing law enforcement agencies, fire rescue 
services, ambulance services, hospitals, schools and colleges, 
the regional transit system, airport authority, utilities, nine 
municipalities and multiple county agencies who will be on the 
same telecommunication systems to coordinate joint operations 
and to respond to emergencies. That is significant to say, that 
they can pull all of these groups of people together and I am 
going to let them tell you a little more about it.
    The City of Gainesville and Alachua County are also seeking 
some federal funds for a comprehensive regional juvenile 
justice crime prevention/intervention initiative and regional 
juvenile assessment center project to serve an 11-county area, 
again unique in the fact that we are pulling all of these folks 
together. We are going to be serving more than one, so what 
they are asking for really services a major part of the upper 
part of the northern part of our state.
    They are also looking to the Department of Commerce, the 
city is seeking federal funding for a business incubator 
project to promote economic development in East Gainesville, 
which is an area that has worked very hard in pulling their 
economic development together and even where some of these 
other projects would be a real benefit to them.
    I just wanted to let you know that I support 
enthusiastically what they are trying to do and would hope that 
we would have the opportunity to work with them over this 
year's budget. And I thank you.
    Mr. Rogers. And your support obviously is very, very 
important to all of this. It will be noted that you are 
supporting this fully.
    I want to ask you, before you leave, to convey to our 
common friend, John Fitzwater, the publisher of the newspaper 
there, who is a personal friend of mine, from the same town in 
Kentucky where I am from and a very close personal friend--
please convey to John Fitzwater my regards.
    Ms. Thurman. And I have to tell you, Mr. Chairman, I just 
found out that the sheriff's wife actually was born in the 
county that----
    Mr. Oelrich. Harlan County. You do not mess with that 
woman.
    Ms. Thurman. So now I have two allies with me besides these 
two guys.
    Mr. Rogers. Harlan County is in my district and you are 
right, you do not mess with them.
    Ms. Thurman. So you can see the dilemma I am in.
    Mr. Rogers. Anyway, Chief Williams, are you the spokesman?
    Mr. Williams. I am first and I will have part of the 
allocated time and the sheriff will have the remainder.
    Mr. Rogers. All right. We will turn on the light.
    Mr. Williams. Mr. Chairman, on behalf of the City of 
Gainesville, I appreciate the opportunity to present the 
written testimony to you. The City of Gainesville is seeking 
federal funds in fiscal year 1999 from Commerce, Justice, State 
and Judiciary's Appropriations Bill for the following 
innovative projects the city is undertaking: a communications 
enhancement initiative to improve public safety; a business 
incubator project to promote economic development in East 
Gainesville.
    The city is seeking $10 million for a computer-aided 
dispatch and radio communications project to enhance public 
safety. The city and county are planning the creation of a 
joint communications system for the future. The impact for the 
entire region is considerable, since this county serves as the 
regional center for much of rural North Florida's medical care, 
disaster management and criminal justice services.
    The need for this system is partially driven by the federal 
government's refarming of radio frequencies through the Federal 
Communications Commission. The requirement to replace more than 
20 different radio systems presents an opportunity for us to 
create a single telecommunications infrastructure to serve all 
the emergency transportation, utility, support and 
administrative agencies in the area.
    The project consists of building and equipping a dispatch 
and communications facility, which will cost $4 million, 
providing a trunked telecommunications system, which costs $2 
million, purchasing and installing an advanced software to 
manage the multiple agency operations and records at $2 
million, and purchasing the individual user devices for 
connecting to the system, which is an additional $2 million.
    The agencies involved in the project are Alachua County 
government, which has 14 internal user agencies, Alachua County 
sheriff, including the corrections facility and civil division, 
and nine other cities in our community for a population served 
of over 200,000.
    The City of Gainesville operates its own facility now. The 
county operates their own facility. This combines both of those 
into a single facility having this control, as well as bringing 
utility workers, gas, electric, water and waste water.
    The opportunity to consolidate all these communications 
functions into one has been an important feature of this 
project. The area is over 900 square miles. The expected result 
of this project will be the ability of all the agencies to 
communicate internally and across all agencies when the need 
arises to coordinate joint operations and it will also allow us 
to not duplicate the infrastructure that is necessary for all 
of these agencies to have effective communications.
    There are 11 fire rescue services, an ambulance service, 
three hospitals, 31 schools and colleges, a transit system and, 
as I said, nine municipalities in the network.
    The federal government's reallocation of radio spectrum is 
somewhat the trigger of this and the effect has been that when 
one door closes another one opens and it opened for us by 
saying if we all have to replace our radio systems, we all 
ought to join hands together and see if we cannot do it 
together. The problem obviously is that, that is a very large 
amount of money to come up with in a rural, somewhat 
economically disadvantaged area of our state.
    The second project that I wish to speak to you about, sir, 
is the incubator development project in East Gainesville. The 
key components of the enterprise assistance center are that 
there be real estate acquisition for the purpose of 
establishing the incubator center, which would cost about $1.2 
million, and $1 million to renovate the facility as a business 
incubator.
    This is on the east side of our community, which is the 
most economically depressed side of the community, and we are 
working in collaboration with the University of Florida, North 
Florida Technology Innovation Corporation, Santa Fe Community 
College and Small Business Development Center and Chamber of 
Commerce to develop this business incubator for the purpose of 
letting small businessmen have the opportunity to coalesce 
together and branch their businesses off in a period of about 
three years into viable economic businesses in our community.
    With that, I will turn it over to the sheriff, who has some 
additional information about some crime grants.
    [The information follows:]


[Pages 394 - 403--The official Committee record contains additional material here.]



    Mr. Oelrich. Mr. Chairman, this gives us a unique 
opportunity as a community to hold hands on two different 
projects that we think are crucial. What the chief did not 
relate to you is that this particular joint communications 
center is going to go in an area that needs some economic boost 
and 100 jobs will be brought into there and it will be sitting 
on a site that we are building a brand new sheriff's office in 
there and renovating an existing shopping center for 55,000 
square feet. So it is really kind of a shot in the arm for a 
particularly depressed area.
    One of the things that I wanted to talk to you about was 
the second project, and that is the juvenile assessment center. 
What we have a problem with is police officers, deputy 
sheriffs, when we pick up a young person 14 years old, 11 years 
old, that sort of thing, we literally have no place to take 
them. We are looking for some funds to help us jump-start a 
juvenile assessment center, a place where our deputy sheriffs 
or police officers can take a young person and they can get 
directed in a particular area. If it is a criminal offense, 
then they can get introduced into the criminal justice system; 
if it is just a runaway, truants, those sorts of things.
    Right now we are really between the devil and the deep blue 
sea as far as a place to take them. We need some assistance 
here because this will be an 11-county area thatthis will 
serve, some 400,000 residents. A little bit more than half of that are 
in an urban area but the other half are spread out over the other 10-
county area, which we are really in need of that.
    So both of these projects are worthy projects. We are 
really holding hands on the whole thing. And next time I am at 
church and see John Fitzwater, I am going to tell him you said 
hello.
    Mr. Rogers. Please do.
    Well, congratulations on an exciting proposal here. It is, 
I think, a tribute to your leadership and the community's 
willingness to work together to serve a larger area, and it is 
obviously desperately needed.
    We appreciate your testimony. We would like to be of help 
to you.
    Mr. Oelrich. Thank you very much, Mr. Chairman.
    Mr. Rogers. John Calhoun, National Crime Prevention 
Council. Welcome.
                              ----------                              

                                          Wednesday, April 1, 1998.

                   NATIONAL CRIME PREVENTION COUNCIL

                                WITNESS

JOHN A. CALHOUN, EXECUTIVE DIRECTOR
    Mr. Calhoun. Thank you, Mr. Chairman, very much for this 
opportunity to share with you the results of your investment, 
and I will hopefully be just under the five-minute time.
    The deputy chief in Fort Worth said it is really a new day. 
It is a sea change. He said residents know we are out there to 
help. We are doing youth programs. We are getting the violence 
out of the community, even worrying about speed bumps and 
people who used to give my officers obscene gestures are now 
waving at them.
    I am here to share with you that crime prevention does 
work. The City of Boston has had but one juvenile homicide in 
almost three years. Public/Private Ventures reports that 
mentoring does work. Kids get in trouble less. Columbia 
University studies show that Boys and Girls Clubs in public 
housing reduce crime. And Head Start works.
    The chief of police in Columbia, South Carolina has 
stabilized many rough neighborhoods by convincing almost half 
his force to live in once-abandoned and now refurbished 
housing. St. Paul, Minnesota cut truancy and thereby cut 
daytime crime and burglary.
    Many teens throughout the country have rolled up their 
sleeves and gotten involved in crime prevention projects. And 
communities across the country report that when you get 
businesses, churches and law enforcement together, you can 
indeed reduce crime.
    America, when it wishes, can do the amazing. There is an 
extraordinary statistic, Mr. Chairman. Our rates for burglary 
and robbery are comparable to or less than major cities--
London, Amsterdam, Paris and Sydney, Australia.
    Our core mission, which you helped fund, is best summed up 
by the U.S. Attorney in New York, Liz Glaser, who said, ``I can 
keep busting people again, again, again and again, but unless I 
build resistant communities, I am not doing my job.''
    You have helped fund probably the most successful public 
service advertising in history. We are again number one last 
year, $90 million worth of free public service advertising. One 
of your dollars produced about $100 worth of free advertising.
    Our material ranges from comic books for kids--this went 
out to about a million--to reproducible material which turns 
into brochures that we have seen cosponsored by DAs, attorneys 
general--this one on community-based policing, this one on 
victims. The AG of Arkansas actually called us on this kit, 
which they got just a little while ago and he is going to 
reproduce some of this material for the citizens of that state.
    We respond to particular issues. This one is on local laws, 
which will abet local crime prevention. And this one is how the 
built environment, how architecture can help change crime 
patterns.
    This newsletter goes out to about 100,000 people. West 
Virginia's Office of Criminal Justice reports that this 
material is terrific and they spread it immediately to the 
crime prevention and law enforcement community throughout their 
state. So there is free literature for parents, police, youth 
workers, schools, et cetera.
    We also train hundreds of police officers, civic leaders, 
people in city government who, in turn, train others. And our 
Crime Prevention Coalition is 117 agencies--the AGs, the U.S. 
Attorneys and others, AARP. If they like our material, they 
spread it to their constituency. They are a terrific source of 
ideas and partnership. For instance, with the Boy Scouts we 
developed a crime prevention merit badge with the National 
League of Cities joint training.
    We have designed demonstration programs in tough 
neighborhoods, with cities, and we extract the learnings and 
get them out.
    The National Charities Information Bureau, which rates 
nonprofits, has us up there at the top with such groups as the 
American Red Cross.
    So, in essence, we work in partnership with Justice, with 
Juvenile Justice. At your suggestion last year we are working 
with JJ on an advertising campaign called ``Invest in Youth.'' 
And I think what you are really funding, at the root, is 
stopping crime and building community, if you will, giving Americans 
hope. Thank you very, very much.
    [The information follows:]


[Pages 407 - 417--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you for your testimony and for your work. 
I appreciate it.
    Luie Fass, U.S. Commercial Fishing and Seafood Industry 
Coalition.
                              ----------                              

                                          Wednesday, April 1, 1998.

         U.S. COMMERCIAL FISHING AND SEAFOOD INDUSTRY COALITION

                                WITNESS

LUIE FASS, VICE PRESIDENT, INTERNATIONAL SEAFOOD
    Mr. Fass. Mr. Chairman, I want to recognize that there are 
some colleagues in the room joining me.
    Mr. Rogers. You may name them if you would like.
    Mr. Fass. Well, there is Mr. Acheson from New Jersey and 
Mr. Fletcher from North Carolina. They have all been in the 
seafood business for a long, long time, as I have.
    I am not here, Mr. Chairman, to ask for any money. I hope 
that makes you happy.
    Mr. Rogers. Call the newspapers.
    Mr. Fass. My name is Luie Fass. I am vice president of 
International Seafood, Hayes, Virginia. I represent the U.S. 
Commercial Fishing and Seafood Industry Coalition, an 
organization that includes interests and members from the 
Atlantic, Pacific and Gulf coasts involved in the seafood and 
fishing industry.
    I am here today to speak about the severe economic crisis 
facing the commercial fishing and seafood industry. The crisis 
has been precipitated by overregulatory actions and 
scientifically flawed fishery management quotas by the National 
Marine Fisheries Service and the Department of Commerce. 
Current policies and program implementation plans for the 
National Marine Fisheries Service are causing extreme economic 
hardship to the commercial fishing industry.
    Many in the industry feel they will not be able to survive 
in the industry beyond this year. This is due to the 
overzealous implementation by the National Marine Fisheries 
Service of the Sustainable Fishery Act of 1996. Even the Senate 
authors of the legislation have written the Department of 
Commerce expressing their strong concerns of National Marine 
Fisheries Service actions.
    Two recent court cases on management quotas for different 
species found that the department had not conducted the 
required economic impact analysis when setting quotas. Both 
judges questioned the science underlying the management quota 
determinations. The department cannot set quotas based on 
inaccurate and flawed science.
    Another chief concern of ours is that representatives of 
the industry are not involved in any part of the decisions 
being made that govern their economic livelihood. While the 
authorizations for the National Marine Fisheries Service stress 
industry participation, it is, at best, minimal.
    We have met recently with the director of the National 
Marine Fisheries Service and most recently with Secretary Daley 
to express our concerns. The Secretary was attentive and 
sympathetic but admitted that he knew nothing about the 
industry.
    We have some specific recommendations to remedy the problem 
in the short term. Until the appropriate science can be 
employed to develop the correct elements and assumptions that 
must be factored into the preparation of economic impact 
analysis for species under current management quotas, we recommend for 
the fiscal year 1999 and for the remainder of fiscal year 1998, through 
the Supplemental Appropriations Act, a funding limitation be imposed on 
programs implemented by the National Marine Fisheries Service and 
funding for the National Marine Fisheries Service be made available 
only if the following actions are taken.
    One, suspend current fishery management quotas until better 
science is employed. Quotas will be set at those utilized in 
1993. Two, devise cooperative methods with the industry in 
developing better science. Three, conduct economic impact 
analyses in conjunction with the industry, based on improved 
science. And four, ensure appropriate industry involvement in 
future regulatory and management quota decisions.
    I thank you for this opportunity to outline our plight and 
to recommend these actions. I would like to enclose a paper 
from a local crabber from North Carolina that sums up the 
industry's position. I think you will find it very, very 
interesting. I request this statement be put on the record to 
accompany my written statement.
    Thank you, Mr. Chairman. I would like to add, I think, one 
more thing if I might. I would like to read you just a couple 
of paragraphs from this gentleman's letter, which we just 
received, by the way. His name is Murray Fulcher. He starts off 
by saying, ``Commercial fishing is one of the oldest 
professions in the world. Fishermen, especially those with a 
family heritage in fishing, have an inborn belief that to work 
hard and to persevere with dignity is enough to get through 
life.''
    ``This belief is being destroyed by regulatory agencies 
that should be working with fishermen to improve our fishery 
resources. Instead, these agencies, be they federal or state, 
are destroying this work ethic by restricting the fishermen to 
so few days to fish and destroying their dignity by forcing the 
fishermen to receive help from government.''
    ``Fishermen feel disgraced to have to stand in an 
unemployment line or to have to accept welfare.''
    ``Most regulatory committees are made up of well-meaning 
people,'' he goes on to say, ``but for the most part the 
committee members know little or nothing about our fishery 
resources except what they read in a book. They know nothing 
about how different weather conditions, water currents, water 
temperatures, the food chain or predators affect different 
species.''
    I can promise you, Mr. Chairman, that if they take the time 
to go out with fishermen all over this country, they would find 
that the real world is something different than the world that 
they envision. Thank you very much.
    [The information follows:]


[Pages 420 - 427--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you very much for a very effective 
testimony. Thank you.
    Mr. Bill Frank, Jr. of the Northwest Indian Fisheries 
Commission. Mr. Frank, you are welcome. Your written statement 
will be made a part of the record and you can summarize it in 
five minutes or less. We will turn the yellow light on when you 
have a minute left.
                              ----------                              

                                          Wednesday, April 1, 1998.

                 NORTHWEST INDIAN FISHERIES COMMISSION

                                WITNESS

BILLY FRANK, JR., CHAIRMAN
JIM ANDERSON, EXECUTIVE DIRECTOR
BOB KELLY, MEMBER
    Mr. Frank. First of all, I want to congratulate you on your 
success in basketball.
    Mr. Rogers. Thank you very much. That is very nice of you. 
We are proud of them.
    Mr. Frank. We were all watching it at home.
    Mr. Rogers. Where is your home?
    Mr. Frank. State of Washington. We live in the Puget Sound. 
I live 50 miles south of Seattle, in the Puget Sound. I 
represent the 20 tribes in and around the Puget Sound and on 
the Pacific Coast. We are all Pacific salmon fishermen and our 
salmon travel all that whole thousands of miles journey out and 
back home.
    So I am here today, Mr. Chairman. I am happy that you 
allowed us to testify here before your Subcommittee. It is kind 
of a first time for us, and we really appreciate that because 
we are fishery managers. The tribes in the Northwest, over the 
last quarter of a century, through the courts and through 
recognition in the United States Congress, are co-managers, 
along with the State of Washington, along with the federal 
government, the National Marine Fisheries Service.
    We are partners. We are partners in all kinds of different 
ways of managing that salmon. And it is very important that we 
communicate with one another and support the funding. I have 
with me Jim Anderson, executive director of our commission, and 
Bob Kelly is on the Northwest Indian Fish Commission, one of 
our commissioners so I will let Jim get into the details of our 
funding.
    Mr. Rogers. All right.
    Mr. Anderson. I will try to summarize the request. We 
support the additional $7.3 million that the President has 
included in the budget for the National Marine Fisheries 
Service for West Coast salmon rescue activities that is over 
and above their 1998 base.
    As you may know, numerous Endangered Species Act listings 
have occurred in the Pacific Northwest, creating a very 
interesting complex and dynamic situation, and additional 
monies for National Marine Fisheries Service is extremely 
important in order for that agency to continue to effectively 
address salmon restoration activities.
    We are also requesting additional monies in the budget 
directed for the Northwest Indian Fisheries Commission and our 
member tribes. There are two elements to that.
    The first one is what we call a tribal ecosystem management 
initiative. This would be for $3.1 million to the Northwest 
Indian Fisheries Commission for our member tribes. It helps the 
National Marine Fisheries Service fulfill its federal 
obligations, both in terms of the Endangered Species Act, as 
well as their trust obligation to the tribes of the Pacific 
Northwest that were part of the treaties that have been 
affirmed through the federal court system.
    We are also seeking $2.5 million for the member tribes for 
their active participation in the various Endangered Species 
Act regulatory activities. National Marine Fisheries Service 
has a fairly complicated process that they must follow under 
the Endangered Species Act.
    The tribes, as co-managers and as a regulated entity, if 
you will, have obligations to participate in the biological 
reviews, the decisions to list, the recovery planning efforts, 
consultations to allow for fisheries and the like. And 
additional monies in the form of $2.5 million for the tribes is 
extremely important in order for the tribes to stay up with the 
various tasks. That money would go for new staff, new personnel 
to allow the tribes to fulfill--to have treaty fisheries that 
are protected by the law and it would make for a more efficient 
and effective system.
    [The information follows:]


[Pages 430 - 436--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you both very much for your testimony. 
Thank you.
    Gene Feigel, American Society of Mechanical Engineers. Your 
statement will be made a part of the record. You are invited to 
summarize it. And if you need the full five minutes, we will 
warn you at the yellow minute when you have a minute left to 
go.
                              ----------                              

                                          Wednesday, April 1, 1998.

                AMERICAN SOCIETY OF MECHANICAL ENGINEERS

                                WITNESS

GENE FEIGEL, SENIOR VICE PRESIDENT, CODES AND STANDARDS
    Mr. Feigel. Good afternoon and thank you, Mr. Chairman.
    The NIST Task Force of the Council on Engineering of the 
Council on Codes and Standards of the American Society of 
Mechanical Engineers is pleased to have this opportunity to 
testify before you today on the NIST FY99 budget request.
    As you noted, my name is Gene Feigel. I am senior vice 
president, codes and standards, of the American Society of 
Mechanical Engineers and a member of the NIST Task Force.
    NIST has served critical functions in many areas that are 
significant to ASME's activities, both international and 
domestic. In my statement today I plan to discuss several NIST 
programs that are important to ASME. I will then focus on the 
critical importance of standards and the voluntary consensus 
process of the U.S. economy.
    The FY99 budget request provides almost $260 million for 
the Measurement and Standards Laboratories, a $17.4 million 
increase over last year. The task force supports this level of 
funding. The laboratories provide U.S. industry with critical 
technical information through their work in developing new 
measurement methods, testing techniques, data evaluation and 
standards.
    The NIST Task Force also supports cooperative technology 
programs such as the ATP and MEP, which have been powerful 
catalysts in bringing government, industry and universities 
together to enhance the economic competitiveness of the nation.
    These programs are needed to improve the transfer of new 
discoveries in science and engineering to innovative 
technologies and global quality practice. The ATP and MEP are 
good for the nation's economic well-being, the health of U.S. 
science, engineering and technology enterprise.
    The ATP provides cost-sharing funding to industry for high-
risk research and development projects with potentially broad-
based economic benefits for the United States. The task force 
supports the FY99 budget request for an additional $67.4 
million over the FY98 funding level for ATP. The task force 
also supports the $106.8 million request for MEP.
    The second area of critical importance to ASME is 
standards. In the United States, voluntary consensus standards 
are developed by private sector standards organizations such as 
ASME. These standards are used by industry and frequently 
adopted by government agencies as a means of satisfying 
regulatory requirements.
    NIST performs a key role in overseeing the implementation 
of the National Technology Transfer and Advancement Act of 
1996. The act calls for utilization of private sector voluntary 
consensus standards and conformity assessment activities by 
federal agencies. Adherence to this provision by federal 
agencies provides a mechanism to address regulatory issues with 
direct input from interested partiesthrough public consensus.
    NIST and the Department of Commerce also play a vital role 
in promoting acceptance of U.S. standards in international 
commerce. Standards can either facilitate or inhibit trade. At 
stake is the competitiveness of U.S. industry in the global 
marketplace and the ability of the United States to have an 
effective voice in international standards negotiations.
    In the United States, standards development is largely the 
province of private sector organizations. In contrast, the 
governments of many of our key trading partners are investing 
significant resources, in the millions of dollars, to promote 
acceptance of competing standards in the global marketplace.
    Therefore it is essential that the U.S. government, in 
partnership with the private sector standards development 
organizations, strengthen its commitment to ensuring adequate 
representation of U.S. interests in international standards 
negotiations.
    There are two major non-treaty international standards 
organizations: the International Organization for 
Standardization, ISO, and the International Electrotechnical 
Commission, IEC. At the present time, all member bodies of ISO 
and IEC, except for the United States, receive financial 
support from their governments to participate in these 
organizations.
    In order for the U.S. industry to compete in today's 
market, we must ensure U.S. technology and products are not 
disadvantaged or entirely excluded from ISO and IEC standards.
    As the influence of non-U.S. regional and national 
standards bodies within the ISO and IEC structure continues to 
grow, the support of the U.S. government is needed to assure 
appropriate levels of U.S. participation.
    The American National Standards Institute is the U.S. 
member body to ISO and IEC. Last year ANSI's administrative 
cost for participation amounted to $4 million, half of which 
consisted of membership dues to those two bodies. This amount 
is simply an entry fee and it does not include the cost borne 
by the private sector.
    The U.S. government, through NIST, needs to allocate 
funding for U.S. entry into ISO and IEC to ensure U.S. 
interests are represented. This would free private sector 
funding to directly support technical committee participation.
    ASME strongly supports the efforts of NIST Director Raymond 
Kammer to elevate the effectiveness of U.S. participation in 
international standards negotiations. We urge Congress to 
augment the NIST budget by $4 million to support such 
participation. This financial support would be consistent with 
Section 413 and 415 of Title IV of the Trade Agreement Act of 
1979, which calls for adequate representation of U.S. interests 
in international standards activities.
    Thank you for the opportunity to present our views on the 
FY99 appropriations for NIST and I would be happy to respond to 
any questions.
    [The information follows:]


[Pages 440 - 446--The official Committee record contains additional material here.]



    Mr. Rogers. I thank you very much, Mr. Feigel.
    Mr. R. Max Peterson, International Association of Fish and 
Wildlife Agencies.
                              ----------                              

                                          Wednesday, April 1, 1998.

        INTERNATIONAL ASSOCIATION OF FISH AND WILDLIFE AGENCIES

                                WITNESS

R. MAX PETERSON, EXECUTIVE VICE PRESIDENT
    Mr. Peterson. Thank you, Mr. Chairman. You have my 
statement. If you will accept it for the record I will 
summarize it for you.
    Mr. Rogers. So be it.
    Mr. Peterson. As you know, Mr. Chairman, I represent an 
organization with a long name that actually represents the 50 
State fish and wildlife agencies. We have the word 
``international'' in our name because of the waterfowl that fly 
from Canada to Mexico and some other things that we deal with.
    Today I am here to testify on the National Marine Fisheries 
Service budget. As you heard already from some previous 
testimony here, at one time we thought the ocean resources were 
sort of inexhaustible, so we fished them from all kinds of 
countries. Now we find we have at least 86 stocks that are 
stressed or overfished and the question is when do we do 
something about it? The longer we wait to do something about 
it, the more the impact is on the fisherman.
    So one of the things in this budget that we support is some 
increase to really implement that Sustainable Fisheries Act, 
the amendments to the Magnuson Act of a couple of years ago, 
because unless we have reliable data on those fisheries stocks, 
which is done cooperatively with the States and with the 
National Marine Fisheries Service and with the U.S. Fish and 
Wildlife Service, we simply will not have the 
technicalinformation to make the best decisions. And it is important to 
fishermen. It is important to the economy of the States. It is 
important to all of us that we have good data to make those decisions.
    There is also a need for research in several places to find 
out why certain stocks are decreasing rather rapidly. Is it 
entirely due to overfishing? Is it related to changes in ocean 
temperatures? Is it related to pollution? What is it related 
to? Because in order to, as you know, go about devising a 
solution to a problem, you have to understand the dimensions of 
it. So we are very much in support of the development of 
additional research capability.
    We are concerned about the federal user fee that is a part 
of the National Marine Fisheries Service budget simply because 
that really was not discussed with the States or anybody else 
who is impacted. We recognize there is need for some additional 
funding. We think that Congress ought to recognize that that is 
a new proposal and ought to ask for some time to work with the 
different States and with industry and others to work out what 
is an appropriate way of financing the additional money that 
obviously is needed to do the job.
    We are also concerned about the councils, the various 
councils like the Atlantic States Marine Fisheries Council and 
so on that have an important role to play in this whole thing 
representing the States and particularly the coastal States 
throughout the country have a large stake in what is happening 
to these fish that know no boundaries.
    Unless there is a high degree of cooperation between the 
States and the National Marine Fisheries Service, we will not 
have a program that works very well. So we believe that we need 
to continue adequate funding for the councils.
    With that, Mr. Chairman, I will recognize that we have made 
several suggestions in our statement that I am sure you will 
have an opportunity to read, but basically we do support the 
Administration's proposal for the National Marine Fisheries 
Service with a couple of small changes. Thank you.
    [The information follows:]


[Pages 449 - 459--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you very much. I appreciate it, Mr. 
Peterson.
    Wendell Hannigan, Columbia River Inter-Tribal Fish 
Commission. Mr. Hannigan, welcome.
                              ----------                              

                                          Wednesday, April 1, 1998.

              COLUMBIA RIVER INTER-TRIBAL FISH COMMISSION

                                WITNESS

WENDELL HANNIGAN, CHAIRMAN
    Mr. Hannigan. Thank you, Mr. Chairman. I want to 
congratulate Kentucky on the NCAA victory.
    Mr. Rogers. Thank you.
    Mr. Hannigan. Mr. Chairman and members of the subcommittee, 
thank you for inviting the Commission to testify on the 
National Marine Fisheries Service budget and its significance 
to our member tribes. I would like to summarize my testimony 
and request that my written testimony be placed in the record.
    My name is Wendell Hannigan. I am a member of the Yakima 
Indian Nation Tribal Council and chairman of the Columbia River 
Inter-Tribal Fish Commission. Our concern with the NMFS budget 
centers on the use of federal monies for the Mitchell Act, the 
law that authorized the construction and operation of a series 
of mitigation hatcheries on the Columbia River.
    The member tribes of the commission are parties to treaties 
by which we ceded millions of acres of land in return for 
promises by the United States that it would secure our right to 
take fish on our reservations in all usual and accustomed 
fishing places. The Mitchell Act, since its implementation in 
the late 1940s, has been used to violate that promise in a 
number of ways.
    First, the Mitchell Act provided the mitigation for 
hydroelectric development below our salmon fisheries rather 
than in the areas where our fisheries occur. In other words, 
the hatcheries moved the fish that are the substance of our 
treaty rights to areas below where we fish; that is, below 
Bonneville Dam. Only about 4 percent of Mitchell Act production 
is released above the Dallas Dam, the next higher dam on the 
system.
    Second, for many years the non-Indian fisheries below the 
dams focussed on catching the abundant fish produced by the 
hatcheries without regard to the impact that these mixed stock 
fisheries in the ocean and lower river had on the naturally 
spawning stocks in the rivers and streams of our ceded 
territories where we hold our treaty rights to fish.
    The results of these impacts was that the up-river stocks 
were severely diminished by fishing impacts and the impacts of 
the dams and other development to the point where they were 
listed as threatened or endangered and our fisheries were 
severely cut back.
    However, the listing also meant that the ocean and lower 
river fisheries were cut back to the point where the hatchery 
abundance was no longer available there, making the Mitchell 
Act hatchery production less useful as mitigation, even for the 
non-Indian fisheries.
    That caused non-Indian fishery managers to look for another 
way to harvest hatchery production and that method was mass 
marking. We call it mass mutilation, whereby a finis clipped 
off hatchery fish and such marked fish can be kept by fishers where 
nonmarked naturally spawning fish are shaken off the hook, some to die 
because of the damage done to their insides, others to return to spawn. 
The tribes oppose mass marking chinook, as does the State of Alaska.
    This series of actions is madness, especially when related 
to the promises that the United States made to us in return for 
our land. Tribes have a better way. Artificial propagation is a 
method used around the world in connection with habitat 
improvement to restore and rebuild endangered or threatened 
species.
    The Endangered Species Act itself includes the use of live 
trapping, transplantation and propagation as conservation 
methods. Our tribes have successfully used propagation and 
habitat improvement to rebuild certain upriver runs on the 
Umatilla, the Clearwater and the Hanford Reach of the Columbia 
and the Yakima. Nonetheless, NMFS resists the use of hatcheries 
for restoration based on an untested scientific opinion while 
doing little to improve habitat or modify the dams.
    NMFS, as a federal agency, cannot have it both ways and 
still carry out its ESA obligations and its trust 
responsibility to the treaty fishing tribes. The use of the 
Mitchell Act facilities for supplementing natural production in 
the Upper Columbia River is an essential element in the 
rebuilding of our runs affected by the dams and we call on this 
committee to restrict the use of Mitchell Act funds to the 
restoration of upriver naturally spawning populations that are 
the subject of its ESA listings.
    Thank you, Mr. Chairman, for your attention to this matter.
    [The information follows:]


[Pages 462 - 468--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you very much. I appreciate your 
testimony, Mr. Hannigan.
    Robert Breese, Trade Adjustment Assistance Center sponsors. 
Welcome.
                              ----------                              

                                          Wednesday, April 1, 1998.

                   MIDATLANTIC EMPLOYERS' ASSOCIATION

                                WITNESS

ROBERT E. BREESE, PRESIDENT
    Mr. Breese. Thank you. Mr. Chairman, I would like to submit 
my written testimony for the record and try to focus, hopefully 
briefly, on some key points.
    My own role is president and CEO of a group called the 
MidAtlantic Employers' Association, founded back in 1903. About 
800 companies are members. I am here today to speak for the 
Trade Adjustment Centers, of which MidAtlantic Employers' 
Association is one of 12 sponsors.
    I would like to focus on three critical points. There is 
quite a demand, very tremendous demand, for the trade 
adjustment assistance. There is also a unique program that we 
are dealing with, and I think that is worth pointing out. I 
understand you are familiar with it. And finally, there are 
some interesting side effects I think that even point out or 
highlight the value of the program.
    First of all, the demand. Right now the trade adjustment 
program is about $10.5 million behind the needs of the various 
companies that have been certified for trade assistance. That 
demand is increasing. The effects of NAFTA and now the 
potential effects of the problems in the Far East are going to 
create additional demand for the type of adjustments or aid 
that we can provide.
    This morning, for example, I met with 12 company 
presidents, three of whom are already bringing up, in terms of 
their own business, seeing the effects of the crisis in the Far 
East and are saying that this is beginning to affect their 
business.
    Beyond that, the trade adjustment program is quite unique. 
It is the only program there is that provides direct assistance 
to manufacturing companies that are affected negatively by 
manufacturing competition offshore. There is no other program 
that does this.
    Since 1993, I believe 544 companies have been assisted. The 
cost of that to the federal government has been $56 million. 
The effect, however, has been either the saving or the creation 
of somewhere in the area of 78,827 jobs. If you boil this down 
to the return on investment of about $712 per job and you 
figure that these jobs are worth roughly $25,000 a year, simply 
in taxes alone, federal and State taxes, the return is almost 
1,000 on that $712 investment. So the effect is very, very 
positive.
    We are working to make it more efficient. We have been 
working with the Department of Commerce through the Urban 
Institute to study our methods, to study our communications and 
the like as a process of continuous improvement so that despite 
the fact that I think we have a very effective program, we are 
working to make it even more effective.
    There is also what you might call some very important side 
effects of the program in the area of community and economic 
development. I talked about the positive effect interms of the 
return on investment. Another way to look at this is every time a job 
is lost and, even more importantly, every time a company may have to 
shut down because of offshore competition, the cost in terms of the 
economic impact on the community, as well as the cost of possibly 
welfare, food assistance, retraining is a highly negative cost.
    Having said all that, we appreciate the support that you 
have given. We are in the President's budget this year for, I 
believe, $10,500,000. What we would like to suggest is that 
another $1,500,000 would create a very positive impact. It 
could allow us to reach perhaps 20 to 30 more companies in need 
of assistance. So we would really encourage you to consider the 
idea of supporting an additional $1,500,000.
    Thank you very much for your time and for your support.
    [The information follows:]


[Pages 471 - 476--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you.
    Dr. Joel Myers, AccuWeather, Inc. Welcome.
                              ----------                              

                                          Wednesday, April 1, 1998.

                       ACCUWEATHER, INCORPORATED

                                WITNESS

JOEL MYERS, PRESIDENT
    Mr. Myers. Mr. Chairman, I am founder and president of 
AccuWeather, one of the world's largest commercial weather 
information and forecasting companies. We provide weather 
forecast data and graphics to business, industry, government 
and the general public. Our weather forecasts can be heard and 
seen on over 600 radio and television stations and appear in 
400 newspapers. Each day over 40 million newspapers hit the 
streets with the AccuWeather forecast. Our information is on 
many of the most popular news and weather websites, accessed by 
millions. We believe over 180 million Americans recognize the 
AccuWeather name.
    Mr. Chairman, it has been stated that 85 percent of the 
weather forecasts getting to the general public come from 
commercial weather companies. Much of the weather forecasts 
needed by business, government and industry originate within 
the private sector. Yet the National Weather Service is 
spending hundreds of millions of dollars a year by continuing 
activities that are no longer needed, by issuing general 
forecasts to the public, even though they are free and are 
usually rejected in the marketplace in favor of forecasts from 
private companies.
    Absent the competitive intrusion by the NWS into the 
weather marketplace, the commercial weather industry could and 
would produce 100 percent of this country's routine daily 
weather forecasts for the public and specialized needs.
    Accurate and timely forecasts are demanded by almost every 
sector of the U.S. economy. Without a vibrant and healthy 
commercial weather industry, the cost of producing all these 
products might fall to the government, with a price tag that 
would greatly eclipse the current cost of the NWS budget and 
operations.
    Therefore, a strong weather industry is vital to the U.S. 
economy and is the key to both the future downsizing of the 
National Weather Service and improvements in their vital severe 
weather warning capability. Now, this may seem like a 
contradiction, to downsize the NWS and yet improve weather 
warnings, but it is not. Let me explain.
    The preparation of daily forecasts can and does distract 
government forecasters from the detection of severe weather in 
preparation of warnings. There is no doubt that routine 
activities take resources away from the critical functions of 
tornado, hurricane and flood warnings. The forecasting focus of 
the NWS should be on these severe weather events that threaten 
both lives and property.
    The National Weather Service of today is a creature of the 
Organic Act of 1890. It might have made sense 108 years ago to 
give the NWS a broad charge that included making forecasts for 
the public and selected industries. After all, in 1890 there 
was not a single commercial weather company. Yet today there 
are over 100 such companies in the U.S. and many more abroad.
    The U.S. government has spent many hundreds of millions of 
dollars to modernize the NWS, to develop AWIPS and NOAA Port, 
to put satellites in orbit and establish the NEXRAD radar 
network, yet little effort has been given to modernize the 
NWS's charter to consider its function vis-a-vis the commercial 
weather industry and to take advantage of the opportunities 
created by the unimagined changes over the past 108 years.
    Officials of the NWS have acknowledged in various forums 
that their charter is vague and so they attempt to be all 
things to all people. The marketplace has already privatized 
much of what the National Weather Service does but the NWS 
continues activities that are no longer needed. These 
activities are carried out and carried out well by the private 
sector.
    A staged and systematic pullback by the NWS is needed in 
three areas. They are user-specific services, services targeted 
to specific industries and daily public forecasts, such as 
partly cloudy today, high in the mid 60s. These are services 
that the government need not provide. A substantial portion of 
the NWS budget for personnel and related activities is devoted 
to these routine and duplicative services.
    In the fiscal year '99 request to the subcommittee they are 
seeking, under O&R in line item ``local warnings and forecasts,'' $463 
million, but the NWS has not broken this money out between forecasts 
and warnings, and I do not think they know themselves how this 
breakdown occurs.
    NWS budget cuts should be targeted to duplicative and 
competitive areas, not critical ones, like the Hurricane 
Center. Spontaneous new, unbudgeted products, such as those 
recently put out on the Internet that appeared with disclaimers 
of unreliability, should be prohibited.
    The core responsibilities of the National Weather Service 
are and clearly should be one, taking weather observations and 
gathering data; two, operating and improving the computerized 
weather models which predict storms and the future state of the 
atmosphere; three, the predicting, locating and tracking of 
severe weather and the issuing of severe weather advisories and 
warnings to the public.
    Doing away with other programs and forecasts which people 
and businesses have become accustomed to may cause some 
expressions of concern; however, these services are available 
at modest cost and in many instances are free from private 
companies supported by advertising.
    With a private supplier, the customer has many advantages 
that the government cannot provide, including control over the 
timing of the services and the tailoring of the services to 
their own specialized needs. Taxpayers should not be asked to 
fund routine daily forecasts of partly sunny with a 30 percent 
chance of showers.
    Focussing the NWS on its core mission will yield 
significant economies within the federal government, contribute 
to the congressional initiatives to reduce the size of 
government, bolster an industry that employs people and pays 
taxes, and, best of all, enhance severe weather warnings for 
all Americans--better flood prediction, better tornado and 
hurricane warnings.
    In fact, if the NWS mission was redirected, the United 
States could have a severe weather warning system that would 
fulfill everyone's desires and the NWS's budget could be 
reduced.
    [The information follows:]


[Pages 480 - 489--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you very much. We appreciate your 
testimony.
    Our next witness is Dr. Frank Calzonetti, and I yield to my 
colleague from West Virginia, Mr. Mollohan.
                              ----------                              

                                          Wednesday, April 1, 1998.

         EXPERIMENTAL PROGRAM TO STIMULATE COMPETITIVE RESEARCH

                               WITNESSES

HON. ALAN B. MOLLOHAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WEST VIRGINIA
FRANK CALZONETTI, DIRECTOR, EXPERIMENTAL PROGRAM TO STIMULATE 
    COMPETITIVE RESEARCH, STATE OF WEST VIRGINIA
    Mr. Mollohan. Thank you, Mr. Chairman. Mr. Chairman and 
colleagues, I am really pleased to introduce to you our next 
witness as a special guest from my home State of West Virginia, 
Dr. Frank Calzonetti. Dr. Calzonetti is a leading citizen in 
the West Virginia research community, Mr. Chairman. He serves 
as director of the State EPSCoR program, as senior college and 
university research development officer for the Governor's 
Office of Technology, and he is a professor of geography at our 
State's flagship institution, West Virginia University.
    He has directed the West Virginia's EPSCoR program since 
1993. It is a multi-million-dollar statewide activity with Dr. 
Calzonetti himself serving as the principal investigator on $10 
million in National Science Foundation awards over the past 
five years. Through his service with the Governor's Office of 
Technology, he is working to improve the instruction of our 
young people and what they receive.
    He is a good fit, Mr. Chairman, because Dr. Calzonetti has 
spent his career committed to research and to education of 
young people through the positions at the Wayne County 
Community College in Detroit, the University of Oklahoma and, 
since 1978, West Virginia University.
    Frank, welcome to the hearing.
    Mr. Calzonetti. Thank you very much.
    Mr. Rogers. You are recognized for five minutes.
    Mr. Calzonetti. Thank you very much, Mr. Chairman and 
Congressman Mollohan. I am here to discuss the Experimental 
Program to Stimulate Competitive Technology, EPSCoT, being 
developed by the Department of Commerce. As you know, this 
Subcommittee last year provided $1.6 million for this effort 
and the budget request for fiscal '99 is $3 million.
    Perhaps a little background would be useful. The EPSCoR 
program was developed by the National Science Foundation in 
1978 to provide assistance to a selected number of States to 
improve their science and research infrastructure. The program 
operates in 18 States and Puerto Rico. Kentucky and West 
Virginia are EPSCoR States.
    The EPSCoR States have almost 20 percent of the U.S. 
population but receive only about 7 percent of the more than 
$12 billion spent by the federal government on R&D in colleges 
and universities.
    The program is operated through State EPSCoR committees, 
which contain not only representatives from the university 
research committee but representatives from State government 
and from the private sector, as well. These committees identify 
focus areas which are important to the State and to the 
institutions within it.
    Just as EPSCoR States have received limited amounts of 
funds from federal R&D programs, they have also received 
limited amounts from the commerce technology development 
efforts. Also in many of these States, much more research is 
done in the academic community than in the industrial 
community, a characteristic that sets these States apart from 
other States with a larger industrial base.
    In recent years, as a result of EPSCoR and other R&D 
programs, many of our academic institutions began to develop 
linkages to local industry. We came to realize that many of our 
businesses, even the very small ones, were increasingly 
affected by global markets and that there were activities in 
the federal government and the Department of Commerce, such as 
the ATP program and the SBIR program, which really do not 
address the special needs and concerns of EPSCoR States.
    At that point the EPSCoR coalition approached Dr. Mary 
Good, who was at that time the Undersecretary for Technology, 
and asked for her help in creating an EPSCoR-type program in 
the Department of Commerce.
    The concept was simple--to build on the EPSCoR program, 
which already was providing a research base in these States, to 
use this base to stimulate new technology and to expand upon a 
number of technology development and technology transfer 
activities already under way.
    The points are as follows. First, this would be a research 
and technology transfer program in the EPSCoR States. It would 
focus on the scientific, engineering and technical support 
needed by new, existing and emerging industries. It would 
accelerate the movement of academic research results into the 
commercial marketplace.
    There should be a tie to the research priorities identified 
by the States and already supported through the EPSCoR and 
related efforts.
    Third, there should be consultation with Commerce programs, 
such as the manufacturing extension programs and the advanced 
technology programs.
    Fourth, approval of grant proposals should be done through 
a peer review process, which includes reviewers who have 
expertise in the EPSCoR programs.
    And finally, the State EPSCoR structure should be used. 
This is a structure which is in place and which is already 
involved in the research and technology transfer programs to be 
expanded by the EPSCoT effort.
    Let me tell you briefly how this could impact West 
Virginia. Under the leadership of Governor Cecil Underwood, 
West Virginia has made major moves to coordinate research and 
development initiatives statewide. The governor salvaged the 
Office of Technology in 1997 and the West Virginia EPSCoR 
program joined this office this past year. This was done to 
provide the State with the ability to use the State's colleges 
and universities to link into the State's economic development 
initiatives.
    This year Governor Underwood created the PROMISE program, 
which provides seed funding to encourage a small business owner 
to work with a university faculty member to develop SBIR 
proposals. The West Virginia Science and Technology Advisory 
Council has set three priorities for the State: information 
technologies, identification technologies and workforce 
development. The EPSCoR State committee also endorsed these 
three areas. And we would like to see the EPSCoT program also 
endorse these areas and move into the related areas with the 
industrial community.
    The importance of creating technology-based development is 
critical in rural States such as West Virginia, which lack a 
network of related industries, R&D associations and other 
support mechanisms found in larger States. The proposed EPSCoT 
program provides a mechanism to craft programs which use the 
new ideas produced from the university.
    I would like to thank you for this time and want to voice 
my support for a strong technologically-oriented EPSCoT program 
that can allow us to use the university research programs that 
the EPSCoR program has developed to support State industrial 
development. Thank you very much, Mr. Chairman.
    [The information follows:]


[Pages 493 - 499--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you for your nice testimony. We 
appreciate it.
    Mr. Mollohan. Thank you, Doctor.
    Mr. Rogers. David Dickson, Center for Marine Conservation, 
welcome.
                              ----------                              

                                          Wednesday, April 1, 1998.

                     CENTER FOR MARINE CONSERVATION

                                WITNESS

DAVID J. DICKSON, DIRECTOR, CONSTITUENCY DEVELOPMENT
    Mr. Dickson. Thank you, Mr. Chairman.
    Mr. Chairman, the Center for Marine Conservation 
appreciates this opportunity to share our views regarding the 
President's budget request for the Marine Conservation Programs 
of NOAA. The Center for Marine Conservation is committed to 
protecting ocean environments and conserving the global 
abundance and diversity of marine life.
    In this, the Year of the Ocean, we commend Congress and, in 
particular, this Subcommittee, for the commitment shown to the 
protection of our marine ecosystems in the appropriations bill 
enacted for this year. We urge the Subcommittee, at a minimum, 
to continue this commitment by providing funding for the base 
activities of the marine stewardship programs of NOAA requested 
by the President.
    We also urge you to provide additional funding to pay for 
congressional priorities in the form of earmarks and add-ons 
and for the additional needs described in our written 
statement.
    While we appreciate the Administration's seeking needed 
increases in areas such as fisheries management and protection 
of marine wildlife and water quality, we are very concerned 
that the President proposed cuts in important congressional 
initiatives to offset these increases.
    One such initiative is the National Marine Sanctuary 
Program. We urge the Subcommittee to provide $18 million for 
this important program, the current authorized level. We are 
extremely disappointed by the President's proposed cut of 
$800,000 from the $14 million level you provided for this year. 
Often referred to as our national marine parks, the 12 
sanctuaries around the country encompass almost 18,000 square 
miles of the nation's most significant marine resources.
    Yet in last month's issue of National Geographic, when 
referring to the program's budget, the magazine said, ``The 
typical sanctuary must take care of an enormous area with a 
staff that could fit in a broom closet.''
    On March 19, Undersecretary for Oceans and Atmosphere Baker 
stated before the Resources Committee that the current budget 
for the sanctuary program is approximately one-third of its 
manager's estimated need.
    We also urge the Subcommittee to provide for NOAA's portion 
of the Administration's clean water action plan; in particular, 
the $12 million slated for the development and implementation 
of State coastal nonpoint source pollution control programs. 
These programs were authorized by Congress under Section 6217 
of the Coastal Zone Act Reauthorization Amendments of 1990.
    Nonpoint source pollution or polluted run-off is the 
largest source of pollution to the nation's coastal waters. It 
is the leading cause of beach and shellfish bed closures, fish 
consumption warnings and massive fish kills. Additional funds 
are essential so that 29 coastal States and territories can 
complete their programs and begin to implement management 
measures to reduce the impacts of polluted run-off to our 
coastal waters.
    For fisheries, essentially we urge the Subcommittee to 
provide for the President's requested increases for basic 
program activities within the Resource Information and 
Fisheries Management Program line items. These increases are 
fundamental to NMFS and the regional Fishery Management 
Councils being able to rebuild America's depleted marine 
fisheries under the provisions of the Magnuson-Stevens Fishery 
Conservation and Management Act.
    The marine fishery resources of the United States are in 
serious trouble. According to NMFS, for the stocks under its 
jurisdiction whose status is known, 36 percent are overutilized 
and another 44 percent are fully utilized. NMFS estimates that 
restoring fisheries will have a benefit to the economy of $12 
billion in total.
    Additional funds are essential to conduct needed stock 
assessments on which NMFS is woefully behind, as well as to 
implement the critical new provisions of the Magnuson-Stevens 
Act.
    We also urge the Subcommittee to provide additional funds 
above the President's request to pay for important 
congressional priorities. Otherwise, essential programmaticwork 
will be impaired, as it was somewhat this year.
    On marine wildlife, we appreciate the increases for ESA 
recovery plans. However, while the President's budget invests 
heavily in Pacific salmon recovery, he falls far short of what 
is needed for other threatened and endangered species, 
including the northern white whale and sea turtles.
    He also severely short-changes the implementation of the 
Marine Mammal Protection Act. We also urge the Subcommittee to 
fully fund the Marine Mammal Commission.
    And finally, we urge the Subcommittee to maintain funding 
for the National Underwater Research Program and reject the 
President's proposed $11.4 million cut. Thank you, Mr. 
Chairman.
    [The information follows:]


[Pages 502 - 509--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you. Perfect timing.
    Barry Rogstad, American Business Conference.
                              ----------                              

                                          Wednesday, April 1, 1998.

                      AMERICAN BUSINESS CONFERENCE

                                WITNESS

BARRY K. ROGSTAD, PRESIDENT
    Mr. Rogstad. Good afternoon, Mr. Chairman.
    Mr. Rogers. How are you?
    Mr. Rogstad. I am fine, sir. Thank you. Barry Rogstad, 
president of the American Business Conference but I am here 
this afternoon in my capacity as chairman of the Board of 
Overseers of the Malcolm Baldrige National Quality Award and I 
am very pleased to have the opportunity to present my views and 
those of the board on the unique and important role that the 
Baldrige Award plays in strengthening America's competitiveness 
and the compelling arguments for expanding the award to include 
education and health care categories.
    Congress created the Baldrige National Quality Award in 
1987 and we believe that it proved a major milestone in 
restoring U.S. business competitiveness. The award process 
itself has inspired the dissemination of best performance 
practices to tens of thousands of U.S. companies who use the 
quality criteria to strengthen their competitiveness.
    Based on this experience and that track record, the 
business community wants Baldrige categories in health care and 
education. Starting in 1990, representatives of the business 
community requested creation of Baldrige Award categories in 
both education and health care. They believed then and I think 
it is safe to say that they feel even stronger about it today, 
that creation of these categories would improve education and 
health care quality, would control costs to businesses 
associated with worker health care and lost work time for 
remedial education, and would allow the transfer of knowledge 
from business processes and improvements in management systems 
to the education and health care sectors.
    But I think a point I want to urge to you is this is not 
just a business-driven issue. Of equal importance for your 
consideration, I think, is the significant demand within the 
health care and education communities themselves for Baldrige 
Award categories. Education and health care are today where 
American businesses were 12 to 15 years ago. They are being 
challenged to meet more demanding performance standards and 
higher customer expectations and deliver quality services, all 
at lower costs, and are increasingly being held accountable for 
their performance.
    Therefore, education and health care leaders are searching 
for improvement strategies that will work, and I think that is 
why they are turning to Baldrige.
    The business, education and health care communities all 
want that process and that award process to be administered by 
the Baldrige Office in the National Institute of Standards and 
Technology because it is an external source of reputation and 
it is respected as an outside arbiter for excellence. It 
embodies the image of high standards and objectivity, sir.
    We are seeking the Congress's approval for the $2.3million 
requested in the Commerce Department's budget for the extension to 
health care and education. Through this action, the Congress will be 
able to create what I would say is the greatest amount of positive 
momentum for performance excellence in these sectors at the lowest 
possible cost to the government.
    Four points. I think this expansion would one, forge local 
partnerships and enable partnerships between parents, teachers, 
administrators and employers, health care managers and civic 
leaders to improve their community institutions, empowering 
thousands of local professionals to enlist their enormous 
assets in achieving higher performance.
    We in the business community view Baldrige as an external 
change agent and a catalyst that can provide a proven yet fresh 
approach and fresh perspective to our colleagues who run school 
systems and health care facilities.
    I think secondly, it will propel a momentum for excellence 
and quality performance to all school and health care 
organizations in the country at virtually no cost to the 
government in a national roll-out campaign.
    Thirdly, I think that this award guarantees that the $2.3 
million federal commitment to expand the award will leverage 
$15 million that is now being contributed to the Baldrige 
Foundation for this project. This foundation is also reaching 
out to leaders in the health care and education communities to 
make sure that they are part of this effort.
    Finally, this is an effort that is galvanizing the strong 
underlying support that exists within all the major national 
business organizations, including my own, their underlying 
constituencies, education associations, teachers unions, health 
care organizations.
    Their views on this subject are very strong and very 
positive and they are now communicating their views to this 
Subcommittee and to other members of the Congress and I trust 
that you will find this evidence compelling.
    In short, I think that for all of these reasons, we 
strongly support the proposed expansion to enable education and 
health care to take advantage of the proven Baldrige 
infrastructure and to act on the reality that improved 
performance is not limited to business but is important to all 
organizations.
    I thank you for your consideration.
    [The information follows:]


[Pages 512 - 521--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you, Mr. Rogstad. We appreciate your 
testimony.
    Dr. Edward Eyring, Gospel Rescue Ministries of Washington. 
Welcome. Good to see you again.
                              ----------                              

                                          Wednesday, April 1, 1998.

                        GOSPEL RESCUE MINISTRIES

                                WITNESS

EDWARD EYRING, PRESIDENT AND EXECUTIVE DIRECTOR
    Mr. Eyring. Thank you. I appreciate your invitation, 
members of the Subcommittee, to address you this year. Previous 
support of $190,000 via Weed and Seed has been most appreciated 
by Gospel Rescue Ministries.
    As an update, I can tell you that we are almost through the 
permitting process and we hope to be able to start construction 
within eight weeks. We have already started an extramural 
program of identifying women to be candidates for participation 
and we are working with them outside where they live and also 
with our central facility.
    My purpose today is not to ask for a specific appropriation 
but rather to cast a vision for you to see how we might make 
optimal use of another one of the District's assets to help the 
poor and the needy of the District.
    If you think the vision is viable, I would like to ask you 
and your staff to do two things. First, I would like some 
direction and support in putting together a more specific plan, 
and secondly, perhaps financial support and again perhaps next 
year for specific aspects of the project which might involve 
the Department of Justice directly.
    Consider what would happen if a number of agencies could 
come together in a single place to provide basic rescue needs, 
such as food, shelter, clothing and primary medical care, to 
identifiable groups of the poor and needy, such as substance 
abusers, people just getting out of prison, womenwith children 
and families, and do this at a fairly reasonable cost.
    What if crime could be reduced, the undereducated could be 
made literate or computer literate, the unemployed and 
underemployed people could be placed on career paths of 
substance not just jobs? This would be a grant opportunity to 
combine a continuum of care model, which is what we talk about, 
with genuine cooperation among faith-based providers and 
others.
    Now, within the District of Columbia there is a campus 
called the McKinley High School campus, which also includes 
Langley and Emory. This dream actually could become a reality. 
What a valuable asset we have here. With an enlightened use of 
this asset we could demonstrate that the federal government, 
the District of Columbia, the private sector could work 
together with socially concerned nonprofit agencies and 
foundations to create a center for the poor and often hard to 
reach folks of our District as an example to the rest of the 
country of how to transform lives of poor and needy persons.
    We would love to help develop a plan to bring effective 
cooperation into reality. Gospel Rescue Ministries is already a 
contributing participant of the North Capitol Collaborative, 
the Community Partnership, COHOO, the Ministry Assembly and 
many networks. We have entered into productive dialogue with 
the Departments of Justice and Labor, HUD, the U.S. Congress 
and many foundations.
    The transfer of the Fulton Hotel to Gospel Rescue 
Ministries through Weed and Seed alone represented the fruit of 
three years of negotiating with various groups. I believe it 
could be said that Gospel Rescue Ministries has a substantial 
and clear understanding of the issues related to the working 
together of government and faith-based organizations.
    Operational costs would be substantial. We really do not 
have an accurate budget but it would be in the millions. But 
whatever the specific cost, we are convinced that this vision 
could be implemented for a third of the cost of similar 
government programs and provide better outcomes, consistent 
with our performance to date.
    Now, we realize that impressive hurdles exist in the areas 
of zoning, permitting, assignment of space, et cetera, but we 
are persuaded that the need and the potential gain to the poor 
will amply justify the risk. Such a bold plan would be 
revolutionary and possibly complicated--no doubt complicated. 
We in Gospel Rescue Ministries believe that we are a government 
of the people, by the people and for the people and we would 
want to be a part of the demonstration of that truth.
    This is an opportunity for all of us to make a profound 
difference not only on the lives we touch here in Washington 
but also similar lives throughout the nation. I believe that 
together we can provide the vision and resources necessary to 
bring people together to transform the lives of thousands of 
citizens.
    I realize there is a general plan for highest and best use 
of this and other abandoned sites in the District. I am 
concerned that this will end up meaning either just the highest 
financial return or a segmented use of properties where they 
are sold off piecemeal to agencies that will not work together.
    Thanks for listening. I want to remind you that your 
invitation to come and have salmon with us is still open and it 
is getting better all the time. I also wanted to introduce 
David Treadwell, who is the executive director of our sister 
rescue ministry, Central Union Mission, and to comment that we 
are working to do everything we can to work together to solve 
these kinds of problems. Thanks so much.
    [The information follows:]


[Pages 524 - 529--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you for your testimony. I had lunch with 
members today and Tony Hall told me you were to be here. He was 
speaking highly of your efforts. He and I agree with that.
    Mr. Eyring. Well, he served dinner there on Christmas day.
    Mr. Rogers. Did he? Well, thank you for your testimony.
    Ron Allen, Jamestown S'Klallam Tribe.
    Mr. Allen. Mr. Chairman, my friend Mary Pavel, who is the 
last witness on your list today, is on a tight time schedule to 
catch a flight. I would be willing to change places with her if 
it is okay with you.
    Mr. Rogers. That is nice of you. Thank you.
    Mary Pavel, Northwest Intertribal Court System.
                              ----------                              

                                          Wednesday, April 1, 1998.

                   NORTHWEST INTERTRIBAL COURT SYSTEM

                                WITNESS

MARY PAVEL, ON BEHALF OF NORTHWEST INTERTRIBAL COURT SYSTEM
    Ms. Pavel. Thank you, Mr. Chairman.
    Mr. Chairman, my name is Mary Pavel. I am a member of the 
Skokomish Tribe in Washington State and a practicing attorney 
here in Washington, D.C. with the law firm of Sonosky Chambers 
Sachse and Endreson.
    I am pleased to be here to present testimony on behalf of 
the Northwest Intertribal Court System, an organization that my 
mother helped found in 1979, concerning the administration of 
justice on small Indian reservations in the Northwest.
    NICS is a consortium of 10 member tribes and one affiliate 
tribe in Western Washington. The consortium assists 
participating tribes in the development of their individual 
justice systems and provides an integral component of the 
broader goal of moving toward greater tribal self-determination 
and self-governance.
    The most immediate and practical solution to the growing 
pressures on individual tribal court systems in 1979, when NICS 
was created, was the creation of a circuit court for the member 
tribes, and thus NICS was born. Beginning with a single judge 
who provided judicial services, NICS has expanded over two 
decades to include prosecutorial, defense, juvenile, code-
writing, mediation and training services.
    We are very proud of the contributions that we have made 
over the last 19 years in improving the efficiency and 
effectiveness of tribal court systems. However, much work needs 
to be done. There have been extraordinary reductions in federal 
Indian programs in recent times, almost to the point where a 
virtual emergency exists in Indian Country.
    Almost one-third of Native American people now live below 
the poverty line. Coupled with increased poverty has come an 
explosion of the illegal drug use and gang activity, resulting 
in an alarming escalation of serious and violent crimes on our 
reservations.
    We urge this Subcommittee to work with tribal governments 
to reverse this downward trend in our societies. Only with this 
Subcommittee's support for adequate funding can the federal 
government fulfill its trust responsibilities to Indian tribes 
and ensure that every American receives equal justice under the 
law.
    I would like to highlight one particular aspect of the 
President's budget request. It is the Department of Interior 
and Department of Justice Joint Law Enforcement Initiative 
concerning Indian Country. In particular, we would like to 
strongly support the $10 million aspect of that for technical 
assistance and training funds, in addition to grants for 
strengthening tribal court systems.
    There is a significant and great need for tribal courts. In 
1993, Congress acknowledged this and authorized the 
appropriation of $50 million annually for tribal court systems. 
That act, the Indian Tribal Justice Act, has never been funded. 
This is one step toward the funding of that act and the goals 
of that act. I would urge this Subcommittee to support that 
request. Thank you.
    [The information follows:]


[Pages 532 - 535--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you very much.
    Now, Mr. Allen, Ron Allen, James S'Klallam.
                              ----------                              

                                          Wednesday, April 1, 1998.

                       PACIFIC SALMON COMMISSION

                                WITNESS

 RON ALLEN, U.S. COMMISSIONER
    Mr. Allen. Good afternoon, Mr. Chairman. I am pinch-hitting 
here today. I normally do not do the testifying for the issue 
that I bring before you.
    I am the chairman for the Jamestown S'Klallam Tribe located 
in Western Washington State. I am also the commissioner 
representing the 24 tribes in the Pacific Northwest in the 
U.S.-Canada Pacific Salmon Treaty in that forum, trying to deal 
with the fisheries from Alaska to the Oregon Coast and up the 
Columbia River.
    I am here testifying on behalf of our request for the 
fiscal support for the Department of Commerce NMFS programs and 
the Department of State programs that fund this particular 
activity.
    As you are probably aware, back in 1985 we established this 
treaty with Canada to try to help improve the management of the 
five species that swim the waters of the coast in the Pacific 
Northwest. It has been quite challenging for us, for the last 
13, 14 years, and these last couple of days we have been in 
town basically negotiating with Canada to try to resolve some 
impasses that we have had in that treaty.
    This budget is essentially the budget that provides the 
resources for us to implement the treaty, to deal with the 
scientific responsibilities of the fisheries in each of the 
stocks and the complexities of the stock. The Administration 
has asked for a continuation of the budget from last year. In 
our opinion, there is no shortfall, so we are very supportive 
of that and encourage the Congress to be supportive of that.
    There is a specific complexity in this effort and that is 
with chinook, which is a particular stock that is very 
complicated in terms of a set of stocks of one species that 
originates from Alaska and British Columbia and the Columbia 
River and the Puget Sound and we have had a very difficult time 
managing that fishery and coming to terms with Alaskans and 
with British Columbia.
    Well, we came up with a letter of agreement on managing 
this effort that we think is more effective in terms of 
managing it on what we call a stock abundance approach. That 
requires us to do some additional work in terms of improving 
the scientific mechanisms that we can politically accept in 
terms of the allocation of these fisheries.
    Last year we asked for $1.8 million--I think it is actually 
1.844--and the Congress appropriated $1.5 million. This year 
the Administration did not ask for any additional money and we 
believe that that work has to continue on and that we would ask 
the Congress to consider reinstating that number back to the 
number that we had requested for the work that is necessary.
    The other issue that is of concern to us is the money that 
goes to the Department of State and the number that was 
appropriated last year was $1.4 million. We had asked for the 
$1.6 million for '99. We believe that that number is necessary. 
That is the money that is used to pay for all of the policy 
people and the technical people that implement this program. It 
has gotten a little more expensive in the last couple of years 
because we have had countless more meetings trying to reconcile 
differences between the two countries and the on-going 
negotiations are taking place right now that we are constantly 
struggling with that.
    We would ask your consideration of just bumping it up that 
extra $168,000 to cover those costs. We are hopeful that that 
will cover our needs and bring this thing to a conclusion.
    It is very important to the Northwest. I cannot begin to 
underline it enough, how important it is to that industry out 
there and to the tribes, to non-Indian constituents, et cetera.
    I appreciate your time and appreciate your consideration.
    [The information follows:]


[Pages 538 - 541--The official Committee record contains additional material here.]



    Mr. Rogers. Thank you. You have made a very strong case.
    Mr. Allen. Thank you.
    Mr. Rogers. Jeri Swinton, Big Brothers/Big Sisters of 
America. I understand you are with the Kentucky State 
Association. Welcome.
                              ----------                              

                                          Wednesday, April 1, 1998.

                  BIG BROTHERS/BIG SISTERS OF AMERICA

                                WITNESS

JERI SWINTON, CHAIR, KENTUCKY STATE ASSOCIATION
    Ms. Swinton. Thank you. Thank you for letting Big Brothers/
Big Sisters come again this year to address you concerning the 
JUMP funding.
    As you said, I am with the State Association of Big 
Brothers/Big Sisters. I am the executive director of Big 
Brothers/Big Sisters of the Louisville Big Brothers/Big Sisters 
agency.
     I don't know if you are aware that Big Brothers/Big 
Sisters of America is a federation of over 500 agencies 
nationally and serves over 100,000 children. 1,000 of those 
children are from the State of Kentucky that we serve in our 
seven agencies in the State.
    As you know, children in Kentucky and everywhere are facing 
greater problems than they ever have before--drug abuse, 
substance abuse, violence and, as you know, in Kentucky we are 
all too aware of violence that happens in the schools. And we 
are working at Big Brothers/Big Sisters, we are working very 
hard to meet those challenges.
    In fact, an outside research study done by Public/Private 
Ventures shows that children who are involved with Big Brothers 
and Big Sisters are 46 percent less likely to use drugs. They 
are 27 percent less likely to turn to alcohol. They are 52 
percent less likely to skip school, 33 percent less likely to 
hit someone, to resort to violence as a solution to a problem. 
And this is compared with children who are like them but who 
are not matched with Big Brothers and Big Sisters.
    Big Brothers/Big Sisters played a lead role several years 
ago in the drafting of legislation which encouraged the 
development of mentoring programs through JUMP, the Juvenile 
Mentoring Program. This provides local educational agencies, 
mentoring programs, law enforcement agencies an opportunity to 
collaborate and to provide services to children in high crime 
areas who might not otherwise be served through mentoring 
programs.
    In 1995 the Department of Justice awarded the first JUMP 
grants to 41 sites and then last year another 52 grants were 
awarded. However, there were over 500 requests, applicants for 
that money. In fact, in Louisville, Kentucky we applied for 
some of the JUMP funding and the competition was so heavy we 
have yet to receive funds but we hope to.
    I have also heard from folks in the family resource centers 
in Eastern Kentucky, such as Martin County, who have contacted 
me and are desperate for mentoring programs but do not have the 
resources that some in the larger urban areas have to provide 
mentoring programs. So especially in the rural areas, JUMP 
funds are really critical to getting mentoring programs going.
    The request for JUMP funding this year is $23 million. We 
realize in the mentoring community that the Subcommittee wants 
to see a greater return for their investment and we think that 
it makes sense to put funds in a program like Big Brothers/Big 
Sisters that has proven results.
    One of the reasons that we have those proven results is 
because of the intensive screening that we do of volunteers, 
the training that we do, that even when Rick Patino five years 
ago became a Big Brother, even he had to pass through all those 
processes before we would match him with a child in our 
programs.
    The dollars for mentoring may come in small amounts but we 
feel that they provide real hope for America's youth and are 
especially critical in areas that do not have other funding 
sources.
    I thank you for the opportunity and would be glad to answer 
any questions.
    [The information follows:]


[Pages 544 - 550--The official Committee record contains additional material here.]



    Mr. Rogers. Well, I thank you for being here and I 
appreciate your testimony. It is very convincing.
    Ms. Swinton. Thank you.
    Mr. Rogers. That concludes the session.



[Pages 552 - 788--The official Committee record contains additional material here.]










                           W I T N E S S E S

                              ----------                              
                                                                   Page
Akhter, M. N.....................................................   360
Allen, Ron.......................................................   536
Allen, V. R......................................................   298
Allen, W. R......................................................   670
Anderson, Jim....................................................   428
Andreasen, Christian.............................................   709
Anthes, R. A.....................................................   776
Arbetman, Lee....................................................   681
Armour, Tim......................................................   201
Bailey, S. P.....................................................   569
Barrett, Hon. William............................................    44
Becker, Captain F. R., Jr........................................   733
Bischoff, K. E...................................................   756
Boehm, Kenneth...................................................   218
Bossler, J. D....................................................   742
Breese, R. E.....................................................   469
Brooke, T. W.....................................................   273
Brown, Rear Admiral D. C.........................................   308
Burton, Hon. Dan.................................................   145
Bye, Dr. R. E., Jr...............................................   623
Calhoun, J. A....................................................   404
Calzonetti, Frank................................................   490
Castle, Hon. M. N................................................   149
Clark, B. C......................................................   584
Cramer, Hon. R. E., Jr...........................................    13
Crow, Dr. Michael................................................   611
D'Amato, Hon. Alfonse............................................     1
Deets, H. B......................................................   563
Delahunt, Hon. W. D..............................................    97
Delrich, Sheriff Stephen.........................................   391
Devos, D. F......................................................   619
Dickson, D. J....................................................   500
Dinsmore, Alan...................................................   555
Dixon, M. A......................................................   563
Dobrzynski, Tanya..............................................557, 640
Dodson, Doreen...................................................   208
Erickson, A. G...................................................   650
Erny, Sally......................................................   172
Eyring, Edward...................................................   522
Faleomavaega, Hon. Eni F. H......................................    92
Farr, Hon. Sam...................................................63, 86
Fass, Luie.......................................................   418
Feigel, Gene.....................................................   437
Foley, Bettie....................................................   630
Frank, Billy, Jr.................................................   428
Gartland, D. J...................................................   636
Geisler, D. F....................................................   348
Gekas, Hon. G. W.................................................   151
Gilchrest, Hon. W. T.............................................   107
Gilman, Hon. Benjamin............................................   100
Greenwood, Hon. Jim..............................................   155
Grimes, Dr. D. J.................................................   772
Griswold, G. L...................................................   286
Hannigan, Wendell................................................   460
Harrison, E. A...................................................   157
Helfert, Dr. M. R................................................   698
Hougart, Bille...................................................   705
Hoyer, Hon. S. H.................................................    11
Hubbard, Dr. K. G................................................   698
Jollivette, C. M.................................................   655
Kelly, Bob.......................................................   428
Knapp, Dr. W. W..................................................   698
Krueger, C. C....................................................   372
Kunkel, Dr. K. E.................................................   698
Lariviere, R. W..................................................   341
Lefcourt, G. B...................................................   236
Lewis, D. E......................................................   688
Logsdon, Ed......................................................   193
Massey, Greg.....................................................   318
McAlpin, K. C....................................................   180
McKinney, Hon. C. A..............................................   113
Metcalf, Hon. Jack...............................................   138
Morella, Hon. C. A...............................................   131
Morton, Ted......................................................   557
Myers, Joel......................................................   477
Norton, Hon. E. H................................................   125
Pacelle, Wayne...................................................   262
Padilla, Abe.....................................................   331
Pallone, Hon. Frank, Jr..........................................    19
Pavel, Mary......................................................   530
Pelosi, Hon. Nancy...............................................    31
Peterson, R. M...................................................   447
Pietrafesa, Dr. Leonard..........................................   252
Polo, B. J.......................................................   557
Reinhardt, Dr. R. L..............................................   698
Robbins, Dr. K. D................................................   698
Rogstad, B. K....................................................   510
Rousseau, Roland.................................................   532
Sargent, D. J....................................................   768
Savage, C. M.....................................................   765
Saxton, Hon. James...............................................    54
Scalet, C. G.....................................................   665
Schecter, R. N...................................................   605
Schlender, J. H..................................................   626
Sherman, Lawrence................................................   163
Smith, Hon. C. H.................................................     9
Stein, Dan.......................................................   183
Stupak, Hon. Bart................................................   118
Swartz, P. O.....................................................   153
Swinton, Jeri....................................................   542
Taylor, Dr. Sushma...............................................   598
Thurman, Hon. K. L...............................................   391
Waller, R. R.....................................................   649
Waters, Hon. Maxine..............................................    40
Weldon, Hon. Curt................................................    95
Williams, Richard................................................   391
Zinser, Elizabeth................................................   252

                             <all>
</pre></body></html>
